<html>
<title> - PROTECTING CHILDREN, STRENGTHENING FAMILIES: REAUTHORIZING CAPTA</title>
<body><pre>[Senate Hearing 110-949]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-949

    PROTECTING CHILDREN, STRENGTHENING FAMILIES: REAUTHORIZING CAPTA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING REAUTHORIZATION OF THE CHILD ABUSE PREVENTION AND TREATMENT 
 ACT (CAPTA) (PUBLIC LAW 93-247), FOCUSING ON PROTECTING CHILDREN AND 
                         STRENGTHENING FAMILIES

                               __________

                             JUNE 26, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
43-327 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

                 Ilyse Schuman, Minority Staff Director

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                   Mary Ellen McGuire, Staff Director

                David P. Cleary, Minority Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JUNE 26, 2008

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
    Prepared statement...........................................     2
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  statement......................................................     4
Boyce, Cheryl Anne, Ph.D., Chief, Child Abuse and Neglect 
  Program, National Institute of Mental Health...................     5
    Prepared statement...........................................     7
Long, Tanya, Parent, Columbus, OH................................    10
    Prepared statement...........................................    12
Foley-Schain, Karen, M.A., M. Ed., LPC, Executive Director, 
  Connecticut Children's Trust Fund, Hartford, CT................    14
    Prepared statement...........................................    15
Kaplan, Caren, MSW, Director of Child Protection Reform, American 
  Humane Association.............................................    21
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Clinton, Hon. Hillary, a U.S. Senator from the State of New 
      York, prepared statement...................................    43
    Alexander, Hon. Lamar, a U.S. Senator from the State of 
      Tennessee, prepared statement..............................    44
    Roberts, Hon. Pat, a U.S. Senator from the State of Kansas, 
      prepared statement.........................................    44
    American Psychological Association (APA).....................    45
    Association of University Centers on Disabilities (AUCD).....    46
    Pion-Berlin, Lisa, Ph.D., President & Chief Executive 
      Officer, Parents Anonymous................................    50
    Child Welfare League of America (CWLA).......................    59
    Else, Sue, President, National Network to End Domestic 
      Violence (NNEDV)...........................................    66
    Family Violence Prevention Fund..............................    72
    First Star and the Children's Advocacy Institute.............    75
    National Child Abuse Coalition...............................    77

                                 (iii)

  

 
    PROTECTING CHILDREN, STRENGTHENING FAMILIES: REAUTHORIZING CAPTA

                              ----------                              


                        THURSDAY, JUNE 26, 2008

                                       U.S. Senate,
Subcommittee on Children and Families, Committee on Health, 
                            Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Christopher 
Dodd, chairman of the subcommittee, presiding.
    Present: Senators Dodd and Isakson.

                   Opening Statement of Senator Dodd

    Senator Dodd. I apologize to our witnesses and our guests 
in the hearing room, and to my colleague from Georgia, for 
being a few minutes late getting over here. I'm delighted 
you're all here this afternoon for a very important hearing, 
and I thank our audience as well as my colleagues and the staff 
who are here.
    Let me begin with a brief opening statement about the issue 
before us today. I'll turn to my colleague Senator Isakson of 
Georgia and then we'll turn to our witnesses here and ask them 
for some opening comments and statements, and then have a good 
conversation with each other about the importance of this 
effort.
    I'd like to welcome my colleague, as I said, to this 
important hearing and thank our very distinguished witnesses 
this afternoon for being with us today as well. Today's hearing 
will look at the Child Abuse Prevention and Treatment Act and 
hear from different perspectives, its successes, its 
shortcomings, and how it is being implemented across the 
country.
    Today in the United States nearly a million children are 
abused in some way each year. It's a stunning number. While 
CAPTA has brought much-needed attention and change to the 
issues of child maltreatment, this number is astonishingly and 
unacceptably high.
    We're here today to hear from an array of witnesses who 
will discuss their experiences with CAPTA and suggest changes 
that might be made during the reauthorization of this vitally 
important piece of legislation. CAPTA was initially enacted in 
1974 with a very simple purpose: creating a single Federal 
focus to deal with the problems of child abuse and neglect. 
CAPTA provides a Federal minimum definition of what constitutes 
child abuse and neglect. It is composed of basic grants for 
States to improve their child protective systems, grants for 
community-based services, and activities to prevent child abuse 
and neglect. It authorizes Children's Justice Act grants, for 
States to create multidisciplinary task forces to address 
sexual abuse, child abuse and neglect, fatalities, and abuse 
and neglect cases involving disabled children. CAPTA also 
provides discretionary grants to fund research, resource 
centers, and demonstration projects related to preventing and 
treating child abuse.
    Over the past 34 years, CAPTA has been reauthorized and 
changed to adapt to emerging trends and needs in this arena. We 
continue to see changing needs, which we will begin to address 
at this hearing.
    CAPTA has improved the outcomes of rates of child 
maltreatment, but disparities and concerning trends remain. The 
rates of physical abuse have decreased in recent years, but the 
rates of neglect have remained disturbingly constant and 60 
percent of child maltreatment cases are due to neglect. 
Minorities are impacted acutely by child maltreatment, with the 
highest rates of child victims reported for African-American 
children, totaling nearly 20 victims out of every 1,000 
children, with other races not far behind. The rate of abuse 
for white children is about half of that.
    Other issues that need to be addressed include the role of 
domestic violence and child abuse in neglect cases and the role 
of fathers and men in these cases. Domestic violence is 
involved in approximately half of all cases that are reported 
to child protection services. In my home State of Connecticut, 
in the home visiting population, 18 percent of fathers in urban 
communities are in prison when their children are born and only 
30 percent of the fathers in these programs live with their 
children.
    Perhaps the most disturbing finding is that the youngest 
children in this country are the most abused and neglected--I 
find that incredible--and I would add, the most vulnerable.
    CAPTA can and should address these issues. States have 
implemented CAPTA in a variety of ways and some are testing and 
putting in place innovative programs to address these problems, 
which we hope to encourage with this legislation. A number of 
States are looking at what is known as differential response, 
which recognizes that we cannot have a one-size-fits-all child 
welfare system. In Philadelphia, for instance, an effort is 
under way to screen every child reported to the child welfare 
system, whether they be substantiated or unsubstantiated cases 
of neglect or abuse.
    Mental health is a major factor in child abuse and neglect. 
Again, my home State of Connecticut will soon conduct a trial 
on the in-home cognitive behavioral therapy for treating 
mothers with depression. The goal of this effort is to address 
the root cause of some child abuse and neglect, as research 
shows that depression in mothers increases their risk for abuse 
and neglect.
    Although child abuse and neglect are preventable, they 
currently cost this country an estimated $103.8 billion 
annually in 2007 dollars. Of course, the true cost is far 
beyond that. I only mention those numbers just for those who 
wonder about this issue in purely financial terms. The larger 
cost is largely an emotional one, of behavioral and 
developmental effects that abuse and neglect have on children 
long into their lives.
    We convene this hearing today to hear how CAPTA is being 
implemented in the field and how it can be changed and improved 
to better address the needs of our children and families. The 
needs of our children and families, of course, are paramount. 
This is one of the most serious responsibilities that we have 
as legislators.
    Let me--if I can now turn to my colleague from Georgia for 
his opening comments and then we'll be anxious to hear from our 
witnesses.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    I would like to welcome my colleagues to this important 
hearing, and thank our distinguished witnesses for being with 
us today. Today's hearing will look at the Child Abuse 
Prevention and Treatment Act and hear, from different 
perspectives, its successes, its shortcomings, and how it is 
being implemented across the country.
    Today, in the United States, nearly a million children are 
abused in some way each year.
    It is a stunning number. While CAPTA has brought much-
needed attention and change to the issues of child 
maltreatment, this number is astonishingly and unacceptably 
high. We are here today to hear from an array of witnesses who 
will discuss their experience with CAPTA and suggest changes 
that might be made during reauthorization of this vital 
legislation.
    CAPTA was initially enacted in 1974 with a simple purpose: 
creating a single Federal focus to deal with the problems of 
child abuse and neglect.
    CAPTA provides a Federal minimum definition of what 
constitutes child abuse and neglect. It is composed of basic 
grants for States to improve their child protective systems, 
grants for community-based services and activities to prevent 
child abuse and neglect, and authorizes Children's Justice Act 
grants for States to create multidisciplinary task forces to 
address sexual abuse, child abuse and neglect fatalities, and 
abuse and neglect cases involving disabled children. CAPTA also 
provides discretionary grants to fund research, resource 
centers, and demonstration projects related to preventing and 
treating child abuse. Over the past 34 years, CAPTA has been 
reauthorized and changed to adapt to emerging trends and needs 
in this arena. We continue to see changing needs, which we will 
begin to address at this hearing.
    CAPTA has improved the outcomes and rates of child 
maltreatment, but disparities and concerning trends remain. The 
rates of physical abuse have decreased in recent years, but the 
rates of neglect have remained disturbingly constant, and 60 
percent of child maltreatment cases are due to neglect.
    Minorities are impacted acutely by child maltreatment, with 
the highest rates of child victims reported for African-
American children, totaling nearly 20 victims out of every 
thousand children, with other races not far behind. The rate of 
abuse for white children is about half.
    Other issues that need to be addressed include the role of 
domestic violence in child abuse and neglect cases, and the 
role of fathers and men in these cases. Domestic violence is 
involved in approximately half of all cases that are reported 
to child protective services. In the State of Connecticut's 
home visiting population, 18 percent of fathers in urban 
communities are in prison when their children are born, and 
only 30 percent of fathers in these programs live with their 
children.
    Perhaps the most disturbing finding is that the youngest 
children in this country are the most abused and neglected. 
And, I would add, the most vulnerable.
    CAPTA can and should address these issues. States have 
implemented CAPTA in a variety of ways, and some are testing 
and putting in place innovative programs to address these 
problems, which we hope to encourage with this legislation.
    A number of States are looking at what is known as 
``differential response,'' which recognizes that we cannot have 
a ``one-size-fits-all'' child welfare system. In Philadelphia 
an effort is underway to screen every child reported to the 
child welfare system, whether they be substantiated or 
unsubstantiated cases of neglect or abuse.
    Mental health is a major factor in child abuse and neglect, 
and my home State of Connecticut will soon conduct a trial on 
an in-home cognitive behavioral therapy for treating mothers 
with depression. The goal of this effort is to address the root 
cause of some child abuse and neglect, as research shows that 
depression in mothers increases their risk for abuse and 
neglect.
    Although child abuse and neglect are preventable, they 
currently cost this country an estimated $103.8 billion 
annually, in 2007 dollars. Of course, the true cost is the 
emotional, behavioral, and developmental effects abuse and 
neglect have on children long into their lives. We convene this 
hearing today to hear how CAPTA is being implemented in the 
field and how it can be changed and improved to better address 
the needs of our children and families. This is one of our most 
serious responsibilities as legislators.

    Senator Dodd. I now turn to Senator Isakson for an opening 
statement.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you, Mr. Chairman. I'm honored 
to be here with you today, and I want to welcome all of our 
guests and our professionals, and in particular Ms. Tanya Long. 
I had the occasion earlier today to read her compelling story. 
Your courage to come forward is a great testimony to CAPTA and 
the program that it funds, Parents Anonymous, and I'm looking 
forward to everyone being able to hear the benefits of that 
program and what it did for you and your life and the life of 
your children and your grandchild. So welcome to you.
    Thanks to all of you for being here today and I look 
forward to the testimony.
    Senator Dodd. Thank you very much, Senator.
    Let me introduce our very distinguished panel of witnesses. 
First of all, I'd like to welcome Dr. Cheryl Boyce. Doctor, we 
thank you for being with us. Dr. Boyce is a child clinical 
psychologist in the Division of Pediatric Translational 
Research and Treatment and Development, the National Institutes 
of Health. Dr. Boyce is here to discuss her research on child 
abuse and neglect. We look forward to hearing what you've 
learned through your research regarding intervention, home 
visitation, and the effects of child abuse and neglect on 
mental health and behavior.
    Tanya Long we've already sort of introduced by Senator 
Isakson and we welcome. I want to underscore the comments of 
Senator Isakson. It takes a lot of courage to stand up and talk 
about a personal journey. But, know full well, Ms. Long, that 
your story is one that is not unique. I know that it seems that 
way, but unfortunately it's not. There are literally thousands 
and thousands of people that are going through, or have gone 
through similar journeys.
    Your presence here today and your sharing this story gives 
us a dimension that is beyond the data and the numbers and the 
statistics. I almost hesitate to use some of these numbers in 
talking about the number of cases and how much it costs, 
because it's important for people to understand this in real, 
personal terms, and your presence and participation here make 
that possible. You're performing a very, very valuable national 
service by being here this afternoon and we're all very, very 
grateful and honored you're here. We thank you very, very much.
    I'd like to also introduce if I can Karen Foley--is it 
``SHAEN''? Is that the correct?
    Ms. Foley-Schain. Yes.
    Senator Dodd. Karen Foley-Schain today is joining us from 
Connecticut. She is the Executive Director of the Connecticut 
Children's Trust Fund, the State agency that distributes CAPTA 
Title 2 funding in Connecticut, where she has served as the 
Executive Director since 1999. We thank you as well for being 
with us, from my home State.
    Caren Kaplan is the Director of Child Protection Reform at 
the American Humane Association. She is leading a national 
initiative on differential response, and she has done extensive 
work on chronic neglect and the assessment of child safety, 
risk, and comprehensive family functioning by child protection 
agencies. Certainly your testimony will be tremendously 
valuable.
    We'll begin with you, Dr. Boyce, if we can, and ask you if 
you would try and keep your opening statements down to 5 or 6 
minutes or so. I promise you that your full remarks and any 
supporting data and information which you think will be 
valuable for our committee in its consideration of the 
reauthorization of this program will be made a part of the 
record.
    That goes for all of the witnesses today. If you can kind 
of abbreviate it a bit, we can get to some of the questions. We 
thank you again for being with us.
    Dr. Boyce, the floor is yours.

 STATEMENT OF CHERYL ANNE BOYCE, PH.D., CHIEF, CHILD ABUSE AND 
      NEGLECT PROGRAM, NATIONAL INSTITUTE OF MENTAL HEALTH

    Dr. Boyce. Good afternoon. Thank you, Chairman Dodd, and 
thank you, Senator Isakson, for coming today. You've given me a 
great introduction. In addition to being at the National 
Institute of Mental Health, where I serve as Chief of the Child 
Abuse and Neglect Research Program, I am a child clinical 
psychologist who has seen these cases at Children's National 
Medical Center in the past, not far from where we are today.
    I serve as a co-chair on one of the larger inter-agency 
efforts to combat child abuse and neglect through research 
collaborations, the NIH Child Abuse and Neglect Research 
Working Group, and I co-chair this along with Valerie Holmes, 
who's at the partner institute, NICHD, which you may be 
familiar with.
    I oversee research that seeks to reduce and prevent the 
negative consequences of child abuse and neglect, specifically 
mental disorders, which you referenced in your opening 
statement. We work routinely with ACF, the Centers for Disease 
Control and Prevention, the Department of Justice, Department 
of Education, and Department of Defense, as well as advocacy 
groups and the public community.
    We know, as you've just stated, that child abuse and 
neglect can have a profound impact on children's immediate as 
well as long-term mental and physical health. In 2006, as you 
referenced in your statement, it's almost a million children 
who were victims, 905,000. More than 60 percent of these 
children experience neglect. This has been a specific emphasis 
of our research efforts through a consortium that we've funded 
for many years.
    Furthermore, it's the youngest children that are at risk. 
Ages birth to 3 years have the highest rates of victimization. 
Most devastating is that 1,500 children die annually due to 
child abuse and neglect. Those who have been exposed to neglect 
are exposed to various risk factors and subsequent health 
problems. They experience high rates of post-traumatic stress 
disorder, depression, isolation, self-destructive behaviors, 
and then co-morbid problems, including substance abuse, tobacco 
use, alcohol abuse, and neurological impairments.
    The youngest children are at highest risk. Neglect is the 
most pervasive problem and children are suffering from 
immediate and long-term problems over the course of development 
and throughout their life.
    This is a complex public health issue, and that was 
highlighted previously by the Surgeon General, who held a 
workshop to make child maltreatment a national priority. It is 
caused by a myriad of factors, including individual, family, 
community level elements. Research to combat child maltreatment 
has included work in the basic area, biomedical area, 
behavioral, social sciences, and includes areas such as mental 
health, public health, prevention, alcohol and substance abuse, 
neurology, injury, trauma, child development, gene-environment 
interactions. We use all of these to inform prevention, 
assessment, treatment, and services for this vulnerable 
population of children and their families.
    For example, right now we have announcements out there on 
violence and trauma and on interventions to call for our best 
research innovations to prevent child abuse and its potential 
negative effects. It's the complexity of these interactions 
that must be taken into account, so we can understand the 
consequences of maltreatment and focus on those factors that 
might promote resiliency in the face of this adversity.
    We have longitudinal studies that offer critical 
information not only on mental health and physical health, but 
recent reviews suggest that there are adverse effects on the 
academic and intellectual functioning and occupational 
functioning of children who are abused.
    When we look at services, we have some surprising and 
unfortunate patterns of children who are maltreated when it 
comes to services. Looking at the youngest children, 48 percent 
of toddlers and 68 percent of preschool-aged children evidence 
behavioral problems or developmental delays, but only 22 
percent receive services. Looking at the children who are a 
little older than 2 years, 48 percent have indicated mental 
health problems, but only a quarter of those are receiving 
services.
    Then when you look at children who are 3 years out of their 
first reports, 28 percent are reported as having already 
chronic health issues, and 30 percent of school-age children 
are identified as potentially in need of special education 
services.
    In summary, we know this is a complex, multifaceted problem 
and we need to integrate knowledge at different levels of 
analysis--biology, individual, family, and the neighborhood. We 
need to intervene early, which is often the case for neglect, 
and follow children over time to understand when to intervene 
at key points of risk to impact their development and 
trajectories and reduce the negative effects on mental and 
physical health over time. When children are identified, we 
need to make sure that they're getting effective services.
    With that, I will close and I am available to answer any 
questions you may have to help inform your decisionmaking now 
and in the future.
    [The prepared statement of Dr. Boyce follows:]
             Prepared Statement of Cheryl Anne Boyce, Ph.D.
                                summary
    Child abuse and neglect can have a profound impact on children's 
immediate and long-term mental and physical health. It is a complex 
public health issue, likely caused by a myriad of factors, including 
elements involving the individual, the family, and the community. 
Children and adolescents exposed to child abuse and neglect experience 
high rates of post-traumatic stress disorder, depression, isolation, 
self-destructive behaviors and co-morbid problems including tobacco 
use; misuse of drugs and alcohol, as well as alcohol dependence; and 
neurological impairments. Reviews suggest that child abuse and neglect 
have adverse effects on academic and intellectual functioning and 
occupational functioning, which are likely to impact subsequent 
development and life trajectories as well.
    Numerous prevention programs target caregivers to prevent 
maltreatment. Research has also demonstrated that there are numerous 
risk and protective factors that interact to affect maltreatment and 
are potential targets for effective interventions. Understanding the 
complexity of the many risk factors faced by children and families 
forms the basis for developing a new generation of targeted prevention 
and intervention research.
                              introduction
    Chairman Dodd and members of the subcommittee, good afternoon and 
thank you for the opportunity to speak to you today on research 
conducted and supported by the National Institutes of Health (NIH) to 
address the public health problem of child abuse and neglect. I am 
Cheryl Anne Boyce, Chief of the Child Abuse and Neglect Research 
Program at the National Institute of Mental Health (NIMH) within the 
NIH, an agency of the Department of Health and Human Services (HHS), as 
well as the co-chair of the NIH Child Abuse and Neglect Working Group. 
I am also a member of the Federal Interagency Workgroup on Child Abuse 
and Neglect led by the Office on Child Abuse and Neglect (OCAN) within 
the Children's Bureau of HHS's Administration for Children and Families 
(ACF) and a member of the technical working group for the National 
Survey of Child and Adolescent Well-Being.
    I oversee research seeking to reduce and prevent the negative 
consequences of child abuse and neglect, specifically mental disorders. 
We at NIH believe that research on child abuse and neglect should be 
used to inform services and policy, and therefore, we work routinely 
with other agencies, including ACF, the Centers for Disease Control and 
Prevention (CDC), the Substance Abuse and Mental Health Services 
Administration (SAMHSA), the Department of Justice, the Department of 
Education, and the Department of Defense; advocacy groups; and the 
public community to facilitate the dissemination of research knowledge 
funded by NIH.
          overview and consequences of child abuse and neglect
    Child abuse and neglect can have a profound impact on children's 
immediate and long-term mental and physical health. In 2006, an 
estimated 905,000 children were victims of child abuse or neglect,\1\ 
and children ages birth to 3 years had the highest rates of 
victimization. Approximately 1,500 children die annually due to child 
abuse or neglect. Children and adolescents who have experienced abuse 
and neglect are exposed to various risk factors for subsequent health 
problems and experience high rates of post-traumatic stress disorder 
(PTSD), depression, isolation, self-destructive behaviors and co-morbid 
problems such as tobacco use; misuse of drugs and alcohol, as well as 
alcohol dependence; and neurological impairments.\1\
---------------------------------------------------------------------------
    \1\ http://www.acf.hhs.gov/programs/cb/stats_research/
index.htm#can.
---------------------------------------------------------------------------
          research efforts to address child abuse and neglect
    Because child abuse and neglect is a complex public health issue, 
likely caused by a myriad of factors, including elements involving the 
individual, the family, and the community, a research program focused 
on understanding and addressing these problems must necessarily draw 
upon interdisciplinary theories and approaches. In order to advance our 
knowledge of child abuse and neglect, NIH-funded research facilitates 
multi-disciplinary work in the basic biomedical, behavioral, and social 
sciences, including areas such as mental health, public health and 
prevention; tobacco use; misuse of drugs and alcohol, as well as 
alcohol dependence; neurology; injury; trauma; and child development. 
NIH research projects utilize rigorous scientific research designs that 
can inform prevention, assessment, treatment, demonstrations, or other 
types of service activities.
    In 1997, NIH convened a working group of its major research 
Institutes and offices supporting research on child abuse and neglect 
to: (1) assess the state of the science; (2) make recommendations for a 
research agenda; and (3) develop plans for future coordination efforts 
at the agency. This group, the NIH Child Abuse and Neglect Working 
Group, meets routinely to coordinate relevant NIH research efforts and 
regularly meets with representatives of other Federal agencies. The 
working group has sponsored a number of workshops to stimulate research 
on child abuse and neglect. In addition, NIH Institutes are currently 
participating in two specific program initiatives to promote research 
related to child abuse and neglect. The first initiative, ``Mental 
Health Consequences of Violence and Trauma,'' \2\ is designed to 
enhance scientific understanding of the etiology of psychopathology 
related to violence and trauma, as well as studies to develop and test 
effective treatments, services, and prevention strategies. Along with 
HHS partner agencies including SAMSHA, CDC, and ACF, NIH is the lead 
agency on the second funding initiative, ``Research Interventions on 
Child Abuse and Neglect,'' \3\ which is designed to stimulate research 
on interventions that assist in changing the negative biological and 
behavioral health effects of child abuse and neglect and may target 
individuals or groups of individuals such as dyads, families, 
communities, or service systems.
---------------------------------------------------------------------------
    \2\ http://grants.nih.gov/grants/guide/pa-files/PA-07-312.html.
    \3\ http://grants.nih.gov/grants/guide/pa-files/PA-07-437.html.
---------------------------------------------------------------------------
    Child maltreatment received heightened attention as a result of a 
March 2005 Workshop convened by the Surgeon General entitled, ``Making 
Prevention of Child Maltreatment a National Priority--Implementing 
Innovations of a Public Health Approach.'' \4\ The workshop 
participants generated ideas for eliminating obstacles to change; and 
identified opportunities for advancing innovations in science, service 
delivery, care coordination, and prevention. As an outgrowth of the 
workshop, the NIH Child Abuse and Neglect Working Group called for 
additional studies to provide a solid evidence base for prevention and 
intervention programs. The goal of this new initiative is to provide a 
scientific basis for understanding the biological and behavioral 
trajectories that can lead to child abuse and neglect in order to 
intervene at an early age.
---------------------------------------------------------------------------
    \4\ http://www.surgeongeneral.gov/healthychild/workshop.html.
---------------------------------------------------------------------------
    A great deal of research has focused on identifying contextual 
factors that protect against maltreatment, as well as individual 
factors that better predict which children are likely to benefit from 
intervention. Innovative research funded by NIH has explored complex 
gene and environment interactions among maltreated children that may 
account in part for these differences. For example, a recent study has 
shown that past child abuse experiences plus a variation in a specific 
gene accounted for more than twice the number of PTSD symptoms in 
adults who had later undergone other traumas, compared to traumatized 
adults who were not abused in childhood.\5\ A history of child abuse 
was not enough alone to lead to increase in PTSD symptoms, nor was 
variations in the stress-related gene enough by itself; it was the 
interaction between the two factors. This is a single illustration of 
the complexity of the interactions that must be taken into account to 
understand the consequences of maltreatment and the factors that may 
promote resiliency in the face of adverse experience.
---------------------------------------------------------------------------
    \5\ Binder EB, Bradley RG, Wei L, Epstein MP, Deveau TC, Mercer KB, 
Tang Y, Gillespie CF, Heim CM, Nemeroff CB, Schwartz AC, Cubells JF, 
Ressler KJ. Association of FKBP5 Polymorphisms and Childhood Abuse With 
Risk of Posttraumatic Stress Disorder Symptoms in Adults. JAMA 299 
(11): 1291-1305. March 19, 2008.
---------------------------------------------------------------------------
    A body of research that encompasses prospective longitudinal 
studies have offered critical information about the developmental 
trajectories of children who have been maltreated, as well as 
information about their pathways. Reviews suggest that child abuse and 
neglect have adverse effects on academic and intellectual functioning 
and occupational functioning, which are likely to impact subsequent 
development and life trajectories as well.\6\ Of these studies, the 
National Survey of Child and Adolescent Well-Being (NSCAW), begun in 
1999, includes a nationally representative sample of children and 
families who are reported to child protective services.\7\ A grant from 
NIMH allowed for the collection of additional contextual information 
about the service systems for these children, as well as for data 
analyses related to children's services. Some notable findings from 
NSCAW are:
---------------------------------------------------------------------------
    \6\ Widom CS. (1998) Childhood Victimization: Early Adversity and 
Subsequent Psychopathology. In B.P. Dohrenwend. (Ed.) Adversity, 
Stress, and Psychopathology, (pp. 81-95) New York, NY: Oxford 
University Press.
    \7\ http://www.acf.hhs.gov/programs/opre/abuse_neglect/nscaw/
index.html.

    <bullet> 48 percent of children older than 2 years with completed 
child welfare investigations had indication of mental health problems, 
while only a quarter of them received mental health services.\8\
---------------------------------------------------------------------------
    \8\ Burns B, Phillips S, Wagner R, et al.: Mental Health Need and 
Access to Mental Health Services by Youth Involved With Child Welfare: 
A National Survey. Journal of the American Academy of Child Adolescent 
Psychiatry 43:960-970, 2004.
---------------------------------------------------------------------------
    <bullet> 48 percent of toddlers and 68 percent of preschool-aged 
children in child welfare evidenced behavioral problems or 
developmental delays, but only 22 percent received services.\9\
---------------------------------------------------------------------------
    \9\ Stahmer AC, Leslie LK., Hurlburt M, Barth RP, Webb MB, 
Landsverk J, and Zhang J. (2005). Developmental and Behavioral Needs 
and Service Use for Young Children in Child Welfare. Pediatrics 116(4), 
891-900.
---------------------------------------------------------------------------
    <bullet> 28 percent are reported as having chronic health 
conditions within the 3 years after a report to child protective 
services.\10\ \11\
---------------------------------------------------------------------------
    \10\ Ringeisen H, Casanueva CE, Urato MP, and Cross TP 
(Forthcoming). ``Special Health Care Needs Among Children in Child 
Welfare.'' Pediatrics.
    \11\ http://www.acf.hhs.gov/programs/opre/abuse_neglect/nscaw/
reports/special_health/special_health.html.

    Nearly 80 percent of perpetrators of child maltreatment were 
parents, according to data reports in 2006.\12\ Findings suggest that 
among caregivers, partner violence, substance abuse, and parental 
depression are robust risk factors for future maltreatment.\12\ By 
unraveling the complex, multi-level risk factors faced by children and 
families that may lead to child abuse and neglect, and understanding 
the multitude of trajectories that may result from it, research 
provides a solid underpinning for developing a new generation of 
targeted prevention and intervention research.
---------------------------------------------------------------------------
    \12\ http://www.childwelfare.gov/can/.
---------------------------------------------------------------------------
                               conclusion
    We know that we must continue to find ways to prevent child abuse 
in this country and decrease its negative consequences. This is a 
challenge that requires research translation, dissemination and 
collaboration across Federal, State, and local agencies and entities. I 
hope you will find the information that I have provided useful and 
helpful. I would be pleased to answer any questions at this time.

    Senator Dodd. Well, Dr. Boyce, thank you very, very much. 
We will have some questions for you about that.
    Ms. Long, thank you again for being with us and we're happy 
to receive your testimony.

         STATEMENT OF TANYA LONG, PARENT, COLUMBUS, OH

    Ms. Long. Good afternoon.
    Senator Dodd. Grab that microphone. I think we've got to 
push a button there for you. Can someone?
    Ms. Long. Good afternoon.
    Senator Dodd. There you go.
    Ms. Long. My name is Tanya Long. Thank you, Chairman Dodd 
and Senator Isakson, for offering me this opportunity to put a 
face, a human face, on the prevention of child abuse and 
neglect by focusing on family-strengthening and child abuse 
prevention.
    I am honored to testify today as a parent from Columbus, 
OH, and share my personal story of prevention and strengthening 
of families. I am a mother of 4 children ages 9, 10, 18, 32, 
and a grandmother of a 7-year-old. I am standing before you 
today as just an example of one family who transformed their 
lives for the better through a CAPTA-funded program. The 
program that I found success through was Parents Anonymous, 
which provides weekly support groups for parents and their 
children. My testimony will focus on the importance of 
prevention, how I have given back to my community to ensure 
that programs meet the diverse needs of families, and 
suggestions for strengthening the CAPTA statute.
    Reaching out and engaging and empowering parents like me 
are critical factors in protecting children and preventing 
child abuse and neglect for future generations. CAPTA-funded 
programs should build on people's strengths, help individuals 
and families address their needs respectfully, and provide 
vital supports to parents and children of any age, race, and 
who reside in neighborhoods all across America.
    I would like to share with you my personal journey. I 
sought help, received support, gained strength, and found hope 
for my family's future through Parents Anonymous. In 1998 I 
became homeless and hit rock bottom. My addiction to crack 
cocaine interfered with my ability to provide a safe and 
nurturing environment for my children. To the outside world, I 
appeared to be a highly functioning and supportive parent, but 
when I used drugs I neglected my children's needs. I did not 
want to be a parent any more because I was caught in the grips 
of cocaine.
    When I had my third and fourth children 18 months apart, I 
felt overwhelmed and unprepared to take on the daunting task of 
raising two more young boys. I was faced with the most 
important choice of my life, my children or the drugs. I chose 
my children.
    Then the real work began. I made a commitment to become 
clean and sober. I entered an outpatient drug program and moved 
into a homeless shelter. I needed to face head-on my 
inadequacies as a parent. I needed to move through the pain and 
really take hold of my emotions and what was underlying my 
actions.
    My family and I were able to attend the weekly parent and 
children's meeting at the shelter and then in the community 
when I moved. Through the support, the mutual support of other 
parents, I was able to share my deepest fears, insecurities, 
and feelings of shame and guilt for neglecting my children 
because of my drug addiction. I replaced my feelings of 
helplessness with hope and found the courage and the strength 
to make lasting changes in my life. The other parents in my 
group helped me identify my strengths and find solutions that 
worked for my family and me.
    I am living proof of the effectiveness of CAPTA funding in 
preventing child abuse and neglect. After 5 months I was able 
to secure housing for my family. I had become a fully committed 
parent. I had transformed my negative attitudes, gained new 
parenting skills, and significantly improved my self-esteem. 
I'm going on 9 years--sorry, on 10 years of recovery. With all 
the positive changes in my life, I'm a stronger parent and my 
children are thriving today. They became a joy to me.
    My daughter is a confident young woman. By strengthening my 
own family and receiving training and support I was able to 
grow and develop leadership skills. I feel blessed to be able 
to give back to other parents now by going through various 
leadership roles, such as co-trainer, board member, and 
advocate for prevention programs to strengthen families. I have 
developed numerous publications and co-trained with Parents 
Anonymous all over the country, focusing on the importance of 
engaging parents in the planning, implementation, and 
evaluation of programs and policy decisions as specified in 
CAPTA.
    My prevention journey began with a focus on my own 
struggles and turning my life around by strengthening my 
family. I believe I need to give back because I have been 
blessed to receive so much. I am confident that when my 
children grow up they will raise their children in a safe and 
productive environment, free of abuse and neglect, and they 
will give back to their own community.
    Several years ago, I received the greatest complement from 
my own mother and family members when they acknowledged the 
positive changes in me. After seeing the way I handled my 
youngest boys, my mom says she wishes she'd hugged my brothers 
more so they would have become better men.
    I am currently attending college full-time, committed to 
obtaining a degree in communications. My oldest son is a 
loving, caring father and my 18-year-old daughter is a self-
assured and confident young woman on her way to college. My 
younger boys are healthy, happy and successful students. 
Through my role modeling, they are all following in my 
footsteps and taking on leadership roles in their schools and 
the community.
    My story is not unique. I am no more special than the 
hundreds of thousands of other parents who are out there 
working to conquer their own personal demons. I am here giving 
a voice today to the family-strengthening message as one 
example of hope and change, but we cannot forget the thousands 
of parents who are struggling with their parenting and other 
problems right now and do not have the courage to ask for our 
help or there is no program or supportive person in their lives 
to turn to. Strengthening CAPTA so that vital Federal dollars 
support prevention programs like Parents Anonymous will save 
the lives of thousands of children and their parents.
    Before closing, I thank you for your commitment and 
leadership on these critical issues facing families. Your help 
is desperately needed in order to prevent child abuse and 
neglect. Together we can strengthen families all across America 
to prevent child abuse and neglect for generations to come.
    Thank you.
    [The prepared statement of Ms. Long follows:]
                    Prepared Statement of Tanya Long
    Good afternoon, my name is Tanya Long. Thank you Chairman Dodd, 
Ranking Member Alexander and distinguished members of the Subcommittee 
on Children and Families for offering me this opportunity to put a 
human face on the prevention of child abuse and neglect by focusing on 
the effective family strengthening program: Parents Anonymous.
    I am honored to testify today as a Parents Anonymous parent from 
Columbus, OH and share my personal story of prevention and 
strengthening of families. I am a mother of four children, ages 9, 10, 
18 and 32 and a grandmother of a 7-year-old. I am standing before you 
today as an example of just one family who has transformed their life 
for the better through the evidence-based Parents Anonymous Program, a 
CAPTA-funded program that provides weekly support groups for parents 
and their children serving millions nationwide for nearly 40 years. My 
testimony will focus on the importance of prevention, how I have given 
back to my community to ensure that programs meet the diverse needs of 
families and suggestions for strengthening the CAPTA statute. Reaching 
out, engaging and empowering parents like me are critical factors in 
protecting children and preventing child abuse and neglect for future 
generations. The unique philosophy and practices of mutual support and 
shared leadership ensure the success of Parents Anonymous by building 
on people's strengths, helping individuals and families address their 
needs respectfully and providing weekly and on-going vital supports to 
parents and their children of any age, ethnicity, and who reside in 
neighborhoods all across America.
    I am proud to continue the legacy first begun by Jolly K., the 
founding mother of Parents Anonymous. This year marks the 35th 
anniversary of Jolly K.'s groundbreaking testimony before Congress when 
she put a human face to the complex problem of child maltreatment. A 
hush fell over the room when Jolly K. testified before Congress about 
her abusive behavior toward her child and how she successfully turned 
her life around through Parents Anonymous. She was considered by 
leading experts as the single most effective witness because her 
personal story humanized the problem of child maltreatment by focusing 
on effective prevention programs (Public Policy, Harvard University, 
1978). This courageous testimony in 1973 ensured the passage of the 
first Federal legislation to focus on prevention: The Child Abuse 
Prevention and Treatment Act of 1974 (CAPTA). Her moving Senate and 
House testimony reported on nationwide television and in the Los 
Angeles Times caught the attention of the Nation and had a major impact 
on Congress and on public opinion.
    I would like to share with you my personal journey. I sought help, 
received support, gained strength and found hope for my family's future 
through the proven effective solution provided by Parents Anonymous. 
In 1998, I became homeless and hit rock bottom. My addiction to crack 
cocaine interfered with my ability to provide a safe and nurturing 
environment for my children. To the outside world I appeared to be a 
highly functioning and supportive parent. But, when I used drugs, I 
neglected my children's needs. I neglected my only daughter's emotional 
needs over the years given all my insecurities. My last two pregnancies 
were the straw that broke the camels back so to speak. I did not want 
to be a parent anymore because I was caught in the grips of my cocaine 
addiction. When I had my third and fourth children 18 months apart, I 
felt overwhelmed and unprepared to take on the daunting task of raising 
two young boys. I was faced with the most important choice of my life--
my children or the drugs. I chose my children. Then the real work 
began.
    First, I made a commitment to become clean and sober then I entered 
an outpatient drug treatment program and moved into a homeless shelter. 
I needed to face head on my inadequacies and problems as a parent. I 
needed to move through the pain and really take hold of my emotions and 
what was underlying my actions. Parents Anonymous is truly a 
prevention program open to any parent before or after abuse or neglect 
has occurred. Thankfully, they reached out to me and my children. We 
were able to attend the weekly Parents Anonymous group and Children's 
Program at the shelter and one in the community after we found housing. 
Through the mutual support of the other parents, I was able to share my 
deepest fears, insecurities and feelings of shame and guilt for 
neglecting my children because of my drug addiction. I replaced my 
feelings of helplessness with hope and found the courage and strength 
to make lasting changes in my life. Parents Anonymous was there for me 
through all of my ups and downs. They believed in me and gave me 
support in ways that I had never thought about. The other parents in my 
group helped me identify my strengths and find the solutions that 
worked for my family and me. I am living proof of the effectiveness of 
Parents Anonymous in preventing child abuse and neglect.
    After 5 months I was able to secure housing for my family. I had 
become a fully committed parent. Through my active participation in 
Parents Anonymous, I had transformed my negative attitudes, gained new 
parenting skills, and significantly improved my self esteem. I am now 
going on 10 years in recovery. I now am an Alcoholics Anonymous sponsor 
of 6 individuals committed to recovery. With all the positive changes 
in my life, I am a stronger parent and my children are thriving. My 
children became a joy to me. I've learned that if you treat children as 
valued human beings, you're going to get it back. Be fair, honest and 
respectful and your children will grow up to be productive and caring 
adults. By strengthening my own family and receiving training and 
support from Parents Anonymous Inc., I was also able to grow and 
develop my leadership skills. I feel blessed to be able to help other 
parents now, by giving back through various leadership roles such as 
co-trainer, board member and advocate for prevention programs to 
strengthen families. I have developed numerous publications such as 
Shared Leadership in Action curricula, training Manuals for Group 
Facilitators and Children's and Youth Program, and the National Parent 
Leadership Month Toolkit. Also I have co-trained and provided extensive 
technical assistance with Parents Anonymous Inc. staff all over the 
country for national, State, and county agencies and initiatives on the 
development and enhancement of evidence-based, community-based 
prevention programs and the importance of engaging parents in the 
planning, implementation and evaluation of programs and policy 
decisions as specified in CAPTA. My prevention journey began with a 
focus on my own struggles and turning my life around by strengthening 
my family--but I believe I need to give back because I have been 
blessed to receive so much. Locally, I am serving on several Boards of 
Directors, including: Legal Aid of Columbus, OH, Columbus Child 
Development Council that oversees Head Start Programs, and the Godman 
Guild Community Center. I am also the co-founder of a Recovery 
Ministry. On a national level, I serve on the board of Parents 
Anonymous Inc., National Center on Shared Leadership, founding member 
of the National Birth Parent Advocacy Organization and the Research 
Advisory Committee of Casey Family Programs.
    I am confident that when my children grow up, they will raise their 
children in a safe and productive environment free of abuse and neglect 
and they will give back to their own community. Several years ago, I 
received the greatest compliment from my own mother and family members 
when they acknowledged the positive changes in me. After seeing the way 
I handle my youngest boys, my mother said that she wished she had 
hugged my brothers more so that they would have become better men. I am 
currently attending college full-time--committed to obtaining a degree 
in communications. My 18-year-old daughter is now very self-assured and 
confident. She has just graduated from high school and is going on to 
college. My daughter is also contributing to our community in various 
ways: she is a peer counselor at her high school, a camp counselor for 
several years and a Children's Program volunteer for Parents Anonymous 
in Columbus, OH. My younger boys are happy, healthy and successful 
students. Both are very active in our church and one of my son's is 
currently helping to co-lead art classes at his school. Through my role 
modeling, they are all following in my footsteps and taking on 
leadership roles in their schools and the community.
    My story is not unique. I am no more special than the hundreds of 
thousands of other Parents Anonymous parents who changed their life 
forever since we began in 1969 or any one else out there working to 
conquer their own personal demons. I am here giving a voice today to 
the family strengthening message as one example of hope and change. But 
we cannot forget the thousands of parents who are struggling with their 
parenting and other problems right now and do not have the courage to 
ask for help or there is no program or supportive person in their life 
to turn to. Strengthening CAPTA so that vital Federal dollars support 
evidence-based programs like Parents Anonymous will save the lives of 
thousands of children and their parents. Before closing, I thank you 
for your commitment and leadership on these critical issues facing 
families. Your help is desperately needed in order to prevent child 
abuse and neglect. Together, we can strengthen families all across 
America to prevent child abuse and neglect for generations to come.

    Senator Dodd. Well, if I were a university you just 
graduated. That was a great, great statement, Tanya.
    Ms. Long. Thank you.
    Senator Dodd. Thank you immensely. Very proud of you. 
You've got some lucky kids, too.
    Ms. Long. I'm very proud of them.
    Senator Dodd. I know you are. I could hear that in your 
voice.
    Ms.--is it ``Foley-Schain''?

      STATEMENT OF KAREN FOLEY-SCHAIN, M.A., M. ED., LPC,

           EXECUTIVE DIRECTOR, CONNECTICUT CHILDREN'S

                    TRUST FUND, HARTFORD, CT

    Ms. Foley-Schain. Yes.
    Senator Dodd. Do you pronounce both names?
    Ms. Foley-Schain. Yes.
    Senator Dodd. Welcome.
    Ms. Foley-Schain. Thank you, Senator Dodd and Senator 
Isakson. I am here today to tell you a good news story. It 
sounds like the second good news story of the day. The good 
news is this: The State of Connecticut has been making steady 
progress in its efforts to prevent child abuse and neglect. 
What's behind this progress? CAPTA. CAPTA has provided the 
State the opportunity to show that prevention programs make a 
real difference in the lives of children and families and to 
help us make the case that those prevention efforts must be 
supported.
    As a result, the State has increased its investment from 
less than $1 million a decade ago to more than $14 million 
today. National and local foundations and individual donors 
have also joined in this cause.
    The Children's Trust Fund is Connecticut's lead agency for 
CAPTA Title 2, community-based grants for the prevention of 
child abuse and neglect. The trust fund currently receives 
about $700,000 in CAPTA funds each year. CAPTA Title 2 has 
provided the vision for everything we do at the Children's 
Trust Fund. This program has led us to finding the most 
effective means of strengthening families, funding a broad 
range of organizations to implement these programs, conducting 
research to assess their effectiveness, and developing 
strategies to improve our efforts.
    At this time CAPTA funds are supporting three major 
initiatives. They include: preventing ``shaken baby syndrome,'' 
an effort to get the word out to every parent that they should 
never under any circumstance shake their baby; preventing 
childhood sexual abuse, a program that gives adults information 
about how molesters successfully offend against children and 
giving parents steps that they can take to keep their children 
safe. We also offer training for human services staff so that 
they can better support and engage parents preventively.
    CAPTA funds have enabled Connecticut to set a proactive 
agenda for the prevention of child abuse and neglect. This 
agenda also grew out of the recognition that more and more 
resources and more and more funding were going to address the 
needs of children and families after a crisis had occurred, 
when it is much more costly and difficult to do so. This led 
many policymakers to ask if more could be done to avoid these 
problems.
    The search for this type of solution, which is at the heart 
of CAPTA, was a perfect match for the mission of the efforts of 
the Children's Trust Fund. As a result, the trust fund was 
given additional resources and responsibilities for a number of 
new programs.
    I'd like to briefly tell you about one of these programs, 
the Nurturing Families Network. The Nurturing Families Network 
focuses on providing intensive home visiting services to high-
risk families at a critical time in their lives, when their 
first child is born. The program grew out of the Healthy 
Families America model and it has been modified and 
strengthened to address the mixed results shown by a number of 
national evaluations. In addition, the highly regarded parents 
as teachers curriculum has been fully integrated into this 
effort.
    The program has been rigorously researched and the results 
have been consistently strong. The research shows that the 
program is reducing the instance of child abuse and neglect, 
improving parent-child relationships, and leading to better 
outcomes for both parents and children. The program is 
providing services in 42 locations to families giving birth at 
all 29 birthing hospitals in the State of Connecticut.
    While the trust fund has made significant progress, we 
recognize that there is still much to be done and we have 
identified two priorities for further development. The trust 
fund is working with researchers at the Cincinnati Children's 
Hospital to offer and study an in-home cognitive behavioral 
therapy for mothers with depression who are participating in 
the Nurturing Families Network. Research shows that depression 
has dramatic negative effects on maternal functioning, 
including an increased risk for child abuse and neglect, and 
also negative effects on child development.
    A second area of focus is on fathers and men. The trust 
fund is taking steps to develop a component within the home 
visiting, the Nurturing Families Network, that would offer a 
full service of home visiting and groups to fathers and men who 
are significant in the lives of children participating in the 
program.
    In closing, I would recommend that States be encouraged to 
work on these two areas through CAPTA reauthorization. It seems 
that once the field is focused on an issue, we learn very 
quickly what works, what doesn't, and what is worth a try. 
These issues merit that type of thinking and exploration. We 
hope that you will reauthorize CAPTA at the highest level 
possible, which would allow us to expand into these and other 
new areas. With your support, the Children's Trust Fund and the 
trust and prevention funds across the country can continue to 
make a unique and important contribution to children and 
families in the United States.
    Thank you.
    [The prepared statement of Ms. Foley-Schain follows:]
      Prepared Statement of Karen Foley-Schain, M.A., M. Ed., LPC
    Thank you Senator Dodd and Senator Alexander, and members of the 
Subcommittee on Children and Families for this opportunity to testify 
today on the reauthorization of the Child Abuse Prevention and 
Treatment Act (CAPTA).
    I am here today to tell you a good news story. The good news is 
this:
    The State of Connecticut has been making steady progress in its 
efforts to prevent child abuse and neglect.
    What is behind this progress? CAPTA.
    CAPTA has been a catalyst for increasing the State's efforts to 
prevent child abuse and neglect. CAPTA has enabled us to raise 
awareness of the need to prevent child abuse and neglect and to enlist 
the support of many in this cause.
    CAPTA has provided the State with the opportunity to show that 
prevention programs make a real difference in the lives of children and 
families and to make the case that those prevention efforts must be 
supported.
    As a result the State has increased its investment in child abuse 
and neglect prevention from less than $1 million a decade ago to more 
than $14 million today. National and local foundations and individual 
donors have also supported this cause by contributing more than $1 
million dollars in just the past few years.
    CAPTA funds, and the additional State and private sector donations 
they have been able to attract, are an investment paying real 
dividends. These dividends come in the form of reduced numbers of new 
cases of child abuse and neglect, and better outcomes for children and 
families.
    The Children's Trust Fund is Connecticut's lead agency for CAPTA 
Title II--Community-Based Grants for the Prevention of Child Abuse and 
Neglect (CBCAP). The Trust Fund currently receives about $700,000 
dollars in CAPTA funds each year.
    The Trust Fund is a State agency in the executive branch of 
government. The Trust Fund reports to the Governor and the Connecticut 
General Assembly. A 16-member council made up of legislative and 
executive branch appointees, who represent the business and social 
services community, parents and a pediatrician, oversees its efforts.
                             CAPTA Title II
 community-based grants for the prevention of child abuse and neglect 
                                (cbcap)
    The CAPTA CBCAP program has provided the vision for everything we 
do at the Children's Trust Fund. This program had led us to finding the 
most effective means of assisting and strengthening families in order 
to prevent child abuse and neglect, funding a broad range of 
organizations to implement these programs, conducting research to 
assess their effectiveness and developing strategies for improving our 
efforts.
    We primarily use the CAPTA funds to implement and test innovations 
in the field and to support the professional development of our State 
contracted and other human services staff.
    At this time CAPTA funds are largely being used to support three 
major initiatives. They include:

    <bullet> Preventing shaken baby syndrome.
    <bullet> Preventing childhood sexual abuse.
    <bullet> Training human services staff to better engage and support 
families in prevention efforts.

    The funds are also being used to research the effectiveness of 
these initiatives and to develop strategies to improve them.
                          shaken baby syndrome
    Inspired by the work of Dr. Mark Dias in up-state New York, the 
Children's Trust Fund launched a multifaceted program to prevent shaken 
baby syndrome. The goal of this effort is to get the message to all new 
parents--and those who care for children--that they should never under 
any circumstance shake a baby.
    Shaken baby syndrome is the most lethal and severe form of child 
abuse. Experts estimate that several children die and that hundreds 
more are hospitalized and face debilitating and permanent injuries each 
year in Connecticut as a result of this tragic problem.
    Research also shows that this problem is more wide spread than is 
often thought. Many children who are diagnosed with shaken baby 
syndrome are found to have histories of head injury and other symptoms 
related to milder shaking.
    Through the Shaken Baby Prevention Project the Trust Fund staff has 
trained hospital and medical professionals and community service 
providers throughout Connecticut on methods to prevent shaken baby 
syndrome. This effort has led to ongoing programs and research efforts 
within several hospitals.
    In addition hundreds of high school and middle school students and 
parents of young children have participated in community education 
programs on this topic. The Trust Fund has embedded these strategies 
into the home visiting program for new parents and encouraged other 
service providers to do the same.
    The Trust Fund is working with the University of Connecticut to 
examine the effectiveness of these efforts.
                         the stranger you know
    The Trust Fund, in collaboration with several State agencies and 
children's organization, conducted a research project to assess the 
nature of childhood sexual abuse in Connecticut and programs that were 
available to prevent it.
    The research found that most child sexual abuse prevention programs 
promoted a fear of strangers and relied on children to say ``no'' to 
molesters by teaching them the difference between ``good and bad 
touch.''
    This approach seemed at odds with what we learned about childhood 
sexual abuse in the State.
    We found that it was unrealistic to expect children to protect 
themselves when they were emotionally, and sometimes physically, 
overwhelmed by someone much larger.
    We also found that the greatest threat to children does not come 
from strangers. In fact, we learned that about 90 percent of children 
personally knew their molester--about half were relatives and half were 
trusted adults known to the child and their family through school, 
sports, religion and other social ties.
    As a result we developed The Stranger You Know . . . a program that 
reflects the understanding gained through the research. The program 
transfers the responsibility for keeping children safe from children to 
adults.
    The program gives adults information about how child molesters 
successfully offend against children. It helps parents see patterns of 
behavior that represent danger and provides them with steps to take to 
keep their children safe.
    The Stranger You Know . . . began as a pilot program in one 
Connecticut community.
    A study of the pilot found that participants were more aware of 
child sexual abuse and how to keep children safe. The study also found 
that the program's message extended beyond the individuals who attended 
the presentation as a result of word of mouth exchanges.
    To date the program has reached 1,000 parents in Connecticut.
          family development training and credentialing (fdc)
    The Children's Trust Fund is working with the University of 
Connecticut Center for the Study of Culture, Health and Human 
Development, to teach human service providers new skills for working 
with families.
    This training program teaches skills that help service providers 
engage families on a voluntary basis before they become involved with 
State-mandated services. The program teaches providers how to best 
assist families to build on their strengths and to develop a healthy 
self-reliance and interdependence with others in their community.
    Organizations have found that this training leads to a more 
cohesive workplace, that staff do a better job, and the interventions 
with families become more successful.
    This year the Trust Fund will work with the 12 Community Action 
Agencies (CAP) in Connecticut to provide this training to more than 500 
front line and leadership staff.
    Connecticut has credentialed roughly 600 students in this program.
           leveraged funds--state and private sector funding
    CAPTA funds have enabled Connecticut to set an agenda for the 
prevention of child abuse and neglect. It has helped create a real 
momentum for the development of additional programs to support children 
and families.
    This effort also grew out of a recognition that the courts, the 
Department of Children and Families, our school and other helping 
agencies are stretched beyond the limits in attempting to deal with the 
wide variety of issues facing children and families. They have seen 
more and more resources and more and more funding being directed to 
addressing children and families after a crisis has occurred--when it 
was much more difficult and costly to intervene. This has led many 
policymakers to ask if more can be done to avoid these problems.
    The search for this type of solution--which is at the heart of 
CAPTA--was a perfect match for the efforts and mission of the 
Children's Trust Fund. As a result, the Trust Fund was given additional 
resources and responsibilities for a number of programs focused on 
preventing child abuse and neglect and ensuring the healthy development 
of Connecticut's children.
                  the nurturing families network (nfn)
    Chief among these has been the development of Nurturing Families 
Network. The program's focus is on providing intensive home visiting 
services to high risk families at a critical time in their lives--when 
their first child is born.
    Why home visiting?
    The Trust Fund choose to focus on home visiting because this 
approach has been shown to reduce the incidence of child abuse and 
neglect, to improve parent-child relationships and lead to better 
outcomes for both parents and children.
    A number of evaluations have found that children whose parents 
participate in a home visiting program have better birth outcomes, 
stronger literacy skills, more social competence, and higher levels of 
school readiness than their peers whose parents were not enrolled in 
this type of program.
    Evaluations have also shown significant achievements for parents 
who participate in home visiting programs. These include gains in 
employment and education, stable households, and access to health care.
    Initially the Trust Fund implemented the Healthy Families America 
home visiting model. Given the mixed results of national evaluations 
and issues identified through our own research we decided to go in a 
different direction.
    We considered using a program of nurse home visitors. However, 
given high nursing salaries and a severe shortage of nurses in 
Connecticut we decided it was not feasible to go this way.
    We also considered programs that focused on child development. 
While these programs had strong results in some areas, research 
suggested that they were not as effective when working with high risk 
populations--and they did not have a strong focus on preventing child 
abuse and neglect.
    As a result the Trust Fund worked closely with researchers at the 
University of Hartford Center for Social Research and a continuous 
quality improvement team to begin the work of establishing a new model.
    Through these efforts we fleshed out the strengths of Healthy 
Families and identified gaps and barriers in the model. We changed, 
modified and revised these areas. We added ``best practices'' that were 
identified in the field. We tested these new approaches, worked on 
implementation strategies, developed a comprehensive training program 
for all staff and developed an integrated set of program policies and 
practice standards that would ensure program quality.
    As a result we have established a home visiting model that reflects 
state-of-the-art practice. The model is based on a solid theory of 
change, recognizes the value and importance of the relationship between 
the families and the staff, while applying the most recent science on 
child development and parenting practices, employing master level 
clinical supervisors, and requiring extensive training and 
credentialing for its home visiting staff and other staff.
    The program model integrated the highly regarded Parents as 
Teachers curriculum into the home visiting service. We see the addition 
of this curriculum as a real strength of the program.
    Let me tell you a bit about the Nurturing Families Network in 
Connecticut.
    The Nurturing Families Network is providing services to families 
giving birth at all of the 29 birthing hospitals in the State. Services 
are offered at 42 locations with expanded programs in the cities of 
Hartford and New Haven.
    The Nurturing Families Network provides parent education and 
support for 5,000 new parents each year, including Nurturing Parenting 
groups that are open to the community. The Nurturing Parenting group 
program has received proven program status through the Office of 
Juvenile Justice and Delinquency.
    The program offers intensive home visiting for high risk and hard 
to reach families living in poverty. The program connects high-risk 
parents with a home visitor who meets with the family on a weekly basis 
for up to 5 years. Roughly 1,300 new parents are receiving home visits 
under this program.
    The home visitors work against a backdrop of unwanted babies, 
domestic violence and the high potential for child abuse or neglect to 
assist the parents to address many issues and to help break the 
family's social isolation. Through ongoing contact a trusting and 
meaningful professional relationship is formed. This relationship is at 
the core of the program's success.
    The Nurturing Families Network has been rigorously researched and 
evaluated by the University of Hartford Center for Social Research. The 
results have been consistently strong.
    Among the positive outcomes for this program are:

    <bullet> The rate of child abuse and neglect is far lower for high-
risk NFN participants than for similar families not in this type of 
program.\1\
---------------------------------------------------------------------------
    \1\ This finding is based on comparative data from 3 studies of 
abuse and neglect rate for families identified at high risk using the 
Kempe Family Stress Checklist. The incidence of child abuse and neglect 
in the high-risk families identified by the Kempe participating in the 
Nurturing Families Network is 1.6 percent in 2006. University of 
Hartford, 2007. A 2-year study of prenatal mothers categorized into 
low- and high-risk groups based on the Kempe found that 22 percent of 
the high-risk mothers had abused or neglected their children versus 6 
percent of the low-risk parents. Steven-Simon, Child Abuse and Neglect, 
2001. A 2-year study comparing medical charts 2 years after the 
children's birth to families defined at-risk on the Kempe and those 
defined as no risk found that 25 percent of the children in the at-risk 
group had been victims of abuse, neglect, or failure to thrive. The 
rate was 2 percent for the no-risk group. Murphy, Child Abuse and 
Neglect, 1985 Neglect, 1985
---------------------------------------------------------------------------
    <bullet> Program participants experienced a significant decrease in 
parental frustration, sadness and loneliness and an increase in coping 
and stress management skills, developed more realistic expectations of 
their children, and had fewer difficulties in relationships.\2\
---------------------------------------------------------------------------
    \2\ This finding is based on pre-post measures on the Child Abuse 
Potential Inventory and the Community Life Skills Scale. The Child 
Abuse Potential Inventory (CAPI) is a standardized instrument designed 
to measure someone's potential to abuse or neglect children. The CAPI 
is widely used and well researched. The Community Life Skills Scale 
(CLS) is a standardized instrument designed to measure someone's 
knowledge and use of community resources and support. The outcome data 
on program participants is positive. The data suggest that the mothers 
are developing strategies to better cope with stress, are developing 
less rigid attitudes and expectations about their children, and are 
taking more responsibility for their lives. The results of the 
Community Life Skills Scale are also positive. Mothers showed an 
increased awareness and use of resources in their community. 
Specifically the mothers had greater access to public and private 
transportation, more supportive relationships with friends and families 
and a decrease in social isolation.
---------------------------------------------------------------------------
    <bullet> Program participants made statistically significant gains 
in education and employment.\3\
---------------------------------------------------------------------------
    \3\ The University of Hartford examined mother's employment and 
education data by age cohort, analyzing data for mothers who were 19 or 
younger when they had their child and those who were 20 and older. 
Among the younger cohort 83 percent enter the program without a high 
school diploma. Roughly 50 percent of this group were in high school or 
a GED program during their first year of parenthood to receive their 
diploma. Among the older cohort 50 percent more mothers were enrolled 
in school after a year in the program than at the time of program 
entry--including high school, college, vocational and other schools. 
Among both cohorts the number of mothers enrolled in and completing 
school continues to increase with each program involvement. Among the 
younger cohort the percentage of the mothers in the workforce increases 
form 11 percent to 35 percent.

    We will continue to offer and study this program. The Nurturing 
Families Network is a program that can help more families and more 
children have a better life.
    In addition to State funding this program received grant support 
from the Hartford Foundation for Public Giving, several local United 
Ways, and municipal governments.
                        family school connection
    I would also like to tell you about a new program the Trust Fund 
has recently piloted in Hartford, Connecticut--the Family/School 
Connection (FSC).
    The program provides home visiting and support services to families 
whose children are struggling with truancy, behavioral or academic 
issues at school--and are likely to be struggling at home.
    Family School Connection is modeled after the highly successful 
Nurturing Families home-visiting program. Family School Connection 
extends the Nurturing Families model to families with elementary school 
children (ages 5-12).
    Performance measures for this program have found that parents who 
participated made statistically significant gains in the following 
areas:

    <bullet> The participants had healthier parenting attitudes and 
experienced less parenting stress.\4\
---------------------------------------------------------------------------
    \4\ The University of Hartford Center for Social Research is using 
the Parenting Stress Index- Short Form \1\ (PSI-SF) to measure 
parenting and family characteristics that fail to promote normal 
development and functioning in children. The Parenting Stress Index is 
significantly correlated with measures of neglectful parenting and 
other measures of abusive parenting. Outcome data from the families 
participating in the program at entrance and 6 months show a 
significant (p < .05) change in the desired direction indicating 
healthier parenting attitudes.
---------------------------------------------------------------------------
    <bullet> The participants were more accepting and had more 
realistic expectations of their children.\5\
---------------------------------------------------------------------------
    \5\ The PSI-SF also identifies parents who are at risk for 
dysfunctional parenting. The Parent-Child Dysfunctional Interaction 
subscale measures parents' perceptions of whether their child meets 
their expectations and the degree to which parents feel their children 
are a negative aspect of their lives. Higher scores on this subscale 
indicate an inadequate parent-child bond. Outcome data from the 
families participating in the program at entry and 6 months show a 
significant (p < .05) change in the desired direction indicating that 
parents are more accepting and have more realistic expectations of 
their children.
---------------------------------------------------------------------------
    <bullet> The participants were more involved in their child's 
academic life.\6\
---------------------------------------------------------------------------
    \6\ The researchers used the Parent-School Involvement Survey to 
examine parent's perception of their school involvement. The survey 
assessed the parents' perceptions of their child's school, the time 
they spend with their child doing school-based activities such as 
reading, helping with homework or volunteering at the school. The 
outcome measures were administered when families entered the program 
and then after 6 months of program involvement. There was change in the 
desired direction indicating that parents had become more involved in 
their child's academic life.

    This program shows a great deal of promise. The Children's Trust 
Fund is in the process of expanding this from a pilot program based at 
Betances Elementary School in Hartford to four new sites in Middletown, 
Windham, Norwich and New Haven.
    This program was developed in collaboration with the Jr. League of 
Greater Hartford and Hands on Hartford, formerly, Center City Churches.
    We are also working with Deveroux Foundation to incorporate a new 
tool for assessing the social and emotional development of school-age 
children into the program.
                              help me grow
    The final program I want to discuss is Help Me Grow.
    Help Me Grow is a prevention program for all children who 
experience the developmental challenges that go hand-and-hand with 
growing up. Children who are facing behavioral, learning or other 
developmental issues are connected to local programs that can provide 
expertise and assistance.
    Help Me Grow trains parents, pediatric and other providers to 
recognize the early signs of developmental problems and to contact Help 
Me Grow when they have a concern.
    The research on Help Me shows:

    <bullet> The demand for the program has grown. Help Me Grow 
received 3,300 calls last year, up by 16 percent from the previous 
year. The number of services requested by each caller also increased. 
As a result there was a 60 percent increase in referrals to community-
based services.
    <bullet> There is a high level of success in connecting families to 
services. Eighty-six percent of families referred to Help Me Grow 
during the past year were connected to services.
    <bullet> Participation rates in the Help Me Grow ``Ages & Stages 
Child Monitoring Program'' increased by 4 percent from last year. This 
figure is up by 13 percent from 2 years ago.

    It is also worth noting that research on the training efforts of 
Help Me Grow indicate that following the training pediatric providers 
identify children with developmental and behavioral risks twice as 
often. The training increases their awareness and this allows them to 
recognize more children and families in need.
    Over the next 2 years the Children's Trust Fund plans to distribute 
the ``Ages and Stages Child Monitoring'' tool to all pediatric 
providers across the State. Through this effort the Trust Fund will 
encourage all pediatric providers to monitor child development and to 
provide the ``Ages and Stages'' kits to all parents when their babies 
are 4 months old.
    The Children's Trust Fund received a grant award from the W.K. 
Kellogg Foundation to enhance the capacity of Help Me Grow to reach and 
engage hard to reach families. These include families who do not have a 
phone or who have complex needs. The Trust Fund is currently piloting 
this effort in the city of Hartford.
    In addition the Commonwealth Fund in Boston is funding an effort to 
replicate Help Me Grow nationally. The Children's Medical Center will 
be administering this effort. We are glad to see that our work in 
Connecticut will be of help to others.
                               next steps
    While Trust Fund efforts to prevent child abuse and neglect have 
made significant strides over the past decade, we recognize that there 
is still much to be done. The Trust Fund has identified two priorities 
for further program development.
    The Children's Trust Fund will be working with Drs. Frank Putnam 
and Robert Amerman at the Cincinnati Children's Hospital to offer and 
study an in-home cognitive behavioral therapy for treating mothers with 
depression who are participating in the Nurturing Families Network.
    Research on mothers shows that depression has a dramatic negative 
effect on maternal functioning, including an increased risk for abuse 
and neglect. In addition, maternal depression has negative effects on 
the social, emotional, and cognitive development of children. Despite 
these findings most depressed mothers do not receive treatment.
    Programs like the Nurturing Families Network were built on the 
assumption that this type of service could be found in the community 
and that the role of the program was to help mothers receive these 
services.
    At the current time, however, there are few options for mothers to 
receive this type of service. As a result we have determined that the 
service must be integrated into the home visiting program itself.
    The in-home cognitive behavioral approach we will be testing is 
designed to be closely aligned with the home visiting service. The 
program has been successfully implemented in Ohio where 85 percent of 
the mothers received the full number of treatment sessions, and 85 
percent had full or partial remission of their depression.
    A second area of focus is on fathers and men.
    Research shows that children fare better when both parents are 
involved in their lives. The Children's Trust Fund is taking steps to 
research and develop a program component within the Nurturing Families 
Network specifically for fathers and men who are significant in the 
lives of children participating in the program.
    This component would be well integrated in the Network but would be 
different in several important ways--the staff would develop outreach 
strategies and activities tailored to men, work with fathers who are 
not living with their children, and offer a full range of home visiting 
and group services.
    While Connecticut and other States have important efforts focused 
on fathers and men they tend to be for those that have developed 
significant problems with child support, the courts, and child 
protective services. The fathers tend to be estranged from their 
children. In Connecticut the average age for fathers in this type of 
program is 31.
    In the Nurturing Families Network the average age of fathers is 21. 
This age difference gives us a full decade to prevent some of these 
problems from developing and to help fathers and men have meaningful 
and nurturing relationships with the children in their lives.
    I would recommend that States be encouraged to work on these issues 
through CAPTA reauthorization. It seems that once the field is focused 
on an issue we learn very quickly what works, what doesn't and what is 
worth a try. These issues merit that type of thinking and focus.
                               in closing
    As you can see, the programs administered by the Trust Fund are 
working.
    We are strongly committed to the goal of CAPTA, offering a solid 
program, getting strong results, helping to improve the lives of 
children and families all across the State of Connecticut and 
preventing child abuse and neglect.
    CAPTA has given us an important focus and a helpful hand to build 
on our efforts over the years.
    We hope that you will reauthorize CAPTA at the highest level 
possible and continue to support our efforts and those of children's 
trust and prevention funds across the country who are also 
administering this important program.
    Your support allows each of us to make a unique and important 
contribution to children and families across the United States.
    Thank you.

    Senator Dodd. Very excellent testimony. Thank you.
    Ms. Foley-Schain. Thank you.
    Senator Dodd. I'm proud of my fellow Nutmegger there. Thank 
you.
    Ms. Kaplan.

 STATEMENT OF CAREN KAPLAN, MSW, DIRECTOR OF CHILD PROTECTION 
              REFORM, AMERICAN HUMANE ASSOCIATION

    Ms. Kaplan. Chairman Dodd and Senator Isakson, my name is 
Caren Kaplan and I am the Director of Child Protection Reform 
at American Humane. I am honored to provide comments on the 
reauthorization of the Child Abuse Prevention and Treatment Act 
and thank the Chairman and the subcommittee members for the 
invitation to do so.
    American Humane, a national nonpartisan membership 
organization, was founded 130 years ago to protect the welfare 
of children and animals. Our testimony reflects over a century 
of history progressively advocating at the Federal, State, and 
local levels for laws that protect children and animals from 
abuse and neglect.
    In 1974 Congress passed what was and still remains the 
preeminent Federal legislation addressing child abuse and 
neglect. The reauthorization of CAPTA allows for opportunities 
to engage families and provide effective, responsive services 
earlier in order to diminish both the initial occurrence of 
maltreatment and subsequent recurrence.
    American Humane has embraced several large-scale 
initiatives that advance the Nation's child welfare system. We 
promote the inclusion of these items through amendments to the 
most recent reauthorization of CAPTA, the Keeping Children and 
Families Safe Act of 2003.
    The traditional child protection response on investigation 
is perceived as overly accusatory as an initial response to low 
and moderate risk reports of maltreatment. Differential 
response is an approach typically used with reports that do not 
allege serious and imminent harm, that allows child protective 
services to respond differently to accepted reports of child 
abuse and neglect and tailor the response to the needs and 
circumstances of the family without fault-finding.
    Services, including those services related to economic 
hardship such as housing assistance, transportation, child 
care, and others, may be provided to families without a formal 
determination that maltreatment has occurred, labeling someone 
as a perpetrator, and listing them in the State's central child 
abuse registry.
    Differential response has been implemented either statewide 
or in selected jurisdictions in about 20 States and the number 
is increasing rapidly. Although research is in its infancy, 
random assignment design studies involving control and 
experimental groups, a rarity in our field, have indicated that 
child safety is not compromised and in some instances attained 
sooner, repeat cases of abuse and neglect decrease, family 
cooperation and participation increase, placement rates of 
children in foster care are lowered, costs are reduced over 
time, and satisfaction both by families involved with the child 
welfare system and child welfare workers increases.
    Our current child protection system needs widespread 
integration of family involvement and leadership models that 
reclaim the family's roles and responsibilities as 
decisionmakers about their children. These models are grounded 
in the belief that children are best protected within the 
context of their families and that the family group has a right 
to be active partners in making decisions about their 
children's safety, permanency, and well-being.
    There is an urgent need to build knowledge, policy, and 
prevention and intervention practices to address the unique 
safety and protection needs of children who are chronically 
neglected by their families. Chronic child neglect refers to 
the ongoing serious pattern of deprivation of a child's basic 
physical, developmental, and emotional needs by a parent or 
caregiver.
    The system's inability to reach these families and impact 
the well-being of their children is a fundamental gap. 
Intervening with these families for short periods of time in an 
incident-driven system will not work. Prerequisites for success 
include a comprehensive, community-based approach with 
specialized assessment, skilled staff, manageable workloads, an 
expansive service array, and long-term involvement.
    A comprehensive approach to address child maltreatment 
recognizes the link between family and animal violence and 
involves the vital partnership between animal welfare and child 
protection agencies. When animals in a home are abused or 
neglected, it is a warning sign that others in that household 
may not be safe.
    Funding of CAPTA, as has been said, should be appropriated 
at the authorized level. Greater balance is needed between 
investments in child maltreatment prevention, identification, 
and early protective interventions compared to the investments 
in interventions after a child has been separated from his or 
her family.
    The first goal of any child protection system response is 
to keep children safe from harm. American Humane hopes that the 
CAPTA reauthorization serves as a foundation and an impetus to 
reduce the number of maltreated children and increase the 
number of families who have sufficient strengths, capacities, 
and supports to keep their children safe from harm.
    Thank you very much.
    [The prepared statement of Ms. Kaplan follows:]
                Prepared Statement of Caren Kaplan, MSW
    Chairman Dodd, Ranking Member Alexander and members of the 
subcommittee, my name is Caren Kaplan and I am the Director of Child 
Protection Reform at American Humane. I am honored to provide comments 
on the Reauthorization of the Child Abuse Prevention and Treatment Act 
(CAPTA) and thank Chairman Dodd, Ranking Member Alexander and the 
members of this subcommittee for the invitation to do so.
    American Humane, a national, nonpartisan membership organization, 
was founded 130 years ago to protect the welfare of children and 
animals. Our testimony today reflects over a century of history 
progressively advocating at the Federal, State and local levels for 
laws that protect children and animals from abuse and neglect.
    In 1974, Congress passed what was, and still remains, the pre-
eminent Federal legislation addressing child abuse and neglect. This 
landmark legislation sets forth a minimum definition of child abuse and 
neglect and authorizes Federal funding to States in support of 
prevention, identification, assessment, investigation, and treatment 
activities.
    Through its provisions--the Basic State Grants, the Community-Based 
Prevention Grants and the Research and Demonstration Grants, CAPTA 
provides State, local, and tribal public child welfare agencies with a 
foundation for quality child protective services, enhancements of the 
formal and informal preventive, community-based services, the 
opportunity for systemic and practice improvements, and expansion of 
our understanding and knowledge that will guide our State statutes, 
policies, practices and customs. This is the essence of CAPTA and the 
promise of our Nation's ability to keep children safe and families 
together.
                 improving the child protection system
    The first goal of any child protection system response is to keep 
children safe from harm. In fiscal year 2006, an estimated 3.3 million 
referrals, involving the alleged maltreatment of approximately 6.0 
million children, were made to Child Protective Services (CPS) agencies 
[US HHS, 2008]. An estimated 3.6 million children received an 
investigation or assessment. In 2006, an estimated 905,000 children 
were determined to be victims of abuse or neglect. Of the children who 
received post-investigation services, nearly 60 percent (58.9 percent) 
were victims and 30.3 percent were nonvictims. Forty percent of the 
905,000 victims received NO post-investigation services. Of the 
children who were placed in foster care, more than 20 percent (21.5 
percent) were victims and 4.4 percent were nonvictims. The number of 
reports and the number of child victims has remained relatively stable 
over the past decade.
    American Humane has dedicated the past several years to the 
successful launch of large-scale initiatives that advance our Nation's 
child welfare system in order to effectively protect children and 
support families. I would like to detail several of these issues and 
opportunities to be responsive through the reauthorization of CAPTA.
                     differential response systems
    American Humane advocates for the implementation of Differential 
Response Systems in Child Welfare as an effective way to respond to 
reports of abuse and neglect. Differential response also referred to as 
``dual track,'' ``multiple track,'' or ``alternative response'' and 
``family assessment,'' encourages families to recognize their own needs 
and seek services to enhance parenting skills, mental health concerns, 
substance abuse issues, work/day care issues and/or other distinct 
needs of each family. Differential response encourages family 
participation in agency- and community-based services. By alleviating 
the concerns raised without a formal determination or substantiation of 
child abuse and neglect, these ``alternatives'' to traditional child 
protection investigative response achieve or maintain child safety 
through family engagement and collaborative partnerships.
    Differential Response Systems (DRS) is an approach that allows CPS 
to respond differently to accepted reports of child abuse and neglect. 
The child protection agency assesses the needs of the child or family 
without requiring a determination that maltreatment has occurred or 
that the child is at risk of maltreatment [US HHS, 2003]. Services may 
be provided to families without a formal determination of abuse or 
neglect or labeling someone as a perpetrator and listing them in the 
State's central child abuse registry. [CWLA, 2005].
    Children and their families who come to the attention of public 
child welfare agencies have diverse life circumstances, strengths, 
challenges and needs. Differential Response allows agencies to respond 
to accepted or ``screened in'' reports of suspected child abuse and 
neglect in more than one way, with the intent on being most responsive 
to the situations of families. Without embracing an allegation, 
incident-driven approach, families are, in general, more receptive to 
the receipt of and involvement in needed services. As differential 
response systems evolve, child welfare systems are incorporating a 
third pathway to respond to the families whose reports do not meet the 
statutory threshold of alleged abuse and neglect.
    Differential Response is typically used with reports that do not 
allege serious and imminent harm. Factors such as the type and severity 
of the alleged maltreatment, the number of previous reports, the source 
of the report, and the willingness of the parents to participate in 
services determine the appropriateness of this response and suggest a 
non-adversarial, cooperative approach to meet each family's unique 
needs. By providing interventions that correspond to the severity of 
the concern being reported, differential response results in 
appropriate services to resolve the family issues thereby easing the 
cause or likely reoccurrence of the original concern.
    Differential Response has been implemented, either Statewide or in 
selected jurisdictions in about 20 States and this number is rapidly 
expanding. Although research is in its infancy, random assignment 
design studies involving control and experimental groups have indicated 
the following positive results:

    <bullet> Child safety is not compromised and in some instances 
attained sooner.
    <bullet> Fewer repeat cases of abuse and neglect.
    <bullet> Higher rates of family cooperation and participation.
    <bullet> Increase and changes in service provision; greater focus 
on basic needs and economic hardship.
    <bullet> Lower placement rates of children in foster care.
    <bullet> Reduced costs over time.
    <bullet> Increased satisfaction, both by families involved with the 
child welfare system and child welfare workers.
    <bullet> Community stakeholders preferred the dual-response 
approach.
Opportunities for CAPTA Reauthorization
    Title I of CAPTA authorizes grants to States to help improve their 
child protective service systems. Within the eligibility requirements, 
there is opportunity to encourage States to develop and implement 
differential response to families who come to the attention of the 
child protection system.
    Title II of CAPTA authorizes grants to States to develop community-
based prevention services including home visitation, parent education, 
and respite care. Since the intent is to develop a continuum of 
preventive services for children and families through State and 
community-based collaborations and partnerships, statutory language can 
promote the development of community response pathways--a third 
response to families--established by State and local public child 
welfare agencies.
    In CAPTA's Research and Demonstration Activities, there is an 
opportunity to build the knowledge and evidence on the multitude of 
differential response approaches that are currently being planned and/
or implemented across the Nation.
                   family involvement and leadership
    American Humane strongly advocates for the widespread integration 
of family involvement and leadership models committed to 
institutionalizing fair and transparent planning and decisionmaking 
processes that recognize and build on the protective capacities of the 
family group and provides them with opportunities to reclaim their 
roles and responsibilities as decisionmakers about their children.
    In the past 10 years, public child welfare and community-based 
organizations have been implementing numerous family involvement and 
leadership models as a way to provide inclusive and culturally 
respectful processes when critical safety and permanency decisions are 
being made about children. Family group involvement and leadership 
models are based on a commitment to ensuring that children's rights to 
the resources of their families and communities are honored, respected, 
and actively cultivated, especially when children and their families 
are involved with formal systems, in particular child welfare. They 
recognize the inherent right of children and families to be connected. 
These models are grounded in the belief that children are best 
protected within the context of their families and that the family 
group has the right to be active partners in making decisions about 
their children's safety, permanency and well-being. These models also 
provide a family perspective for understanding and responding to the 
unique developmental needs of children and their family. Family Group 
Decision Making offers communities an evidence-based approach to reach 
the goals of positioning families and young people as drivers of 
services, creating individualized, family-driven service plans, 
promoting cultural and linguistic competence and building partnerships 
among systems.
Opportunities for CAPTA Reauthorization
    The State Grant eligibility requirements provide an opportunity to 
advance the involvement and leadership of families as a principle 
practice of quality child protection.
                            chronic neglect
    American Humane advocates for the building of knowledge, policy, 
prevention and intervention practices that address the unique safety 
and protection needs of children who are chronically neglected by their 
families. Through the identification and monitoring of specialized 
child protection practices nationwide, the development of best practice 
guidance, and the creation of strategic alliances with traditional and 
non-traditional partners, comprehensive, community-based approaches can 
prevent neglect and the recurrence of neglect, reduce the risks of 
chronicity, support and strengthen families in which neglect occurs, 
and facilitate system change that is more responsive to, and effective 
with, families that chronically neglect their children.
    Chronic child neglect'' refers to the ongoing, serious pattern of 
deprivation of a child's basic physical, developmental and/or emotional 
needs by a parent or caregiver. While definitions of chronic child 
neglect and the implementation of these definitions, vary by State, 
county and local child welfare systems, several dimensions include the 
duration of neglect, the time period covered by multiple Child 
Protective Services reports, the number of reports (not just 
substantiations), the referral for multiple types of maltreatment, the 
documentation of non-adherence in medical or school records, and the 
child's developmental indicators.
    While the lack of definitional clarity and the use of various 
dimensions to identify chronic neglect compromise a shared 
understanding, the system's inability to reach these families and 
impact the well-being of their children is a fundamental gap. 
Prerequisites for success include: Differential assessment; skilled 
staff; manageable workloads; service array; and long-term intervention.
    For more than a decade, State reports to the National Child Abuse 
and Neglect Data System have indicated that more than half of all child 
victims in the United States suffered neglect.
    Given the enduring prevalence of neglect in child maltreatment 
cases, there has been a long-standing need to focus on prevention, 
assessment, treatment and interventions targeting neglect in child 
welfare. According to the National Incidence Study-3 (1996), children 
from families with incomes less than $15,000/year were 44 times more 
likely to be victims of neglect compared to children from families with 
incomes greater than $30,000/year.
    Although a growing body of literature illustrates some evidence-
based best practices for decreasing neglect, such limited endeavors 
fall short of the comprehensive and integrated approach that is 
essential to command the visibility, political will and system reform 
to improve the safety, permanency and well-being of families in which 
neglect occurs. With few notable exceptions, advancements in the 
specialized practice and research of neglect are in their infancy. The 
magnitude of this need increases exponentially when addressing the 
chronicity of neglect.
    The enormous human toll is compounded by the significant economic 
toll, as resources are disproportionately devoted to families that 
chronically neglect their children. Costs associated with these 
families have been determined to be seven times that of other families 
that neglect their children [Loman & Siegel, 2004]. There is an 
undeniable need for more sustained and broad-ranging approaches to 
families that go beyond immediate safety issues, as well as more 
relevant literature and research to provide a base of knowledge that 
informs our practices and policies.
Opportunities for the Reauthorization of CAPTA
    An increasing number of States are struggling to confront the 
insidious nature of chronic neglect. The Federal Government can provide 
leadership and guidance to States in the CAPTA reauthorization by 
providing a clear definition of chronicity or chronic neglect.
    While there has been a significant amount of work on neglect at the 
Federal level, there are insufficient connections between Federal 
efforts and what happens on the ground at the State and local levels. 
There is an opportunity in CAPTA's Research and Demonstration 
Activities to enhance the connections between research and practice; 
target the efforts on chronicity; and assure broader dissemination of 
that which is known and that which is a promising practice.
            the link between child and animal maltreatment
    American Humane actively addresses the internationally recognized 
link between animal abuse and family violence. Through its campaigns 
against violence, American Humane is a leader in raising public 
awareness, advocating for stronger legislative initiatives, and 
providing tools for decisionmakers, social service providers, animal 
care and control professionals, veterinarians, parents, and other 
concerned citizens to recognize problems and take appropriate steps to 
end abuse and protect its both human and non-human victims.
    Child and animal protection professionals have recognized this link 
and cycle of violence between the abuse of both children and animals. 
This link also expands to violence against women by domestic partners 
and violence to elders in the home. One of the first research studies 
to address the link found that 88 percent of 57 families being treated 
for incidents of child maltreatment also abused animals in the home. 
[Deviney, Dickhert, and Lockwood, 1983]. And a 1997 survey of 50 of the 
largest shelters for battered women in the United States found that 85 
percent of women and 63 percent of children entering shelters discussed 
incidents of pet abuse in the family. [Ascione, F. R. 1997]
    When animals in a home are abused or neglected, it is a warning 
sign that others in the household may not be safe. In addition, 
children who witness animal abuse are three times more likely of 
becoming aggressive or abusive. [Currie, C.L., 2006].
Opportunities for the Reauthorization of CAPTA
    In detailing the comprehensive approach required to address child 
abuse and neglect, title I should acknowledge the vital partnership 
between animal welfare agencies and child protection agencies. Much 
like the recognition of the relationships between and among domestic 
violence, mental illness, substance abuse and child maltreatment, CAPTA 
should include language that supports and enhances interagency 
collaboration between the child protection system and animal welfare 
agencies in identifying child abuse and neglect.
                         funding and investment
    American Humane advocates for the funding of CAPTA at the 
authorized level and greater balance in the investments in child 
maltreatment prevention, identification and early protective 
interventions compared to investments in interventions after a child 
has been separated from their family.
    It has been a long-standing battle cry of advocacy organizations 
and their constituents that the child protection system is woefully 
under-funded. The merits of this statement can be demonstrated by the 
following four statements.

    <bullet> The annual number of child victims has remained relatively 
constant over the past decade.
    <bullet> Historically, there has been a significant gulf between 
the appropriated levels of funding and that which is authorized in 
statute.
    <bullet> The conservative estimated annual cost of child abuse and 
neglect is $103.8 billion in 2007 value [Prevent Child Abuse America, 
2008] and CAPTA appropriations for fiscal year 2007 were approximately 
$100 million.
    <bullet> A study Total Estimated Cost of Child Abuse and Neglect in 
the United States. [Prevent Child Abuse in America, 2008] calculates 
that investments in the prevention of child abuse and neglect can save 
the Nation over $100 billion per year.
Opportunities for the Reauthorization of CAPTA
    While we understand the appropriated levels of funding do not come 
out of this committee, it is significant to note when discussing levels 
of funding with your colleagues, that 362,000 children identified as 
victims of maltreatment received no post-investigative services.
    In order to diminish both the initial occurrence of maltreatment 
and subsequent recurrence, it is essential to engage families and 
provide effective, responsive services before their challenges become 
severe and the risks of maltreatment expand and/or escalate.
                               conclusion
    As a longstanding member of the National Child Abuse Coalition 
(NCAC), an alliance of 30 organizations committed to strengthening the 
Federal response to the protection of children and the prevention of 
child abuse and neglect, American Humane lends its enthusiastic support 
to NCAC's recommendations for the reauthorization of CAPTA. NCAC's 
testimony has been provided to the subcommittee in writing.
    American Humane appreciates the opportunity to offer our testimony 
and comments to the subcommittee in regard to the reauthorization of 
the Child Abuse Prevention and Treatment Act. Given that CAPTA is the 
pre-eminent Federal legislation addressing child abuse and neglect and 
expires this year, it is our hope that its reauthorization is given the 
highest priority and completed before the 110th Congress ends. As this 
legislation progresses, we look forward to a continued dialogue with 
Chairman Dodd, Ranking Member Alexander, members of the subcommittee 
and the entire Congress.
    We hope this reauthorization serves as a foundation and impetus for 
the reduction of children who experience abuse and/or neglect and an 
increase in the number of families who have sufficient strengths, 
capacity, and supports to keep their children with them, safe from 
harm.

    Senator Dodd. Thank you very much, Ms. Kaplan. Very, very, 
very good testimony.
    Well, we've got some questions for you. I'll announce in 
advance, by the way, that obviously other members of this 
committee have a strong interest in the subject matter as well 
and I'm going to leave the record open as well for additional 
questions that we may submit in writing to you and ask you in a 
timely fashion to get back.
    I was just talking to staff about the plans for all of 
this, and obviously we want to get as much information and data 
together here, to then finish the bill. Lamar Alexander, who is 
normally the Ranking Republican, the Senator from Tennessee, on 
this committee, has a strong interest in this subject matter, 
has been very supportive historically. I think this is an issue 
which is going to enjoy some broad bipartisan support, because 
it's had a wonderful history and record of making a difference. 
Obviously, your testimony today gives us some additional ideas 
on how we can even improve upon the work that's been done.
    Again, my hope would be that we could put something 
together. Obviously, this is going to be somewhat of a 
truncated session, for all the obvious reasons. Our ability to 
get this done--I'm hopeful we can before we adjourn. Then of 
course, the level of approach with appropriations as well 
requires separate effort. Nonetheless, people like Senator 
Harkin on this committee are very supportive of CAPTA and sit 
on the Appropriations Committee, and other members as well. 
We'll be anxious to move along and develop as quickly as we can 
some ideas as part of this reauthorization effort.
    With that in mind, let me begin if I can with you, Dr. 
Boyce. It's two or three questions, but let me frame them as 
one for you if I can. Given, as you point out, the majority of 
the maltreatment cases fall into the neglect area, I wonder how 
your research effort at NIH has addressed child neglect per se, 
just focusing on that, and do we have a better understanding of 
how to prevent neglect or how to provide support to families 
where children suffer neglect?
    Third, are there new areas of research that we should be 
pursuing regarding child abuse and neglect that we could 
possibly make a part of this reauthorization effort that today, 
for whatever reason, would be less available to you and to 
others doing the kind of research in this area?
    Dr. Boyce. Those are very important questions. Neglect is 
an issue that has been near and dear to my heart, something 
that, as I said, we've focused on specifically for the problems 
in terms of the prevalence. There is currently and was a 
special request for announcements that created a consortium of 
neglect researchers. What was special about this, it was the 
first time that we had researchers that were across all domains 
working on this issue.
    For instance we had researchers who looked at indicators in 
terms of dental neglect, so that we could think about the 
earliest ways that we could identify it through dentists, 
through schools, so that we could intervene early. That is 
clearly the message here.
    We also had grants that looked at neglect and its effects 
in adolescence. We do know that it occurs early in life 
usually, but we also wanted to make sure that if we do not 
catch those families and children early that we are able to 
intervene at different times along the developmental 
trajectory, so that we can stop this life course issue in terms 
of those negative effects that we've seen in terms of health.
    To answer the last part of your question in terms of new 
areas of research, of course with more we can always do more. 
We can try to do it faster. We've continued the neglect 
consortium work and we've continued to bring new researchers 
in. We do try to fund excellent research that addresses neglect 
and also other related indicators in terms of early 
intervention and looking at things such as maternal depression, 
parental depression, substance use, and all those risk factors.
    I applaud you for specifically pointing out neglect because 
that's something that we have, a focused inter-agency effort to 
work on and continue to work on today.
    Senator Dodd. Obviously, economic factors play a very 
important role in all of this. I mentioned in my opening 
comments about the disproportionate share of racial and ethnic 
minority children experiencing maltreatment. I wonder if any 
research has been done at NIH that looked into this issue, and 
additionally disabled children. Again, I find this, that very 
young children and disabled children--I was reading the 
testimony last evening and some of the staff memos in 
preparation for this hearing and I find it just so hard to 
believe that the youngest of our children are the ones that are 
suffering, and also the disabled children are at higher risk of 
being maltreated.
    I wonder if NIH has addressed this in any way.
    Dr. Boyce. Yes, we do. Like I said, there's always more 
research and more we can learn. Just for example, we did fund a 
grant that looks specifically at racial disproportionality to 
try to unpack what's happening there in terms of ways we could 
better target services based on culture and environmental 
factors, because we know that's important. In terms of 
disabilities, we also do look at that. In terms of physical 
abuse, you'll see some neurological impairments. We do look at 
the brain and thinking about how early neglect really will 
impact the brain and impact education, impact functioning. This 
is going to be something that if the injury is severe enough 
will impact a child over their development and then over the 
life course.
    Senator Dodd. Give us some ideas in terms of what you're 
finding in the study and how we might begin? One of the things 
we all want to do obviously is prevent this.
    Dr. Boyce. Yes.
    Senator Dodd. Identifying and treating it is obviously a 
major focus of our attention, but the most important job I 
think we could do is obviously to prevent it.
    Dr. Boyce. Yes.
    Senator Dodd. To what extent--and again, I get this idea of 
the one-size-fits-all worries me in many ways. I like the idea 
that we're able to respond to this with understanding the 
localities differences that occur and different needs. What are 
you finding that might be worthwhile for us to know here as a 
committee about different approaches we might take, 
particularly in the area of the disabled and the ethnic 
minority communities if these numbers are as high as they are. 
What aren't we doing right that we ought to be doing right to 
reduce these percentage numbers?
    Dr. Boyce. I think some of the things we are doing right is 
early intervention and looking for those families who are at 
risk. Research has shown us which families are most at risk for 
interventions. National data really helps us, so we know where 
to go in terms of looking at risk. That can help with 
prevention. We want to work with families when they're at risk. 
We want to work with families once there's one incident, so 
there's not another incident or this doesn't happen with other 
children in the family.
    Then in terms of thinking about disability, we know that 
there is an overlap in terms of these children will often need 
special education services. There are areas that we can explore 
and do more research and do more intervention on, but that's 
where we have found, with the research thus far, the key points 
and the key places where prevention efforts currently exist. 
Those are areas that we could look at the research and think 
about ways to do that better always, but those are the key ways 
to do it, early intervention and thinking about when we have 
identified a child in terms of disability.
    Senator Dodd. Well, what about some of the ideas--I 
mentioned the Philadelphia case, and that may seem a little 
excessive to some, but just without getting into the issue of 
whether or not there's been substantiated cases or not, that 
just when people are coming into that system, given the fact 
there have been higher percentages--if you've got a disabled 
child, and again there are certain factors here, wouldn't that 
flag that issue almost immediately? Not to identify and label 
necessarily a family, but nonetheless, given the rates that are 
occurring, even before the problem emerges to flag it and to 
begin to work with it immediately.
    Dr. Boyce. Right, because substantiation differs by States 
and that's always been an issue as we try to work with this. We 
really worked on making sure that there were definitions that 
didn't matter about substantiation. We know in terms of 
research what risk is and we don't worry about the court 
definitions because that's not always an accurate indicator 
because of the differences across States.
    When families enter with any risk factor there's always an 
opportunity to intervene, and it doesn't have to reach 
substantiation for someone to intervene. There are models 
across the United States where, whether it's substantiated or 
not, a family can receive services, and we're happy to see that 
because then we know this is a family at risk and that we can 
start with interventions or prevention right away.
    Senator Dodd. Last on this point before I turn it over to 
my colleague, are you familiar with this Philadelphia case I 
talked about?
    Dr. Boyce. I'm not familiar with the specific case. Maybe 
you could--
    Senator Dodd. What they do, they're dealing immediately 
with children in the child welfare system. They begin right 
then and there. I'm wondering if that's going over the top, is 
that going too far. I don't know what the costs associated with 
that, but there are some obvious questions people might raise.
    Well, I can come back to that in a minute.
    Senator Isakson. Thank you, Senator.
    You had said, Dr. Boyce, that the most common form of abuse 
is neglect and the most neglected are those between ages 1 and 
3.
    Dr. Boyce. Birth to 3, yes.
    Senator Isakson. Is that correct?
    Dr. Boyce. Yes.
    Senator Isakson. I suspect all of these programs depend on 
a referral to get the neglected child to some area of help, but 
the hardest place to get a referral would be somebody 1 to 3, I 
would think, because they're not in school yet. Where do these 
referrals come from and where do they go to?
    Dr. Boyce. There are various places where these referrals 
can come. They can come through pediatric offices. All young 
children see doctors. There are a lot of models for where there 
is early identification. We do think about different 
associations in terms of looking at pediatricians, who are 
often the ones who are seeing kids early. I also mentioned 
schools, but when we talk about schools there's also 
opportunities in day care.
    There are models and ways to identify early and identify 
risks and not wait for a substantiated case, because by that 
point we know that there may have been multiple risks that are 
already causing damage to the child's functioning and their 
development.
    Senator Isakson. Ms. Long, how did you find Parents 
Anonymous, or how did they find you?
    Ms. Long. When I went to live in the homeless shelter with 
my children, Parents Anonymous was there as a support group for 
the mothers. The thing about it was we were all in the same 
boat, so there was no embarrassment in attending this group. I 
had no idea what it was about until I attended, and it was 
there for me with mutual support.
    Senator Isakson. Your comment in your testimony, your talk 
about your peers giving you support made all the difference in 
the world, I think that's what's so important in this. Whether 
it's an infant or whether it's someone on drugs, if you're all 
alone and you don't have a support group the chances of you 
making it out are almost nil. You've got to have that support 
element.
    So your referral really came I guess from the homeless 
shelter, then?
    Ms. Long. It didn't--it wasn't a referral as much as 
parents were strongly suggested to attend as part of their 
agreement to be in the shelter. But, that is not how Parents 
Anonymous works. It's just the way it was in that shelter.
    Parents Anonymous in Columbus is under the umbrella of 
Catholic Social Services and any parent all over the country, 
but in Ohio, can access them through--their in the phone book. 
Some States have help lines. Parents Anonymous is currently 
trying to have a national help line, and that's one of the ways 
that you can--and it's word of mouth. Mostly it's word of 
mouth, because parents are so grateful to receive that support 
because someone, another parent, understanding what they're 
going through. They're happy to tell other parents who are 
struggling that it's there for them.
    Senator Isakson. I don't want to get too personal, but if I 
may ask, are you married?
    Ms. Long. No, sir, I am not.
    Senator Isakson. Were you married when you had your first 
child?
    Ms. Long. Yes, I was.
    Senator Isakson. That was the one that's 32 years old?
    Ms. Long. Yes.
    Senator Isakson. The others you raised alone?
    Ms. Long. Yes, I have.
    Senator Isakson. I make this point, Mr. Chairman. I chaired 
the State Board of Education. I worked with a lot of outreach 
groups and worked with a lot of troubled kids. It always 
troubled me that the root cause of a lot of our problems are 
never in attendance at things like that, and that's men.
    You know, the number of broken homes and single moms that 
end up having to raise their kids in a very difficult world--
and Morehouse University in Atlanta is beginning a study about 
the patterns of children born out of wedlock, the 
responsibilities of the male role model with families and the 
difference it can make.
    I just had to--reading your story, I suspected that was the 
case. That male role model can make so much difference and the 
family--the support group you got in the homeless shelter was 
the group that replaced what would have been there if there was 
a family. I think that's probably a fair statement to say, all 
right?
    Ms. Long. Could you repeat that last part?
    Senator Isakson. The support that you got from the Parents 
Anonymous group and your peers who were in that program kind of 
supplanted what was the family relationship that you didn't 
have at that time, because the husband was gone; is that 
correct? Or was he still around?
    Ms. Long. No. Parents Anonymous is for anyone in a 
parenting role and there are men who come to the Parents 
Anonymous groups. It encompasses whole families, anyone in a 
parenting role. We have groups for foster parents, 
grandparents, parents with children with disabilities. Anyone 
in a parenting role. We have fathers groups.
    I wouldn't say that it supplanted it. What it did was 
provided mutual support, which was other parents sharing how 
they felt about raising their children. In that shelter it just 
so happened that it was for mothers and children. There are 
shelters around the country that take in families and there are 
Parents Anonymous groups there as well.
    Senator Isakson. Thank you.
    Can I have one last question?
    Senator Dodd. Ask away.
    Senator Isakson. Ms. Foley-Schain, you mentioned the 
Nurturing Families Network was a referral network that most of 
your referrals came from. Is that a Connecticut entity or is 
that a national entity?
    Ms. Foley-Schain. The Nurturing Families Network is a 
Connecticut entity. There are similar programs operating in 
different States around the country. In terms of how we engage 
families in the program, we have staff who are employed by 
Nurturing Families Network sites, who are called ``nurturing 
connections coordinators. Their whole job is about connecting 
with families and connecting those families to the program or 
other services.
    Those staff go into prenatal clinics. They're on the halls 
of the maternity ward. They're available, as soon as we 
identify that a mother is pregnant, to try to engage her, and 
if we miss her at that point we try again at the time she gives 
birth to her child.
    The connections coordinators also go to other human 
services organizations in the locality where they're operating, 
say for example a WIC office, or to ob-gyns and other clinics.
    Senator Isakson. Thank you very much.
    I look forward to working with you on the reauthorization, 
Mr. Chairman.
    Senator Dodd. Thank you very much, Senator.
    Let me digress just for a second. These are not under-aged 
staff members of the Senate committee here. These are students 
from Connecticut who are here today, and I'm delighted they're 
with us. Thank you for being here. I hope you're enjoying the 
hearing and learning something from it.
    We've got students from--it sounds like ``The Bury's'' from 
Connecticut--from Woodbury, Southbury, and Middlebury, and 
Seymour. It's nice to have you with us. Their teacher is with 
us. Is it Lisa Peters?
    Ms. Peters. I'm not their teacher, but we do have a teacher 
with us.
    Senator Dodd. Well, great. Thank you, thank you for being 
with us. Nice to have you with us.
    Let me pick up. I want to pick up on, Ms. Long, on the 
question that Senator Isakson raised about the support 
services. I think it's one thing to wrestle, as you pointed 
out, your own substance abuse issues, and that in itself, 
overcoming that and getting support is absolutely essential, 
but also to learn how to be a supportive, strong parent is a 
critical element in this, and to be taking on the 
responsibility of, one, moving away from the substance abuse 
and simultaneously learning, that's an awful lot to be saddled 
with. I wanted to know how that worked.
    I know it's one thing to be around other parents who are 
struggling with this, but sometimes that can be in itself--it's 
good and it's encouraging to know you're not alone. I don't 
mean to minimize that. It seems to me there needs to be more 
than just that to make this work right, to be providing you 
with the guidance and support on what you need to be doing and 
how you could do this to become a stronger and a more 
supportive parent.
    I wonder if you might talk about that a bit. Maybe you did 
and I just missed it, but it seemed to me you were wrestling 
with the addiction issue, you were meeting wonderful people who 
were going through this as well, so that in itself has its own 
source of strength. Beyond that, was there anything else here 
that made a difference for you in terms of getting back on your 
feet and becoming that parent that you've described?
    Ms. Long. Yes, sir. It was--along with the mutual support 
that I received through Parents Anonymous, as well as my 
recovery program, which I did work and share with other addicts 
and alcoholics and that recovery program, all of that was 
support. For me and I think countless other parents who are in 
Parents Anonymous, it's four basic principles that Parents 
Anonymous adheres to, which is mutual support, shared 
leadership, mutual respect, and personal growth.
    Coupled with all of these, parents see themselves growing. 
There was a study done on parents where they did this 10-step 
type of--it wasn't a program, but it was 10 steps that they 
took to becoming fully committed parents. One of those steps--
one of the things that they noticed was that parents when they 
had trusted others who believed in them, then their confidence 
grew and they were able to mirror back strengths that they saw 
in others, and that the parents were given--we would trade with 
each other, debrief, say. We would do trainings together. We 
would ask each other how did we do.
    For me, that just gave me confidence in myself that 
someone, (A), wanted to know my opinion, and then trusted and 
believed in what I had to say. Gaining that confidence gave me 
the leadership skills, not only with Parents Anonymous, but 
helped me also, enabled me to reach out and empowered me to 
reach out to my own community, where I began advocating for my 
own family and eventually for my community as well as 
nationally.
    I had been able to get a bus stop changed for my daughter 
because I was nervous about her going, catching the bus in the 
dark in a bad neighborhood, so much so that the poor woman when 
I called her when my son started kindergarten and tried to walk 
home by himself because the bus stop was so far away, as soon 
as she heard my voice she said: ``OK, Ms. Long, where do you 
want the bus stop? '' So that type of thing.
    Senator Dodd. We could use you here.
    [Laughter.]
    Ms. Long. It was just because I felt empowered by the 
professionals and Parents Anonymous who worked with me through 
shared leadership, is what we call it.
    Senator Dodd. Did you have a job during all of this? Were 
you working?
    Ms. Long. No, sir, I was not working at the time.
    Senator Dodd. In terms of--what was the reaction as you 
went out or others were going out and finding jobs within the 
community? Do you have any evidence you can give to us about 
how that--whether or not there's that kind of support as well?
    Ms. Long. Because I am a full-time student, I do make time 
to volunteer and work in my community. I have had offers for 
employment.
    Senator Dodd. Good. It was--to the best of your knowledge, 
there's a responsive community?
    Ms. Long. Oh, absolutely. As a matter of fact, people say 
to us all the time either they want me to come and speak on 
their behalf, and I won't because they have their own parents 
and their own organizations that are just fabulous and that 
have been empowered through supported programs, CAPTA-funded 
programs.
    Senator Dodd. Let me if I can, I'm going to turn to Karen 
and let me chat with you a little bit. I mentioned this earlier 
to Dr. Boyce, but I want to give you a chance to give us a 
Connecticut perspective if you can in talking about the 
disproportionate share of child abuse and neglect in the 
minority communities, and certainly the problem is acute in 
Connecticut, as you pointed out. What can the Children's Trust 
Fund or CAPTA do in your view to address this problem?
    Ms. Foley-Schain. I think there is a couple of different 
areas to look at here. I think when you're talking about 
children with special needs and children with disabilities, 
you're looking at an additional hardship on the parent, and 
raising children who have complicated medical problems or other 
special needs require an awful lot from parents. One of the 
things that we've attempted to do is to include special 
curriculum to help parents look at those things, but also to 
have an intensive home visiting program that enables the home 
visitors to have flexibility when working with families, so if 
there's a special needs situation we can go out two, three 
times a week and support that parent until they're on their 
feet and feel that they have the ability to cope with what is a 
demanding situation to begin with, having a child, and then the 
extra demands of dealing with a child with special needs.
    These efforts try to make sure that they understand what 
the parents is dealing with, the sense of maybe being 
overwhelmed by what's going on, the sense of being isolated, 
being alone in that, and then really jumping in, not to do the 
work for the parent, but to help the parent be in a place where 
they can feel better about managing that situation.
    I think when we talk about racial and ethnic communities 
we're really talking a lot about the impact of poverty. In 
Connecticut we've been fortunate to have researchers tied to 
our program since its inception, and what we've found is that 
when we look at the families who come into our program from 
communities where there is not--the balance is white, Caucasian 
mothers, the risk factors with the families in the minority 
communities are the same. We really feel that poverty is a huge 
underlying issue here.
    We think that, at the most basic level, intensifying 
services in areas where there is higher poverty and therefore 
more risk is the most basic step that we can take. In 
Connecticut we have enhanced our Nurturing Families. We've also 
done other programs. We have Parents Anonymous in some shelters 
and things like that, too.
    Thinking about this one, we've really intensified the 
numbers of sites and the services that are available in the 
cities of Hartford and New Haven and hope to continue that.
    Senator Dodd. The risks are the same. That's what I was 
looking for.
    Ms. Foley-Schain. The risks are the same. The risks are the 
same.
    Senator Dodd. Economics are the driving factor in what 
we're talking about?
    Ms. Foley-Schain. That's right.
    Senator Dodd. Let me ask you this. Again, we're talking 
about an authorization bill here. We've got to get to some 
appropriations. I was interested, I mentioned in Philadelphia, 
what certain States are doing differently to deal with the 
prevention, to really, how can we do a better job. I want to do 
a better job in this bill on the prevention side of this, so 
we're not coming back year after year and looking at constant 
numbers here, but how we in Congress can make a real dent in 
these numbers.
    One of the things that strikes me here is obviously whether 
or not we're providing, to what extent the States are going to 
be able to take with CAPTA funds and do more prevention or--as 
you pointed out, in our State we've gone from a million to $14 
million in State resources on this issue. I don't know what the 
numbers are around the rest of the country.
    What I want to get at with you here is whether or not there 
is adequate resources--and again, I'm not trying to drive for 
an answer here; the answer is obviously, anyone who stands 
before you looking for money, there's never adequate resources. 
To what extent within that context can States use these dollars 
to then create the kind of innovative programs at a local level 
that really drive toward the prevention part of this.
    Are there some ideas you might have as to how we might 
incentivize that a bit, so that we can maybe encourage States 
to be more involved in the prevention side of this, either 
through awarding or rewarding States that, in fact, step up to 
this in providing additional help--I don't know. They're just 
ideas I'm trying to think of on how we encourage greater local 
involvement, supporting what we do with CAPTA, fully 
recognizing that, even with the money we've committed to this, 
it's going to come up short if you're really trying to get at 
the prevention side of this. I don't know if I'm saying that 
very well.
    Ms. Foley-Schain. No, absolutely clear, and I agree. I 
think resources is a huge issue. I think the field of child 
abuse and neglect prevention is a relatively new field. 
However, over the last 20 years I think we have tested and 
researched and developed some very solid programs, and that now 
is the time to seriously invest in these programs and bring 
them to scale.
    I think when we look at the balance between what we're 
investing in child abuse prevention versus the other side of 
the coin after a child's been involved in the child protective 
services system, it's huge, and that States and perhaps the 
Federal Government will need to maintain those investments in 
child protection services while increasing the prevention side. 
Hopefully, ultimately we would see that change.
    In terms of the incentives, one of the things I think that 
was very helpful to the Children's Trust Fund initiative was 
that CAPTA was an incentive-driven program. Initially for every 
dollar that the State was able to leverage new moneys for new 
efforts, CAPTA matched a dollar. Then over the years it went 
down to 20 cents on the dollar and now it's about 2 cents on 
the dollar.
    It still matters. However, I think if that were to go back 
up or maybe around particular efforts that your committee felt 
you wanted to target and try to get some momentum behind, that 
that might be a way to do it. It's helpful for a funder like 
the Children's Trust Fund to go to others and say: ``For every 
dollar you give us toward this effort, we'll partner with you 
around, we're going to be able to bring down another dollar in 
Federal funds.''
    I think the third thing is that we've found that, again 
referring back to the Nurturing Families Network, that we would 
be eligible for Medicaid reimbursement for 85 percent of the 
efforts that we're providing, and we would be able to claim 
that at 50 percent. However, there are some challenges with the 
way the Medicaid program is structured and our ability to make 
those claims and to work with very small organizations to do 
that.
    The 50 cents on the dollar is also a huge incentive for 
States to, I think, make investments into these programs. If 
there was a way to have some sort of a funding stream for those 
programs that did meet the criteria for Medicaid or other 
Federal programs to bring that in on a matched basis, I think 
it would be tremendous.
    Senator Dodd. Well, those are some good ideas. We've proven 
in the past in other areas that this works as a way of securing 
additional funding.
    Dr. Boyce provided some several findings in her testimony 
about the mental, behavioral, and physical effects of 
maltreatment on a child. On an again sort of related question 
to the last one, I'm curious about the infrastructure through 
CAPTA, the Child Abuse Prevention and Treatment Act--we should 
say that more often for our audience that may be listening; we 
talk in acronyms here and not everyone always understand 
exactly what we're talking about, but ``CAPTA'' is the Child 
Abuse Prevention and Treatment Act--the infrastructure 
currently in place that could provide the services, funding 
levels aside, that have been identified by the information that 
Dr. Boyce has provided as necessary for improving children's 
health.
    Is that infrastructure in place in your view?
    Ms. Foley-Schain. If I'm understanding your question, is 
there an infrastructure through this country, through CAPTA, to 
be able to funnel funds into these kinds of efforts?
    Senator Dodd. Right, in the area identified by Dr. Boyce.
    Ms. Foley-Schain. I would think that they are. I think the 
children's trust and prevention funds have done a tremendous 
job, and it's really on the backs or the heels of those efforts 
across the country that we've learned as much as we have. Each 
of the States receives a CAPTA allotment and they've pursued 
efforts to engage other partners to raise other money and to 
build infrastructures for reaching out to different families 
and also through different avenues, too, reaching different 
families.
    Senator Dodd. Let me ask as well if I can, and I think 
you're the right person to ask about this, but I'll ask anyone 
else who has knowledge of this to step in. In the last CAPTA 
reauthorization, Congress added a provision that required 
States to refer children under the age of 3 who are involved in 
substantiated cases of child abuse and neglect to early 
intervention services funded under Part C of the Individuals 
with Disabilities Education Act. Yet the most recent child 
maltreatment report in 2006, rather, reveals that children with 
disabilities are 54 percent more likely to be victims of 
maltreatment than children without disabilities.
    In light of these statistics, what progress has been made 
with regard to the implementation of these provisions, and do 
we have any suggestions on how to strengthen the evaluation of 
the implementation so that children with delays and 
disabilities can be served properly and ultimately have safe 
and successful lives?
    Ms. Foley-Schain. I can tell you a bit about what I know 
has happened in Connecticut as a result of this legislation. 
This is actually through CAPTA I and our Department of Mental 
Retardation. They came together and recognized that there were 
some limitations around how the Part C is set up in the State 
requiring that children either have certain medical conditions 
or have a referral because there's some concern about a 
developmental delay. Together these groups came up with a 
protocol that's now in the Department of Children and Families 
policies that there would be a co-occurring visit to a 
pediatrician when there's any investigation of maltreatment and 
then, based on the pediatrician's assessment, the child would 
be referred for Part C.
    In terms of children who come into the care of the child 
protective services agency and go into foster care, they do an 
extensive assessment which includes developmental assessment, 
looking for developmental delays, and would also make those 
kinds of referrals.
    Senator Dodd. Dr. Boyce, do you have any comment on this at 
all?
    Dr. Boyce. I'm not going to speak specifically to that part 
of the bill. I can talk a little bit about services research, 
and some of the services research we have. What we do see is 
that children are often in multiple areas, so they might be in 
one system and another system at the same time. We have some 
innovative researchers who have been able to capture all that 
data and get it all in one stream, so that we can see where 
there's duplication and so that we can identify better which 
systems work best, which we can capture earlier.
    Services research is beginning to tackle some of this issue 
that you're speaking to in terms of how do you capture kids who 
are in one set of services for educational developmental 
disability. The issue is usually they're often in other service 
systems.
    Senator Dodd. I make that case so often, not on this 
matter, but I can't tell you how many times I've gone to 
colleagues and asked for their support and they'll say: ``Look, 
I'll help you with the WIC money, but I can't help you out with 
the Section 8 money.'' And I'll say: ``We're talking about the 
same family here in some ways. So, in some ways you're helping 
me on the one hand and taking it away with the other, and the 
net effect is I'm a loser in those terms.'' I'm trying to make 
people understand exactly.
    I should have made that point myself in my opening 
comments, that sometimes we have a tendency to pigeonhole 
people, not recognizing that child or family may actually be in 
a lot of those categories.
    Ms. Kaplan. Well, if I can draw on that point--
    Senator Dodd. Yes, I was going to ask you as well, Ms. 
Kaplan.
    Ms. Kaplan. The issue is, you mentioned infrastructure 
before. Any time there is a provision in CAPTA, obviously to 
make a change in the way the children are treated there has to 
be the infrastructure within the agency to support that change. 
In the way that the wording was provided, there was no mandate 
on the side of policy providers. It really was a one-way 
agreement in which there was a desire to go ahead and put this 
in place.
    Many institutional changes have to be made for workers to 
have protocols. I will tell you that Massachusetts has done a 
wonderful job at doing this, but they started long before the 
provision was in place in CAPTA. They realized the 
vulnerability of these children beforehand.
    What's difficult is, to be very candid, the money stays the 
same and the list of prerequisites--
    Senator Dodd. Grows.
    Ms. Kaplan [continuing]. Keeps going. There are additions. 
And there's no incentive to do more things with less money, 
because that's how it ends up. You have more, so you have less 
to do for each thing. When you don't have a partner on the 
other side who understands that they need to be doing this too, 
it's really hard to make that happen.
    Senator Dodd. Well, why don't you share? What would you 
recommend we include here to make that happen?
    Ms. Kaplan. I'd like to think about that, because I have 
many responses, but they're not--
    Senator Dodd. We don't tolerate people thinking about 
things.
    [Laughter.]
    Ms. Kaplan. Oh, sorry about that.
    Senator Dodd. This is Washington.
    Give it some thought, will you?
    Ms. Kaplan. I will.
    Senator Dodd. Because it really is--you know, you're in 
Massachusetts and there are certain States that have histories 
of being involved in these matters early on and engaged in it, 
and we all know in this room here today there are other States 
that aren't as, for a variety of reasons, aren't as engaged. It 
doesn't mean they wouldn't be or couldn't be. I think if we 
provide the right kind of incentives and so forth you can get 
that kind of partnering that we're talking about, that I think 
is absolutely critical, given the levels that we're going to be 
able to provide.
    Candidly here, I'm not going to tell anyone in this room 
anything you don't know already. We've got huge deficits in 
this country. We've got expenditures that are occurring in 
places that I have serious disagreements with, but nonetheless 
are occurring, and I'm not going to be able to change it 
myself. We're battling for scarce resources to commit on 
serious problems, this being one.
    I happen to care deeply about this issue and what goes on. 
My service in Congress correlates directly to the life of 
CAPTA. I was elected to Congress in the year this bill became 
law, in 1974. In the 27 years I've been in this body and on 
this committee, I've fought year after year after year for this 
program.
    We need better partners. We need more partners, candidly. 
How we get that--I'd love to think that I could just--that it 
would happen because someone gives a great speech in some State 
legislature someplace and miraculously the resources appear. I 
think we're more likely to get cooperation through exactly what 
Ms. Foley-Schain was talking about, those incentive ideas that 
see people seeing the financial reward in effect for stepping 
up to the plate.
    I couldn't agree with you more. I think it's a very good 
point you make on that, having the infrastructure and the 
greater demands and resources remain rather flat. It's a very--
    Ms. Kaplan. May I comment on one of the questions you asked 
another witness?
    Senator Dodd. Certainly you may. This is open. This is a 
very relaxed gathering here.
    Ms. Kaplan. When I made my remarks I talked a little bit 
about differential response.
    Senator Dodd. I wanted to ask you about that, in fact. So 
go ahead now.
    Ms. Kaplan. Do you want me to wait until you ask?
    Senator Dodd. No, no. I want you to go. No, because it's a 
concept I was reading about last night and trying to understand 
the differential response. The language itself--for those who 
are not as well informed about it, would you explain it, first 
of all?
    Ms. Kaplan. Well, yes, that's what I was going to say. I'll 
back it up and I'll explain it a little bit.
    As you know, there are reports that come to the child abuse 
and neglect agency and the first decision that is made is a 
screening decision. If there is a screening decision to accept 
a report, then this child, this family, is involved in the 
child welfare system. What we have done over the course of our 
lives in the child welfare system is treat every family the 
same. So a child that's sexually abused is treated the exact 
same way as a parent who is not supervising his or her child.
    What we've come to know is that there is only about 10 
percent of the families that come to our attention that really 
have egregious harm. We have a fairly intrusive system that is 
adversarial, that does identify fault, and the last time I 
looked I wasn't able to partner with anyone who is going to 
blame me for something. It doesn't surprise me that many 
parents are not willing to cooperate with a child welfare 
system when it's really a ``gotcha.``
    What differential response realizes is that there are many 
families who don't have the severity of the problem that this 
10 percent have, and that we can provide services to these 
families at the front end once they are accepted and therefore 
lessen the risk to the family for future reports. Oftentimes we 
never see these families again.
    The issue becomes, as my colleague Karen said, ``the issue 
is a lot about poverty.'' These families have increased 
surveillance because of the poverty issue. Many of the families 
that come to the attention of the child welfare agency have 
economic hardship issues. They need housing assistance, they 
need transportation, they need child care. It's not so much an 
issue of that they beat their child near death. It's really an 
issue of needing the supportive services that we've been 
talking about.
    What differential response does is allow those families to 
have a different response, a family-friendly response, a 
partnership response, one in which the family is allowed to own 
the process as best we are able, given that we are a mandated 
system, and they get to decide what services they need. What a 
surprise, when we give families voice they feel better about 
what we've done with them.
    I want to mention one thing to go with the prevention side 
that Minnesota has done, because Minnesota's been doing this 
for about a decade now. Minnesota is probably one of the most 
researched systems of differential response. They call their 
system a family assessment response. They now have a third 
track that was established in 2005 called a parent support 
outreach program. These are for cases that are not accepted by 
the child welfare agency. So there's a report, it does not meet 
the statutory threshold, and there is a community pathway.
    We all know that a lot of these families that need the 
preventive services come to our attention and we typically 
close our doors and say, ``you don't qualify,'' and then the 
risk escalates, and then there is harm to the child, and then 
we'll pay attention.
    With differential response, you not only have a way to 
address those low- to moderate-risk families, but you also have 
a way in which you can address families that have needs that do 
not meet the statutory threshold for accepting, and yet they 
still need help. That's the first step, because research says 
that the greatest predictor of recurrence is the first report--
not the first substantiation; the first report.
    Senator Dodd. That's helpful. Very good. That helps a lot.
    How do you hope to see the reauthorization of this 
legislation address these issues of identification?
    Ms. Kaplan. American Humane has worked very closely with 
the National Child Abuse Coalition and we do have some 
suggested language that we'll be happy to provide to you if you 
would like--
    Senator Dodd. Absolutely.
    Ms. Kaplan [continuing]. About encouraging these front-door 
approaches so that we're able to intervene with families 
earlier.
    Senator Dodd. Dr. Boyce, how do you--once again, I'm going 
back to NIH. What's your reaction to this, what Ms. Kaplan 
said?
    Dr. Boyce. You said a lot, so I can speak a little bit to 
prevention, just to get back to thinking about models. I think 
that might be helpful in terms of some of what we've learned 
about prevention. There are different models of prevention. You 
can intervene in a very broad way in terms of thinking about 
prevention, in terms of parenting. Then we do have levels of 
prevention where once there's a risk or there's an indicator 
that we intervene.
    I think a little bit of what you're talking about in terms 
of how families can come to the attention to get resources or 
refer themselves, which is another option, is a very important 
idea in terms of thinking about services, so that we don't see 
these numbers not getting services. When I was talking a little 
about services and not using services, and we know there's a 
problem, there's this disconnect in finding ways to broaden 
that, to broaden services and reduce the gap between when we 
know a family has problems and being able to give them 
services, whether it be at the first report, the first risk, 
but early.
    Senator Dodd. Do you agree with Ms. Kaplan about the first 
report?
    Dr. Boyce. In terms of the data?
    Senator Dodd. Yes.
    Dr. Boyce. It's clear that once we have one report, one 
substantiation, it's likely to happen again. We don't want that 
second one to happen.
    Senator Dodd. But she said something different. She said it 
was the first report, not the first substantiated, that's the 
indicator.
    I'm not trying to be cute about a distinction here, but I 
thought you made a distinction.
    Ms. Kaplan. There is--that is the distinction, you are 
correct.
    Senator Dodd. Do you agree with that?
    Dr. Boyce. I would have to doublecheck. My data looks at 
substantiation. In terms of reports, I've seen that data, too. 
There are multiple data sources and national surveys.
    Senator Dodd. Yes.
    Ms. Long, did you want to comment? I saw you kind of 
chafing at the bit to jump into this and say something.
    Ms. Long. I was agreeing with both the ladies, particularly 
on the prevention, because we know that there's less money 
spent on prevention than actually in the treatment of child 
abuse and neglect cases, and we know, through programs that 
have prevention in them, that families are strengthened, and 
that when there is evidence-based practices that are used that 
prevention works.
    A national study done for Parents Anonymous by the National 
Council on Crime and Delinquency showed, proves statistically 
that there is a reduction in the risk factors, there is 
improvement in protective factors, and in situations where 
people were physically and emotionally abused these behaviors 
were significantly reduced.
    Senator Dodd. Well, that's good.
    I thank you. This has been helpful this afternoon. Ms. 
Kaplan, we'll look forward to those suggestions you've got, and 
from you, Karen, as well, some thoughts and ideas on how we 
incentivize as well.
    Ms. Long, you've been very, very helpful. We just are 
thrilled with how your journey is going. As the father of a 3-
year-old and a 6-year-old, I'm learning here in this process. 
I'm a late bloomer in the father business. When I was on the 
presidential trail, I used to say I was the only candidate that 
got mail from AARP and diaper services.
    [Laughter.]
    Ms. Long. My mom told me when you have children later in 
life they keep you young.
    Senator Dodd. Well, they're doing that, I'll tell you. 
They're keeping me up.
    Ms. Long. Yes, they do.
    Senator Dodd. Dr. Boyce, thank you very, very much, and for 
the work you're doing as well.
    Again, I'll leave the record open for a little bit because 
I know other colleagues may have some additional questions for 
you. Please feel that the record remaining open also is an 
opportunity for you to add any additional thoughts and ideas 
you have as we get closer. As I said, I'm going to try and 
craft something here, and we'll obviously keep all of you very 
well-informed as to that process, and we'll be soliciting your 
advice and suggestions on how we write this up, this 
reauthorization bill, and then try and get as much support as 
we can and if possible do something before this session ends, 
and certainly with the possibility of appropriations as well.
    It's going to be an important time here to get this right. 
We'll be calling on you in a more informal setting for your 
ideas and suggestions.
    That goes for people in the audience as well. I know 
there's a lot of collected wisdom and expertise on this issue 
that's in this room, not just reflected by those who testified 
on the panel here today. We'll be calling on you and asking--
I'm asking. Let me use this opportunity. I'm asking, if you've 
got some thoughts and ideas on what we ought to add to this, we 
welcome your suggestions, your advice. The staff here will 
certainly respond to any thoughts that you have on the subject 
matter.
    We thank you for your presence in the room today as well.
    With that, the committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Clinton

    I'd like to thank subcommittee Chairman Dodd and Ranking 
Member Alexander for organizing this important hearing. I'd 
also like to thank our witnesses for joining us to share their 
research, experience, and knowledge surrounding the critical 
issue of child abuse prevention and treatment.
    Since its enactment in 1974, the Child Abuse Prevention and 
Treatment Act (CAPTA) has been the backbone of Federal support 
for child abuse prevention. States have used these funds to 
improve their child protection infrastructures, to research 
innovative approaches to prevention, and to implement 
community-based programs targeted to meet the needs of families 
at risk.
    Though CAPTA has helped States make great strides, there is 
still an incredible amount of work to be done. In fiscal year 
2006, over 900,000 children were victims of child maltreatment. 
According to HHS' Annual Child Maltreatment Report, nearly 40 
percent of victims never receive post-investigation services. 
Child welfare systems struggle to retain qualified staff and to 
provide services targeted to the needs of individual families.
    In this reauthorization, Congress must give CAPTA the power 
it needs to address these problems. I have introduced 
legislation that helps us get started. My Child Welfare 
Workforce Improvement Act amends CAPTA by calling for a 
nationwide study of the child welfare workforce, so that we can 
assess the needs of the professionals charged with helping 
families at risk. Another area that needs critical attention in 
this reauthorization is the intersection of child protection 
and domestic violence services. Currently, 30 to 60 percent of 
families who come into contact with the child welfare system 
also experience domestic violence, yet these two types of 
agencies face considerable barriers in working together to help 
support such vulnerable children and families. Due to this 
alarming connection, we must do more to facilitate 
collaboration between child protection and domestic violence 
services so that families receive the help they need. 
Reunification of children in foster care is yet another topic 
to tackle in CAPTA. Reunification promotion represents an 
effort at child abuse prevention and treatment within the 
context of foster care. As we concentrate on promoting family 
engagement and endeavor to bring family-centered practices into 
the spectrum of child welfare services, we must not ignore the 
fact that successful reunification depends on parent 
engagement.
    All these improvements in the child welfare system require 
a dramatic increase in CAPTA authorization levels. We cannot 
continue to underfund one of the most important tools we have 
available to protect vulnerable children from abuse and 
neglect.
    Throughout my career, I have been a champion for improving 
child welfare, and the 110th Congress has been no exception. In 
this Congress I've introduced the Adoption Improvement Act of 
2007, legislation that supports States in retaining prospective 
adoptive parents who inquire with public child welfare agencies 
about adopting children from foster care. My Focusing 
Investments and Resources for a Safe Transition (FIRST) Act 
provides grants for Individual Development Accounts for youth 
aging out of foster care so that these young adults have a 
financial resource for independent living.
    Today's panelists have brought to our attention the myriad 
topics that need our attention in reauthorizing CAPTA. I am 
eager to work with my colleagues in the Senate to improve 
Federal support for child abuse prevention and treatment. 
Working together, we can ensure that vulnerable families 
receive the help they need.

                Prepared Statement of Senator Alexander

    Mr. Chairman, thank you for holding this hearing and thank 
you to all of our witnesses for being here.
    The Child Abuse Prevention and Treatment Act (CAPTA) has a 
long history of strong bipartisan support. I am very pleased 
that we are having this hearing today to learn about the 
successes of the program and to learn about any changes we may 
need to make to ensure that the program remains a strong part 
of our national efforts to protect children and strengthen 
families.
    I look forward to learning about what CAPTA has 
accomplished since we last reauthorized the law in 2003 and 
what Congress can do to ensure that we prevent the maltreatment 
of children and that abused children are appropriately and 
quickly identified and referred for appropriate services.
    The CAPTA programs are a vital part of the effort to help 
States protect children and prevent child abuse. Funds have 
helped States develop better data systems to analyze their 
child abuse statistics which helps States identify abused 
children, detect patterns in what leads to abuse so that we can 
prevent its occurrence, and identify ways to improve training 
and assistance for social workers, community leaders, school 
officials, and parents themselves. CAPTA also supports research 
projects to improve professional development and training of 
social workers, identify new trends in child abuse and neglect, 
and operate the National Incidence Study to keep track of State 
efforts to reduce and prevent child abuse.
    All of this, in turn, protects our most precious resource, 
our children.
    Last year, Tennessee received $1.3 million under the CAPTA 
programs to serve 1.4 million children. Tennessee does a lot of 
innovative things with these funds, including the establishment 
of the Tennessee Children's Trust Fund Advisory Committee. The 
mission of the Advisory Committee is ``to take the leadership 
role in ensuring that statewide child abuse prevention efforts 
have coordination and support, reflect evidence-based 
practices, involve both public and private community partners 
and are available to all Tennessee children.'' Funding for the 
Advisory Committee comes from many sources, with CAPTA playing 
a significant role.
    It is my hope that we can work to improve CAPTA's 
successful implementation and continue to make progress to 
reduce and prevent child abuse both in Tennessee and the rest 
of the Nation.

                 Prepared Statement of Senator Roberts

    Mr. Chairman, thank you for holding this hearing today on 
an issue that greatly affects children and families in my State 
and throughout the Nation. I recognize the importance of the 
Child Abuse Prevention and Treatment Act (CAPTA). It assists 
States in addressing the prevention and treatment of child 
abuse and neglect.
    In 2007, the State of Kansas received $268,698 through 
CAPTA. This funding has assisted the State in preventing, 
investigating, and treating child abuse. In 2007, the Kansas 
Department of Social and Rehabilitation Services received 
53,048 reports of children in need of care. Over half of these 
reports are assigned for investigation. According to the Kansas 
Department of Social and Rehabilitation Services, 33 percent of 
the assigned reports involved instances of physical abuse.
    It is my hope that we reauthorize and strengthen CAPTA to 
ensure that States have the adequate tools and resources to 
address child abuse. We all have an obligation to protect our 
Nations' children from harm and abuse.

   Prepared Statement of the American Psychological Association (APA)
    On behalf of the 148,000 members and affiliates of the American 
Psychological Association (APA), we thank you for holding this 
important hearing to discuss the upcoming reauthorization of the Child 
Abuse Prevention and Treatment Act (CAPTA).
    APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. Comprised of researchers, educators, 
clinicians, consultants, and graduate students, APA works to advance 
psychology as a science, a profession, and a means of promoting health, 
education, and human welfare.
    APA has a longstanding commitment to the prevention of child 
maltreatment. Efforts include journal publications, public policy 
statements, Federal advocacy initiatives, co-sponsorship of national 
programs, such as Adults and Children Together Against Violence and the 
National Conference on Child Abuse and Neglect, and membership in the 
National Child Abuse Coalition. Our members are also actively engaged 
in service delivery, research, policy development, prevention, practice 
and community intervention initiatives related to helping children and 
families impacted by abuse and neglect, and have formed a separate 
membership section on child maltreatment as well as an Interdivisional 
Task Force on Child Maltreatment Prevention.
    Originally enacted in 1974, CAPTA is the most important law 
addressing child abuse and neglect. It provides Federal funding to 
States in support of prevention, assessment, investigation, 
prosecution, and treatment activities and also provides grants to 
public agencies and nonprofit organizations for demonstration programs 
and projects. Additionally, CAPTA identifies the Federal role in 
supporting research, evaluation, technical assistance, and data 
collection activities; establishes the Office on Child Abuse and 
Neglect; and mandates the National Clearinghouse on Child Abuse and 
Neglect Information.
    The need for these important services remains urgent, and the 
stakes for our Nation are high. According to the U.S. Department of 
Health and Human Services, an estimated 3.3 million reports of possible 
child abuse or neglect were made to child protective agencies in 2006. 
Of those reports, 905,000 were substantiated. Fatalities from child 
maltreatment remain high with an estimated 1,530 child deaths resulting 
from abuse or neglect each year. Of those fatalities, 78 percent were 
among children under 4 years of age. However, our child protection 
system remains sorely in need of resources as funds for child abuse 
prevention and treatment programs have not kept pace with the needs of 
communities. In fact, children already known to child welfare services 
are repeatedly harmed and return for help. In 2006, children who had 
been prior victims of maltreatment were 96 percent more likely to 
experience a recurrence of maltreatment than those who were not prior 
victims. These data reveal a public health crisis warranting concerted 
national attention and an increased focus on prevention.
    Child abuse and neglect may result in significant short- and long-
term physical, psychological and behavioral health problems. 
Psychological consequences of child maltreatment may include 
depression, anxiety and dissociative disorders, post-
traumatic stress disorder, substance use, and suicidal ideation. In 
addition, child abuse and neglect may adversely impact a child's 
physical, cognitive, emotional, and social development. Timely 
identification and appropriate prevention and intervention with 
individualized assessment and tailored supports are required to 
minimize negative consequences of child maltreatment.
    As the subcommittee moves to reauthorize CAPTA, increased emphasis 
on child neglect and on prevention and early intervention services is 
of paramount importance. Child neglect is the most common form of 
maltreatment from substantiated cases, accounting for 64 percent of 
cases, with 60 percent of all perpetrators of child maltreatment having 
neglected children. Of the deaths related to child maltreatment in 
2006, 43 percent were attributed to neglect or medical neglect. Yet, 
little emphasis or direction is currently given to neglect in CAPTA.
    The urgent need to focus on prevention is evident not only in the 
numbers of children who are abused and neglected but also in those who 
receive no follow-up services. In 2006, approximately 40 percent of 
children with substantiated cases of child abuse or neglect did not 
receive post-investigation services. Clearly, prevention and early 
intervention services for children and families are critical. 
Prevention programs, such as home visitation and parent education 
programs have proven effective in preventing child maltreatment 
especially for populations at elevated risk and for families that 
remain intact. We strongly support the ability of States to use CAPTA 
funds to support a wide range of effective alternative models, 
including alternative or differential response, multiple track, or 
concurrent planning services, to better serve the needs of children and 
families and decrease instances of child abuse and neglect.
    In addition to an increased emphasis on child neglect and 
prevention and early intervention services, we encourage the 
subcommittee to consider provisions to further enhance CAPTA. These 
provisions would include: increased collaboration among agencies 
involved with abused and neglected children; mandatory attorney 
representation for victims of child abuse and neglect; culturally 
competent and linguistically appropriate services for children and 
families; prevention of maltreatment of children with disabilities; 
development and implementation of collaborative procedures between 
child protective services and domestic violence services in the 
investigation, intervention, and delivery of services provided to 
children and families; and a Federal study through the Centers for 
Disease Control and Prevention (CDC) to evaluate the effectiveness of 
different models (including international models) of mandatory 
reporting and the ways in which specific models apply to research 
(e.g., reporting mandates by researchers versus research exemptions).
    In closing, the American Psychological Association would like to 
thank you for the opportunity to share our comments related to the 
reauthorization of the Child Abuse Prevention and Treatment Act. We 
appreciate the subcommittee's ongoing commitment to the prevention of 
child maltreatment and look forward to serving as a resource and 
partner as you work on this and other important issues affecting 
children and their families.
      Prepared Statement of the Association of University Centers 
                         on Disabilities (AUCD)
    The Association of University Centers on Disabilities (AUCD), 
formerly American Association of University Affiliated Programs 
(AAUAP), is pleased to submit written testimony on the reauthorization 
of the Child Abuse Prevention and Treatment Act (CAPTA) to Chairman 
Dodd and the other distinguished members of the Senate Subcommittee on 
Children and Families of the Health, Education, Labor, and Pensions 
Committee.
    AUCD supports and promotes a national network of university-based, 
interdisciplinary programs. Network members consist of: 67 University 
Centers for Excellence in Developmental Disabilities Education, 
Research, and Service; 35 Maternal and Child Health Leadership 
Education in Neurodevelopmental and Related Disabilities (LEND) 
Programs; and 20 Developmental Disabilities Research Centers. 
Collectively, these programs perform an array of functions, such as 
academic preparation, community outreach and training, clinical and 
community services, research and evaluation, information dissemination, 
policy analysis, and advocacy. The purpose of these various functions 
is to enhance the independence, productivity, and quality of life of 
individuals with disabilities and families.
    For the programs represented by AUCD, addressing the issue of child 
abuse and neglect is an integral part of promoting the well-being of 
individuals with disabilities and their families, as well as preventing 
disabilities that occur as a result of abuse and neglect. Indeed, cause 
and effect are intertwined when it comes to child maltreatment and 
disabilities. Children with disabilities are particularly vulnerable to 
child abuse, and child abuse may result in the acquisition or 
development of disabilities, which may, in turn, make children even 
more vulnerable for further abuse.
    In 2006, HHS reports that child victims who were identified as 
having a disability were 52 percent more likely to experience 
recurrence than children without a disability. (Nearly 8 percent of 
victims--7.7 percent--had a reported disability.)
    Maltreatment of children adversely affects their health and 
development (Halfon & Klee, 1987; Shonkoff & Phillips, 2000). Studies 
of children in foster care suggest that maltreated children have high 
rates of illness, injuries, and developmental delays (Chernoff, Combs-
Orme, Risley-Curtiss, & Heisler, 1994; Halfon, Mendonca, & Berkowitz, 
1995; Hochstadt, Jaudes, Zimo, & Schachter, 1987). Chernoff and others 
examined the results of health examinations provided to children 
younger than 5 years of age at the time of entry into foster care and 
found 23 percent had abnormal or suspect results on developmental 
screening examinations (Chernoff et al., 1994).
    Findings regarding the development of children involved with child 
welfare who are not in foster care have only recently become available. 
Using data obtained from the National Survey of Child and Adolescent 
Well-Being (NSCAW), Stahmer and others (2005) found high rates of 
developmental and behavioral problems among young children who had been 
investigated for maltreatment. Also using NSCAW, Rosenberg, Smith, and 
Levinson (2007) found 47 percent of children who had been substantiated 
for maltreatment and were younger than 3 years of age had developmental 
delays that made them likely to be eligible for Part C early 
intervention.
    Such alarming statistics on the child maltreatment/disabilities 
nexus provide a cogent argument for attending to disability concerns in 
CAPTA.
    AUCD worked with House and Senate staff during the 2003 
reauthorization to address abuse and neglect of children with 
disabilities and to refocus the law on primary prevention activities. 
Following are some of the provisions promoted by AUCD that are now 
included in the law:

    <bullet> Grants to States may now be used for supporting 
collaboration among public health agencies, the child protection 
system, and private community-based programs to provide child abuse and 
neglect prevention and treatment services and to address the health 
needs, including mental health needs, of children identified as abused 
or neglected, including supporting prompt, comprehensive health and 
developmental evaluations for children who are the subject of 
substantiated child maltreatment reports.
    <bullet> New eligibility requirements and support for training, 
technical assistance, research, innovative programs regarding linkages 
between CPS and community-based health, mental health, and 
developmental evaluations.
    <bullet> Authorization for research on effects of maltreatment on 
child development and identification of successful early intervention 
services.
    <bullet> Provision for referral of a child under age 3, in a 
substantiated case of abuse or neglect, to early intervention services 
funded under IDEA Part C.
    <bullet> Emphasis throughout the law on community-based and 
prevention-focused activities, including the importance of respite as a 
critical component of child abuse and neglect prevention.
    <bullet> Families of children with disabilities, parents with 
disabilities, and organizations who work with such families are 
strongly emphasized.

    These changes make CAPTA a stronger law. Unfortunately, although 
more requirements and optional activities for States have been added, 
there has been no corresponding increase in funding to actually 
implement these activities. Therefore, many of the activities listed 
above have not yet been fully implemented. There is also a lack of 
current data on how States are dealing with these new requirements.
    One of the changes that has received some attention and evaluation 
is the new requirement for States to refer children who are younger 
than 3 years old with developmental delays and who are ``involved in a 
substantiated case of child abuse or neglect to early intervention 
services funded under Part C'' (Keeping Children and Families Safe Act 
of 2003, 114[v][1][B][xxi]).
    Our University Center at the University of Colorado Denver, under 
the direction of Dr. Cordelia Robinson, has been tracking the impact of 
this provision since the enactment of the Keeping Children and Families 
Safe Act of 2003. (Please see the attached article, ``Rates of Part C 
Eligibility for Young Children Investigated by Child Welfare.'' ) This 
research shows that substantiated and unsubstantiated children have 
similar rates of delays. Another 2004 article by Robinson & Rosenberg 
2004 indicate that a relatively small proportion of substantiated 
children are enrolling in Part C and these are mostly children in 
foster care. Unfortunately, Part C does not currently have the capacity 
to serve all the substantiated children--much less the larger number of 
children who are likely to be Part C eligible but who are not 
substantiated.
    One of the challenges identified in this study is that families who 
have neglected or abused their children are difficult to engage in Part 
C services. Most early intervention programs are voluntary and these 
families need a great deal of support and encouragement to get them 
involved in services. Few agencies have been successful in engaging 
these families. For example, in February Arapahoe County, Colorado 
child welfare referred 28 children under 3 to the local Part C agency. 
The Part C staff could not reach 8 children and another 8-10 refused 
Part C services. This example demonstrates that additional resources 
will be required to ensure enrollment of maltreated children who live 
with their biological families. We believe this challenge can be met, 
but it must be funded. &
    The need for additional funding to make the goals of this 
legislation a reality are brought home by data from Connecticut, where 
it is estimated that it would require an additional 1 million dollars 
to cover the cost of the evaluations for children referred by child 
welfare.
    Child welfare professionals also need better information about the 
services that Early Head Start, IDEA Part C and Part B 619 provide and 
how to refer families, including those that do not reach 
``substantiation,'' for early intervention services. Conversely, early 
intervention professionals need training that leads to their ability to 
understand and collaborate with the CPS system and culture. Training 
should be targeted in competency areas. For example for the Part C 
providers, training needs to be delivered on the culture of poverty and 
family abuse and neglect. These areas are rarely covered in the 
traditional early intervention professional preparation programs. 
Likewise, CPS and other CAPTA providers should receive training in 
developmental disabilities and developmental screening and referrals.
    Current law requires States to develop infrastructures to link 
child protective service agencies with an array of health care, mental 
health care, and developmental service agencies to improve screening, 
accurate diagnosis and provide comprehensive health and developmental 
services. These could include Early Head Start, Head Start, Part B 
Section 619 Preschool of IDEA, Title V agencies and the network of 
University Centers for Excellence in Developmental Disabilities that 
provide research, education, training, and direct services. States need 
more technical assistance and incentives to develop these 
infrastructures and to collaborate between the early intervention and 
child welfare systems. These systems should be encouraged to develop 
joint referral mechanisms, conduct joint trainings, utilize technical 
assistance to understand each others systems, support screenings/
evaluations, understand the complexities of the families involved, and 
iron out system-related issues (surrogate parents, for example). States 
that are most successful have also learned how to tap into other 
funding sources to provide screenings and evaluations, such as 
Medicaid.
    In addition, AUCD provides the following recommendations for the 
2008 reauthorization of CAPTA:

    <bullet> Comprehensive health and developmental evaluations.--Each 
child under the age of 6 for whom there is an open case, not just 
substantiated case, with Child Protective Services should be referred 
for a comprehensive health and developmental evaluation, if one has not 
already been done. These screenings and evaluations can be conducted 
through the CAPTA system as well as the medical or other appropriate 
system.
    <bullet> Comprehensive Health Evaluation.--A definition for 
``comprehensive health evaluation'' should be added to mean a process 
equivalent to the Early and Periodic Screening, Diagnosis, and 
Treatment requirement, and should encompass, at a minimum, the child's 
gross motor skills, fine motor skills, cognition, speech and language 
function, self-help abilities, emotional well-being and overall mental 
health, oral health, coping skills, and behavior.
    <bullet> Respite care services.--Respite care should be more 
available, accessible, and affordable for families who are at risk of 
abuse and neglect, particularly families of children and/or parents 
with disabilities. Respite should be considered a core service of child 
abuse prevention programs.
    <bullet> Equal protection for all children.--Extend protection to 
all children from medical neglect by removing language from CAPTA with 
the effect of allowing States to permit parents to withhold medical 
care from sick and injured children on religious grounds in the 
provision stating that there is no ``Federal requirement that a parent 
or legal guardian provide a child any medical service or treatment 
against the religious beliefs of the parent or legal guardian . . .'', 
in accord with the U.S. Supreme Court holding that the first amendment 
does not allow one's religious practices or beliefs to endanger one's 
children.
    <bullet> Differential responses.--Promote the implementation of 
policies and procedures which encourage the development of 
differential, multiple responses for referral of family to a community 
organization or voluntary preventive services where the child is not at 
risk of imminent harm.
    <bullet> Research.--Support more research to examine rates of Part 
C eligibility and participation in early intervention among children 
who are investigated for maltreatment. Data must be collected to verify 
services data specific to CAPTA activities for EI, health and 
developmental evaluations.
    <bullet> State Incentives.--Provide incentives to States that fund 
all the core services in title II.

    In addition to requesting Chairman Dodd and his colleagues on the 
Health Subcommittee to include the above recommendations in CAPTA, AUCD 
also requests that Chairman Dodd and the other distinguished 
subcommittee members encourage their colleagues on the Appropriations 
Committee to increase funding for CAPTA. Without such increases, the 
above listed and all other provisions in CAPTA will be stripped of 
their ability to make a meaningful difference in the lives of children 
and families.
    Federal funding to help States and communities protect children and 
prevent child abuse and neglect has been woefully inadequate. Current 
appropriations for child abuse and neglect are only at half the 
authorized amounts. In fiscal year 2008, basic State grants are funded 
at $27 million, discretionary grants at $33.7 million, and community-
based grants at $37 million. These levels of funding demonstrate a 
complete disregard for prevention, when compared to billions of dollars 
spent on foster care and institutionalization at the far end of the 
child welfare services continuum.
    As a result, hundreds of thousands of children remain in serious 
jeopardy and are even at risk of losing their lives. The U.S. 
Department of HHS received 3.3 million reports of suspected child abuse 
and neglect. The report states that substantiated cases of child abuse 
and neglect investigated by child protective service (CPS) agencies 
numbered an estimated 905,000 children nationally in 2006. States 
report that nearly half (41 percent) of the child victims or their 
families in confirmed cases of child abuse and neglect receive no 
treatment or any other kind of services following investigation of the 
report. Deaths from child maltreatment remain unacceptably high: an 
estimated 1,530 children died of abuse or neglect in 2006 alone. Near-
fatal child maltreatment leaves thousands of children permanently 
disabled each year.
    Therefore, at a minimum, we urge your support to fund the Child 
Abuse Prevention and Treatment Act (CAPTA) programs at the authorized 
levels in the FY 2009 Labor, Health and Human Services, and Education 
Appropriations Bill:

    <bullet> CAPTA basic State grants at $84 million,
    <bullet> CAPTA discretionary research and demonstration grants at 
$37 million, and
    <bullet> CAPTA Title II community-based prevention grants funding 
at $80 million.

    To begin to close the gap between what Federal, State and local 
dollars currently allocate to protect children and treat child victims, 
and resources necessary to implement CAPTA, Federal funding levels for 
the reauthorized CAPTA should be increased to $500 million for title I 
and $500 million for title II.
    The current early intervention system is struggling to serve the 
families now enrolled. The new CAPTA requirements have substantially 
increased the workload for providers of Part C evaluation and 
intervention services. Currently, Part C serves about 200,000 children 
nationwide. The Department of Education has established a benchmark for 
each State to serve 2 percent of the population of children under the 
age of 3. Unfortunately, one-half of the States are not meeting this 
benchmark. In addition, most States are only getting 10 percent (or 
less), of Federal funds to support the Part C system. Congress should 
increase appropriations for Part C of the Individuals with Disabilities 
Education Act (IDEA) so that all eligible children can be served under 
the program.
    AUCD urges Chairman Dodd and his colleagues on the subcommittee to 
include the provisions outlined above and to fund CAPTA and Part C at 
meaningful levels. Failure to do so is to allow our Nation's most 
vulnerable children to continue to be subjected to the most egregious 
violations of their human rights and to strap the American taxpayer 
with the ever-increasing price tag of responding to the devastating and 
far-reaching effects of child maltreatment.
    Thank you for considering these observations and recommendations. 
AUCD would be happy to provide further input as you begin to draft 
legislation to reauthorize CAPTA. Please contact Kim Musheno, Director 
of Legislative Affairs, in our national office for more information at 
301-588-8252; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f44425a5c474a41406f4e5a4c4b01405d4801">[email&#160;protected]</a>
   Prepared Statement of Lisa Pion-Berlin, Ph.D., President & Chief 
               Executive Officer, Parents Anonymous Inc.
    Good afternoon, my name is Dr. Lisa Pion-Berlin, President and 
Chief Executive Officer of Parents Anonymous Inc., the oldest family 
strengthening program in America dedicated to the prevention of child 
abuse and neglect. Thank you Chairman Dodd, Ranking Member Alexander 
and distinguished members of the Subcommittee on Children and Families 
for offering me this opportunity to share the stories of hundreds of 
thousands of families who have changed their lives forever through 
evidence-based Parents Anonymous Programs and dedicated themselves to 
giving back to improve the systems designed to help families 
nationwide.
    Through the extraordinary efforts of Jolly K., a courageous mother 
seeking help for her family and working in partnership with her social 
worker, the first Parents Anonymous group was started in 1969. From 
these humble beginnings, Parents Anonymous Inc. launched a national 
prevention network of accredited and affiliated community-based 
agencies to operate Parents Anonymous adult and children and youth 
programs to successfully reach millions of parents and their children, 
partner with professionals, and effectively engage local communities to 
provide help, support, strength and hope to diverse families. We are 
the Nation's oldest child abuse prevention organization dedicated to 
strengthening families, with an almost 40-year track record of 
successfully providing leadership in preventing maltreatment, including 
physical abuse, emotional abuse, neglect and sexual abuse. Parents 
Anonymous is truly a prevention program open to any parent before or 
after abuse or neglect has occurred. Parents Anonymous Inc. is the 
Nation's premier child abuse prevention program dedicated to 
strengthening families, with research demonstrating its effectiveness 
and national standards to ensure quality programs.
    Tanya Long, National Parent Leader is testifying today to continue 
the legacy first begun by Jolly K., the founding mother of Parents 
Anonymous. This year marks the 35th anniversary of Jolly K.'s 
groundbreaking testimony before Congress when she put a human face to 
the complex problem of child maltreatment. A hush fell over the room 
when Jolly K. testified before Congress about her abusive behavior 
toward her child and how she successfully turned her life around 
through Parents Anonymous. She was considered by leading experts as 
the single most effective witness because her personal story humanized 
the problem of child maltreatment by focusing on effective prevention 
programs (Public Policy, Harvard University, 1978). This courageous 
testimony in 1973 ensured the original passage of The Child Abuse 
Prevention and Treatment Act of 1974 (CAPTA). Her moving Senate and 
House testimony reported on nationwide television and in the Los 
Angeles Times caught the attention of the Nation and had a major impact 
on Congress and on public opinion.
    The unique philosophy and practices of mutual support and shared 
leadership ensure the success of Parents Anonymous by building on 
people's strengths, helping individuals and families address their 
needs respectfully and providing weekly and on-going vital supports to 
parents and their children of any age, ethnicity, and who reside in 
neighborhoods all across America. Our history, principles and model of 
mutual support and shared leadership have also had significant impact 
on our Nation's policies and practices related to child maltreatment 
prevention by emphasizing a strengths-based approach and engaging 
parents in meaningful leadership roles to ensure we respond effectively 
to the needs of families. From its inception, Parents Anonymous Inc. 
has led the way with a proactive, preventative approach to responding 
to diverse issues facing parents. Parents serve in significant 
leadership roles in all policymaking and program operations decisions 
and activities of Parents Anonymous Inc. Our unique, evidence-based 
shared leadership approach is the cornerstone of the CAPTA-Title II 
language that promotes meaningful parent involvement in planning, 
program development, oversight, evaluation and policy decisions of the 
Lead Agencies and the locally funded programs.
    Moreover, Parents Anonymous Inc. has developed another program: 
Shared Leadership in Action is designed to ensure meaningful roles for 
parent consumers to work with private and public agencies across all 
human service sectors (child welfare, justice, health, mental health, 
and schools) to better meet the needs of families through program 
development, policy-changes and creating long-term positive outcomes 
for families. Training, technical assistance and evaluation services 
are provided through shared leadership teams of Parents Anonymous Inc. 
Research results on the Shared Leadership in Action Program include 
statistically significant increases in knowledge and abilities to 
engage in successful shared leadership efforts that create systems 
reform. Furthermore, 20 States that have participated in Shared 
Leadership in Action have improved their child welfare systems by 
making organizational changes and strengthening services to address 
families' unique needs. We have developed Parent Advocacy Programs 
within child protective service systems to increase the re-unification 
of children by partnering with the family in the Child Protective 
Services system.
    Today, Parents Anonymous Inc. leads a dynamic Network of nearly 
200 accredited and affiliate organizations that implement Parents 
Anonymous programs annually to nearly 20,000 parents and children of 
diverse economic, ethnic and social backgrounds throughout the United 
States. Our affiliates are seasoned State, regional, and local public 
and private organizations with broad-based expertise in social 
services, mental health, and child development. The Parents Anonymous 
prevention model serves the entire family through free, weekly ongoing, 
community-based Parents Anonymous Mutual support groups for adults 
based on the helper-therapy principle and shared leadership, and 
specialized Children and Youth Programs.
    Our Programs have been successfully replicated to meet the needs of 
families in diverse settings including community centers, mental health 
settings, substance abuse programs, military installations, social 
service agencies, faith-based organizations, schools, child care 
centers, adult and juvenile correctional facilities, shelters, and 
Native American Reservations. We serve parents and children of any 
type, age, race, circumstance, and physical and/or mental challenge 
(who have the ability to function in a group), ensuring the broadest 
prevention impact: from primary to secondary to tertiary.
    For almost four decades, Parents Anonymous Inc. has successfully 
collaborated with: (1) Parents of varied cultural and ethnic 
backgrounds to ensure meaningful leadership roles for parents in their 
communities and at the State and national levels; (2) Accredited 
Parents Anonymous affiliates to ensure quality child abuse prevention 
programming; (3) Public child welfare, health and mental health 
agencies to improve service delivery systems; (4) Government and 
private foundations to develop and expand Parents Anonymous prevention 
programs and collaborate on public awareness campaigns; (5) Citizens to 
encourage volunteerism so that others in need can be helped; and (6) 
Public officials at the local, State and Federal levels to develop and 
implement responsive public policies that build on the strengths of 
families. For 40 years, Parents Anonymous has played a role nationally 
in shaping the child maltreatment prevention agenda from one of ``blame 
and shame'' to one that emphasizes the protection of children by 
building on the strengths of parents, resulting in strong families that 
nurture and promote positive relationships with their children and 
youth.
    Parents Anonymous Inc. has been recognized nationally for our 
leadership capabilities in child abuse and neglect prevention. The 
Federal Office of Child Abuse and Neglect highlighted our Parent 
Leadership Program and Children's Program in their Emerging Practices 
Initiative to Prevent Child Maltreatment (2003) as a promising strategy 
for national replication. The National Crime Prevention Council 
identified the Parents Anonymous Group as one of the top 50 strategies 
to prevent domestic crimes (2002). The Federal Center for Substance 
Abuse Prevention selected the Parents Anonymous Program as a Promising 
Family Strengthening Program to prevent substance abuse (2000). Also 
the U.S. Commission on Child and Family Welfare identified the 
exemplary Parents Anonymous Parent Leadership Program as a National 
Model for helping parents and fostering meaningful leadership (1996). 
The Federal Office of Juvenile Justice and Delinquency Prevention 
selected Parents Anonymous Programs as a National Model Family 
Strengthening Program for the prevention of juvenile delinquency 
(1995).
    Child maltreatment prevention is addressed by Parents Anonymous 
Inc. through national child abuse prevention public awareness campaigns 
with the purpose of educating and calling the public to action. We 
obtain national media coverage, including television, radio, newspaper 
and magazine to offer parenting tips on everyday stressors and 
highlight personal stories on families that instill hope and strength 
to prevent any act of child maltreatment. Parents Anonymous Parent 
Leaders and staff have been interviewed and published in The New York 
Times, Washington Post, Los Angeles Times, Life Magazine, Parenting, 
Redbook and Better Homes and Gardens, just to name a few. Also we have 
been on a Good Morning America Special Segment, The Today Show, CNN 
News, Geraldo Rivera, Leeza Gibbons Show, and numerous public affairs 
programs. Interviews have covered a broad range of topics such as how 
to control your anger toward your children, dealing with your 
teenagers, behavior problems in young children and promoting prevention 
through the idea that Asking For Help is A Sign of Strength. Parents 
Anonymous emphasizes prevention as the central goal verses 
sensationalism that leaves viewers including parents, staff and 
citizens, feeling helpless and inhibits ones' ability to seek or offer 
help early before abuse or neglect occurs.
    Parents Anonymous was the first innovative prevention program to 
exemplify an ecological systems approach by recognizing the essential 
need to partner with parents, promoting shared leadership and building 
on the strengths of families to successfully address child maltreatment 
prevention, parenting concerns and other violence-related issues across 
all levels of society. In Parents Anonymous Groups, parents and their 
children express their feelings, model positive behaviors and mutually 
support one another to create long-term positive growth and 
development. Any issue of personal violence and topics regarding the 
prevention of physical, emotional and sexual abuse and neglect are 
addressed in the weekly Parents Anonymous Programs. Parents Anonymous 
Inc. has demonstrated the effectiveness of engaging parents and staff 
in meaningful leadership roles to ensure better outcomes for families. 
We have successfully created and promoted meaningful parent leadership 
roles throughout the Parents Anonymous Inc. Network and the field of 
child abuse prevention. We have conducted several research studies 
based on a conceptual framework for parent leadership and shared 
leadership and numerous evaluations of trainings on leadership 
practices and the sustainability of leadership behaviors, resulting in 
the development of standardized instruments for measuring parent 
leadership and shared leadership potential. Parents Anonymous Inc. is 
nationally recognized for its expertise on parent leadership and shared 
leadership and has responded to numerous requests to conduct trainings 
and design technical assistance for public and private agencies and 
communities on effective strategies, skills and outcomes. Major Federal 
and State agencies and national organizations are now following our 
lead, embracing the important concepts of parent leadership and shared 
leadership and looking for creative ways to partner with parents to 
prevent child abuse. We utilize our expertise on parent leadership and 
shared leadership to raise awareness about child abuse prevention, 
shape the direction of child welfare reform, improve the foster care 
system and integrate child abuse prevention strategies into child 
health and child well-being programs including public health.
    Research substantiates only a few family strengthening programs as 
evidence-based to prevent child abuse and neglect (U.S. Office of Child 
Abuse & Neglect, 2001). Over the past 39 years, several studies have 
been conducted on the effectiveness of Parents Anonymous. The most 
recent National Outcome Study in 2007 was conducted by the National 
Council on Crime and Delinquency and funded by the Office of Juvenile 
Justice and Delinquency, U.S. Department of Justice. This study 
demonstrated that Parents Anonymous is an evidence-based program that 
prevents child abuse and neglect by reducing risk and increasing 
protective factors. This research included a national representative 
sample of diverse parents new to Parents Anonymous followed over a 6-
month period. Statistically significant results for parents who 
participated in Parents Anonymous were: Reduced Child Maltreatment 
Outcomes: 73 percent of parents decreased their parenting distress, 65 
percent of parents decreased their parent rigidity, 56 percent of 
parents reduced use of psychological aggression towards their children, 
and for parents who reported using physical aggression: 83 percent 
stopped physically abusing their children; Reduced Risk Factors: 86 
percent of the high stressed parents reduced their parental stress, 71 
percent of parents reduced their life stressors, 40 percent of parents 
reduced any form of domestic violence, and 32 percent of parents 
reduced their drug/alcohol use; and increased protective factors: 67 
percent of parents improved their quality of life; for parents starting 
out needing improvement: 90 percent improved in emotional and 
instrumental support, 88 percent improved in parenting sense of 
competence, 84 percent improved in general social support, 69 percent 
improved in use of non-violent discipline tactics, and 67 percent 
improved in family functioning. Also a qualitative study was conducted 
with Latino parents confirming the aforementioned results. In 
conclusion, parents who continued to attend Parents Anonymous groups 
over time showed improvement in child maltreatment outcomes, and risk 
and protective factors compared to those who dropped out. Strong 
evidence suggests that parents benefit and strengthen their families 
through Parents Anonymous regardless of their race, gender, education 
or income. The researchers found that 22 percent of the families were 
involved with the juvenile justice system and as a result of their 
children's exposure to the Program, they had significantly less child 
behavior difficulties over time (NCCD, 2007). This ground-breaking 
longitudinal study of Parents Anonymous is the only independent 
outcome research conducted nationwide to assess the impact of parent 
mutual support-shared leadership groups on child abuse and neglect 
prevention. Furthermore, Parents Anonymous utilizes a program fidelity 
tool to ensure that our program is being implemented based on the model 
and principles that yield these positive results.
    Through national collaborations, we have worked tirelessly to 
refine, expand, and enhance CAPTA without giving up its critical 
prevention focus. Parent Leaders have continued to testify before 
Congress on CAPTA and other prevention issues to inform and educate 
lawmakers on the effectiveness of strengths-based prevention programs. 
The 1996 Conference Report on the Reauthorization of CAPTA emphasized 
the importance of meaningful, ongoing and effective parent involvement 
in program and policy issues with a separate section and identifies 
Parents Anonymous as the organization who can assist in achieving 
these goals.
    In 2008, we believe legislative intent regarding effective 
prevention programs, meaningful partnerships with parents and 
accountability can be strengthened by the following of recommended 
changes to CAPTA. Input from Parents Anonymous Parents, volunteers and 
organizations as well as members of the National Child Abuse Coalition 
have shaped the following proposed legislative changes:

I. EMPHASIZE SHARED LEADERSHIP

    SEC. 105. GRANTS TO STATES AND PUBLIC OR PRIVATE AGENCIES AND 
ORGANIZATIONS. [42 U.S.C. 5106]

    a. Grants for Programs and Projects.--The Secretary may make grants 
to, and enter into contracts with States, public agencies or private 
agencies or organizations (or combinations of such agencies or 
organizations) for programs and projects for the following purposes:
    3. Mutual Support Programs.--The Secretary may award grants to 
private organizations to establish or maintain a national network of 
mutual support, shared leadership and self-help programs as a means of 
strengthening families in partnership with communities.

II. STRENGTHEN PREVENTION GOAL AND CREATE ACCOUNTABILITY BY ADDING AN 
APPROVAL PROCESS FOR THESE ACTIVITIES

    SEC. 106. GRANTS TO STATES FOR CHILD ABUSE AND NEGLECT PREVENTION 
AND TREATMENT PROGRAMS. [42 U.S.C. 5106a]

    a. Development and Operation Grants.--The Secretary shall make 
grants to the States, based on the population of children under the age 
of 18 in each State that applies for a grant under this section, for 
purposes of assisting the States in improving the child protective 
services system of each such State. Each State shall implement any of 
these improvement strategies utilizing these funds to partner with 
community-based prevention agencies and families affected by abuse and 
neglect in--
    Add new section on accountability: There is no clarity as to what 
these funds are used for since the separate application requirement was 
removed. No reporting is done--so the impact on families' lives cannot 
be even described nor can measurable impact be assessed regarding the 
prevention of child maltreatment.

III. STRENGTHEN PURPOSE, REQUIREMENTS, AND MEANINGFUL PARENT LEADERSHIP 
OF TITLE II--COMMUNITY-BASED CHILD ABUSE PREVENTION PROGRAMS

    SEC. 201. PURPOSE AND AUTHORITY. [42 U.S.C. 5116]

    [This section was amended by sec. 121 of P.L. 108-36.]

    (a) Purpose.--It is the purpose of this title--
          (1) to support community-based efforts to develop, operate, 
        expand, and enhance programs and initiatives focused on the 
        prevention of child abuse and neglect, that strengthen and 
        support families to reduce the likelihood of child abuse and 
        neglect in partnership with families; and
          (2) to foster an understanding, appreciation, and knowledge 
        of diverse populations in order to be effective in preventing 
        and treating child abuse and neglect.
    (b) Authority.--The Secretary shall make grants under this title on 
a formula basis to the entity designated by the State as the lead 
entity (hereafter referred to in this title as the ``lead entity'') 
under section 202(1) for the purpose of--
          (1) developing, operating, expanding and enhancing community-
        based and prevention-focused programs and activities designed 
        to strengthen and support families to prevent child abuse and 
        neglect that are accessible, effective, culturally appropriate, 
        and build on existing strengths that--
                  (A) offer assistance to families by building on their 
                strengths;
                  (B) provide early, comprehensive support for parents;
                  (C) promote the development of parenting skills, 
                especially in young parents and parents with very young 
                children;
                  (D) increase family stability;
                  (E) improve family access to other formal and 
                informal resources and opportunities for assistance 
                available within communities;
                  (F) support the additional needs of families with 
                children with disabilities through respite care and 
                other services;
                  (G) utilize parents in meaningful leadership roles in 
                the planning, implementation, oversight, evaluation and 
                policy decisions of the Lead Agency and local funded 
                programs, including parents of children with 
                disabilities, parents with disabilities, racial and 
                ethnic minorities, and members of other 
                underrepresented or underserved groups; and
                  (H) provide referrals to early health and 
                developmental services;
          (2) fostering the development of a continuum of preventive 
        services for children and families through State and community-
        based collaborations and partnerships both public and private;
          (3) financing the start-up, maintenance, expansion, or 
        redesign of specific child abuse and neglect prevention 
        programs and activities (such as parent education, mutual 
        support and leadership services, respite care services home 
        visiting and other similar services and other activities) 
        identified by the inventory and description of current services 
        required under section 205(a)(3) as an unmet need, and 
        integrated with the network of community-based child abuse and 
        neglect prevention programs and activities program to the 
        extent practicable given funding levels and community 
        priorities;
          (4) maximizing funding through leveraging of funds for the 
        financing, planning, community mobilization, collaboration, 
        assessment, information and referral, startup, training and 
        technical assistance, information management, reporting and 
        evaluation costs for establishing, operating, or expanding 
        community-based and prevention-focused programs and activities 
        designed to strengthen and support families to prevent child 
        abuse and neglect; and
          (5) financing public information activities that focus on the 
        healthy and positive development of parents and children and 
        the promotion of child abuse and neglect prevention activities.

    SEC. 202. ELIGIBILITY. [42 U.S.C. 5116a]

    [This section was amended by sec. 122 of P.L. 108-36.]

    A State shall be eligible for a grant under this title for a fiscal 
year if--
          (1)(A) the chief executive officer of the State has 
        designated a lead entity to administer funds under this title 
        for the purposes identified under the authority of this title, 
        including to develop, implement, operate, enhance or expand 
        community-based and prevention-focused programs and activities 
        designed to strengthen and support families to prevent child 
        abuse and neglect (through networks where appropriate);
          (B) such lead entity is an existing public, quasi-public, or 
        nonprofit private entity (which may be an entity that has not 
        been established pursuant to State legislation, executive 
        order, or any other written authority of the State that exists 
        to strengthen and support families to prevent child abuse and 
        neglect) with a demonstrated ability to work with other State 
        and community-based agencies to provide training and technical 
        assistance, and that has the capacity, resources and identified 
        roles to ensure the meaningful involvement of parents who are 
        consumers and who can provide leadership in the planning, 
        implementation, and evaluation of programs and policy decisions 
        of the applicant agency in accomplishing the desired outcomes 
        for such efforts;
          (C) in determining which entity to designate under 
        subparagraph (A), the chief executive officer should give 
        priority consideration equally to a trust fund advisory board 
        of the State or to an existing entity that leverages Federal, 
        State, and private funds for a broad range of child abuse and 
        neglect prevention activities and family resource programs, and 
        that is directed by an interdisciplinary, public-private 
        structure, including participants from communities; and
          (D) in the case of a State that has designated a State trust 
        fund advisory board for purposes of administering funds under 
        this title (as such, title was in effect on the date of the 
        enactment of the Child Abuse Prevention and Treatment Act 
        Amendments of 1996) and in which one or more entities that 
        leverage Federal, State, and private funds (as described in 
        subparagraph (C)) exist, the chief executive officer shall 
        designate the lead entity only after full consideration of the 
        capacity and expertise of all entities desiring to be 
        designated under subparagraph (A);
          (2) the chief executive officer of the State provides 
        assurances that the lead entity will provide or will be 
        responsible for providing--
                  (A) community-based and prevention-focused programs 
                and activities designed to strengthen and support 
                families to prevent child abuse and neglect composed of 
                local, collaborative, public-private partnerships 
                directed by interdisciplinary structures with balanced 
                representation from private and public sector members, 
                parents, consumers and public and private nonprofit 
                service providers and individuals and organizations 
                experienced in working in partnership with families 
                with children with disabilities;
                  (B) direction through an interdisciplinary, 
                collaborative, public private structure with balanced 
                representation from private and public sector members, 
                parents, consumers, public sector and private nonprofit 
                sector service providers, and parents with 
                disabilities; and
                  (C) direction and oversight through identified goals 
                and objectives, clear lines of communication and 
                accountability, the provision of leveraged or combined 
                funding from Federal, State and private sources, 
                centralized assessment and planning activities, the 
                provision of training and technical assistance, and 
                reporting and evaluation functions; and
          (3) the chief executive officer of the State provides 
        assurances that the lead entity--
                  (A) will utilize parents in meaningful leadership 
                roles in the development, operation, oversight and 
                evaluation of the community-based and prevention-
                focused programs and activities designed to strengthen 
                and support families to prevent child abuse and neglect 
                and in the policy-decisions of the Lead Agency;
                  (B) has a demonstrated ability to work with State and 
                community-based public and private nonprofit 
                organizations to develop a continuum of preventive, 
                family centered, comprehensive services for children 
                and families through the community-based and 
                prevention-focused programs and activities designed to 
                strengthen and support families to prevent child abuse 
                and neglect this is ill-defined and a hold over from 
                other language;
                  (C) has the capacity to provide operational support 
                (both financial and programmatic) training, technical 
                assistance, and evaluation assistance, to community-
                based and prevention-focused programs and activities 
                designed to strengthen and support families to prevent 
                child abuse and neglect through innovative, interagency 
                funding and interdisciplinary service delivery 
                mechanisms; and
                  (D) will integrate its efforts with individuals and 
                organizations experienced in working in partnership 
                with families with children with disabilities, parents 
                with disabilities, and with the child abuse and neglect 
                prevention activities of the State, and demonstrate a 
                financial commitment to those activities.

    SEC. 203. AMOUNT OF GRANT. [42 U.S.C. 5116b]

    [This section was amended by sec. 123 of P.L. 108-36.]

    (a) Reservation.--The Secretary shall reserve 1 percent of the 
amount appropriated under section 5116i of this title for a fiscal year 
to make allotments to Indian tribes and tribal organizations and 
migrant programs.
    (b) Remaining Amounts.--
          (1) In general.--The Secretary shall allot the amount 
        appropriated under section 5116i of this title for a fiscal 
        year and remaining after the reservation under subsection (a) 
        of this section among the States as follows:
                  (A) 70 percent of such amount appropriated shall be 
                allotted among the States by allotting to each State an 
                amount that bears the same proportion to such amount 
                appropriated as the number of children under the age of 
                18 residing in the State bears to the total number of 
                children under the age of 18 residing in all States 
                (except that no State shall receive less than $175,000 
                under this subparagraph).
                  (B) 30 percent of such amount appropriated shall be 
                allotted among the States by allotting to each State an 
                amount that bears the same proportion to such amount 
                appropriated as the amount of private, State, or other 
                non-Federal funds leveraged and directed through the 
                currently designated State lead entity in the preceding 
                fiscal year bears to the aggregate of the amounts 
                leveraged by all States from private, State, or other 
                non-Federal sources and directed through the current 
                lead entity of such States in the preceding fiscal 
                year.
          (2) Additional requirements.--The Secretary shall provide 
        allotments under paragraph (1) to the State lead entity.
    (c) Allocation.--Funds allotted to a State under this section--
          (1) shall be for a 3-year period; and
          (2) shall be provided by the Secretary to the State on an 
        annual basis, as described in subsection (b) of this section.
    Need to add a section on the return of funds not in compliance by a 
lead agency: to be put back into program funds not into the general 
Federal treasury. Many other Federal programs have these types of 
provisions.

    SEC. 204. EXISTING GRANTS. [42 U.S.C. 5116c]

    [Note: This section was repealed by sec. 124 of P.L. 108-36.]

    SEC. 205. APPLICATION. [42 U.S.C. 5116d]

    [This section was amended by sec. 125 of P.L. 108-36.]

    A grant may not be made to a State under this title unless an 
application therefore is submitted by the State to the Secretary and 
such application contains the types of information specified by the 
Secretary as essential to carrying out the provisions of section 202, 
including--
          (1) a description of the lead entity that will be responsible 
        for the administration of funds provided under this title and 
        the oversight of programs funded through the community-based 
        and prevention-focused programs and activities designed to 
        strengthen and support families to prevent child abuse and 
        neglect (through networks where appropriate) which meets the 
        requirements of section 202;
          (2) a description of how the community-based and prevention-
        focused programs and activities designed to strengthen and 
        support families to prevent child abuse and neglect (through 
        networks where appropriate) will operate and how child abuse 
        and neglect prevention programs and activities services 
        provided by public and private, nonprofit organizations, will 
        be integrated into a developing continuum of family centered, 
        holistic, preventive services for children and families;
          (3) a description of the inventory of current unmet needs and 
        current community-based and prevention-focused programs and 
        activities to prevent child abuse and neglect, and other family 
        resource services operating in the State;
          (4) a budget for the development, operation and expansion of 
        the community-based and prevention-focused programs and 
        activities designed to strengthen and support families to 
        prevent child abuse and neglect that verifies that the State 
        will expend in non-Federal funds an amount equal to not less 
        than 20 percent of the amount received under this title (in 
        cash, not in-kind) for activities under this title;
          (5) an assurance that funds received under this title will 
        supplement, not supplant, other State and local public funds 
        designated for the start up, maintenance, expansion, and 
        redesign of community-based and prevention-focused programs and 
        activities designed to strengthen and support families to 
        prevent child abuse and neglect;
          (6) an assurance that the State will utilize funds from these 
        and other sources and implement activities to ensure the 
        meaningful involvement of parents who are consumers and who can 
        provide leadership in the planning, implementation, and 
        evaluation of the programs and policy decisions of the 
        applicant agency in accomplishing the desired outcomes for such 
        efforts;
          (7) a description of the criteria that the entity will use to 
        develop, or select and fund, community-based and prevention-
        focused programs and activities designed to strengthen and 
        support families to prevent child abuse and neglect as part of 
        network development, expansion or enhancement;
          (8) a description of outreach activities that the entity and 
        the community-based and prevention-focused programs and 
        activities designed to strengthen and support families to 
        prevent child abuse and neglect will undertake to maximize the 
        participation of racial and ethnic minorities, children and 
        adults with disabilities, homeless families and those at risk 
        of homelessness, and members of other underserved or 
        underrepresented groups;
          (9) a plan for providing operational support, training and 
        technical assistance to community-based and prevention-focused 
        programs and activities designed to strengthen and support 
        families to prevent child abuse and neglect for development, 
        operation, expansion and enhancement activities;
          (10) a description of how the applicant entity's activities 
        and those of the network and its members (where appropriate) 
        will be evaluated;
          (11) a description of the actions that the applicant entity 
        will take to advocate systemic changes in State policies, 
        practices, procedures and regulations to improve the delivery 
        of community-based and prevention-focused programs and 
        activities designed to strengthen and support families to 
        prevent child abuse and neglect services to children and 
        families and the utilization of parent and family advocates;
          (12) an assurance that the applicant entity will provide the 
        Secretary with reports at such time and containing such 
        information as the Secretary may require.

    SEC. 206. LOCAL PROGRAM REQUIREMENTS. [42 U.S.C. 5116e]

    [This section was amended by sec. 126 of P.L. 108-36.]

    (a) In general.--Grants made under this title shall be used to 
develop, implement, operate, expand and enhance community-based, and 
prevention-focused programs and activities designed to strengthen and 
support families to prevent child abuse and neglect that--
          (1) assess community assets and needs through a planning 
        process that involves parents and local public agencies, local 
        nonprofit organizations, and private sector representatives;
          (2) develop a strategy to provide, over time, a continuum of 
        preventive, family centered services to children and families, 
        especially to young parents and parents with young children, 
        through public-private partnerships;
          (3) provide--
                  (A) core child abuse and neglect prevention services 
                such as--
                          (i) parent education, mutual support, shared 
                        leadership, and self help, and parent 
                        leadership services;
                          (ii) respite services, including crisis 
                        nurseries;
                          (iii) voluntary home visiting services;
                          (iii) outreach services;
                          (iv) community and social service referrals; 
                        and
                          (v) follow-up services; and
                  (B) access to optional services, including--
                          (i) referral to and counseling for adoption 
                        services for individuals interested in adopting 
                        a child or relinquishing their child for 
                        adoption;
                          (ii) child care, early childhood development 
                        and intervention services;
                          (iii) referral to services and supports to 
                        meet the additional needs of families with 
                        children with disabilities and parents with 
                        disabilities;
                          (iv) referral to job readiness services;
                          (v) referral to educational services, such as 
                        scholastic tutoring, literacy training, and 
                        General Educational Degree services;
                          (vi) self-sufficiency and life management 
                        skills training;
                          (vii) community referral services, including 
                        early developmental screening of children; and
                          (viii) peer counseling;
          (4) develop, support maintain on-going leadership roles for 
        the meaningful involvement of parent consumers in the 
        development, operation, evaluation, and oversight of the 
        programs and services and policy decisions of the Lead Agency;
          (5) provide leadership in mobilizing local public and private 
        resources to support the provision of needed child abuse and 
        neglect prevention programs and activities; and
          (6) participate with other community-based and prevention-
        focused programs and activities designed to strengthen and 
        support families to prevent child abuse and neglect in the 
        development, operation and expansion of networks where 
        appropriate.
    (b) Priority.--In awarding local grants under this title, a lead 
entity shall give priority to effective community-based child abuse and 
neglect prevention programs serving low income communities and those 
serving young parents or parents with young children.

    SEC. 207. PERFORMANCE MEASURES. [42 U.S.C. 5116f]

    [This section was amended by sec. 127 of P.L. 108-36.]

    A State receiving a grant under this title, through reports 
provided to the Secretary.--No accountability: If States do not use 
these funds properly or meet the obligation period, what are the 
consequences, can funds be held back by Federal authority. The Federal 
Government has no compliance authority to take any action in the case 
of noncompliance to any provision of this section of the statute.
          (1) shall demonstrate the effective development, operation 
        and expansion of a community-based and prevention-focused 
        programs and activities designed to strengthen and support 
        families to prevent child abuse and neglect that meets the 
        requirements of this title;
          (2) shall supply an inventory and description of the services 
        provided to families by local programs that meet identified 
        community needs, including core and optional services as 
        described in section 202;
          (3) shall demonstrate that they will have effectively 
        addressed unmet needs identified by the inventory and 
        description of current services required under section 205(3);
          (4) shall describe the number of families served, including 
        families with children with disabilities, and parents with 
        disabilities, and the involvement of a diverse representation 
        of families in the design, operation, and evaluation of 
        community-based and prevention-focused programs and activities 
        designed to strengthen and support families to prevent child 
        abuse and neglect, and in the design, operation and evaluation 
        of the networks of such community-based and prevention-focused 
        programs;
          (5) shall demonstrate a high level of satisfaction among 
        families who have used the services of the community-based and 
        prevention-focused programs and activities designed to 
        strengthen and support families to prevent child abuse and 
        neglect;
          (6) shall demonstrate the establishment or maintenance of 
        innovative funding mechanisms, at the State or community level, 
        that blend Federal, State, local and private funds, and 
        innovative, interdisciplinary service delivery mechanisms, for 
        the development, operation, expansion and enhancement of the 
        community-based and prevention-focused programs and activities 
        designed to strengthen and support families to prevent child 
        abuse and neglect;
          (7) shall describe the results of a peer review process 
        conducted under the State program; and
          (8) shall document the leadership roles, responsibilities and 
        results of parent consumers and funds utilized to ensure the 
        continued leadership of parents in the on-going planning, 
        implementation, and evaluation of such community-based and 
        prevention-focused programs and activities of the Lead Agency 
        and local programs designed to strengthen and support families 
        to prevent child abuse and neglect.

    SEC. 208. NATIONAL NETWORK FOR COMMUNITY-BASED CHILD ABUSE AND 
NEGLECT PREVENTION PROGRAMS. [42 U.S.C. 5116g]

    [This section was amended by sec. 128 of P.L. 108-36.]

    The Secretary may allocate such sums as may be necessary from the 
amount provided under the State allotment to support the activities of 
the lead entity in the State--
          (1) create, operate and maintain an information 
        clearinghouse;
          (2) to fund a yearly symposium on State system change efforts 
        that result from the operation of the community-based and 
        prevention-focused programs and activities designed to 
        strengthen and support families to prevent child abuse and 
        neglect;
          (4) to create, operate and maintain a computerized 
        communication system between lead entities; and
          (5) to fund State-to-State technical assistance through bi-
        annual conferences.

    SEC. 209. DEFINITIONS. [42 U.S.C. 5116h]

    [This section was amended by sec. 129 of P.L. 108-36.]

    For purposes of this title:
    (1) Children With Disabilities.--The term ``children with 
disabilities'' has the same meaning given the term ``child with a 
disability'' in section 602(3) or ``infant or toddler with a 
disability'' in section 632(5) of the Individuals with Disabilities 
Education Act.
    (2) Community Referral Services.--The term ``community referral 
services'' means services provided under contract or through 
interagency agreements to assist families in obtaining needed 
information, mutual support and community resources, including respite 
care services, health and mental health services, employability 
development and job training, and other social services, including 
early developmental screening of children, through help lines or other 
methods.
    (3) Community-Based and Prevention-Focused Programs and Activities 
to Prevent Child Abuse and Neglect.--The term ``community-based and 
prevention-focused programs and activities to strengthen and support 
families to prevent child abuse and neglect'' includes organizations 
such as family resource programs, family support programs, voluntary 
home visiting programs, respite care programs, parenting education, 
mutual support programs, and other community programs or networks of 
such programs that provide activities that are designed to prevent or 
respond to child abuse and neglect and have evidence demonstrating 
their effectiveness to prevent all forms of abuse and neglect with 
diverse families nationwide.
    (4) Respite Care Services.--The term ``respite care services'' 
means short-term care services, including crisis nurseries, provided in 
the temporary absence of the regular caregiver (parent, other relative, 
foster parent, adoptive parent, or guardian) to children who--
        (A) are in danger of abuse or neglect;
        (B) have experienced abuse or neglect; or
        (C) have disabilities, chronic, or terminal illnesses.
    Such services shall be provided within or outside the home of the 
child, be short-term care (ranging from a few hours to a few weeks of 
time, per year), and be intended to enable the family to stay together 
and to keep the child living in the home and community of the child.

    SEC. 210. AUTHORIZATION OF APPROPRIATIONS. [42 U.S.C. 5116i]

    [This section was amended by sec. 130 of P.L. 108-36.]

    There are authorized to be appropriated to carry out this title, 
$150,000,000 for fiscal year 2009 and such sums as may be necessary for 
each of the fiscal years 2010 through 2013.
      Prepared Statement of Child Welfare League of America (CWLA)
    Chairman Dodd and Senator Alexander and members of the 
subcommittee, the Child Welfare League of America submits this 
statement on the reauthorization of the Child Abuse Prevention and 
Treatment Act (CAPTA).
    CWLA represents hundreds of State and local direct service 
organizations including both public and private, and faith-based 
agencies. Our members provide a range of child welfare services from 
prevention to placement services including adoptions, foster care, 
kinship placements, and services provided in a residential setting.
    CWLA believes that keeping children safe from child abuse and 
neglect should always be the first goal of any child protective 
services response. The best ways to ensure that children are safe from 
all forms of maltreatment are comprehensive, community-based approaches 
to protecting children and supporting and strengthening families. As a 
collective, public and private agencies, in collaboration with 
individual citizens and community entities, can prevent and remedy 
child maltreatment, achieve child safety and promote child and family 
well-being.
                      history of child protection
    Child protection can trace its origins back to the nineteenth 
century when, in 1875, the Society for the Prevention of Cruelty to 
Children was established in New York City.\1\ After publicity 
surrounding the treatment of a young child captured the attention of 
the public, the President of the American Society for the Prevention 
and Cruelty to Animals was approached and as a result of his support, 
existing State legislation to protect children was vigorously enforced 
for the first time. Other States and jurisdictions would eventually 
follow in enacting their own laws. In 1899, Illinois became the first 
State to create a Juvenile Court to address issues of dependence, 
delinquency, and neglect. By 1907, 26 States had followed with their 
own juvenile court laws.
---------------------------------------------------------------------------
    \1\ Child Welfare League of America (CWLA). (1999). CWLA Standards 
of Excellence for Services for Abused and Neglected Children and Their 
Families. Washington, DC: Author.
---------------------------------------------------------------------------
    In 1909, the first White House Conference on Children was convened 
and one of the results of that Conference was the creation of a 
Children's Bureau at the Federal level. Part of the mission of the new 
Bureau at the urging of the White House Conference was to ``investigate 
and report on all matters relating to the welfare of children and child 
life among all classes of people.'' \2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Throughout the following decades other laws where enacted at the 
Federal and State level but, in 1960, Dr. C. Henry Kempe's work on 
``battered child syndrome'' raised the importance of communities in 
their efforts to protect children and led the medical community to 
improve methods of identifying and protecting children from abuse. In 
1974, the Congress acted with the adoption of the first Child Abuse 
Prevention and Treatment Act (CAPTA). That landmark law enacted through 
this committee established national standards for specific reporting 
and response practices for States to include into their child 
protection laws.
                        the role of legislation
    CAPTA, as significant as it is, is only one part of a system we 
call the child welfare system. Other important laws that play a direct 
or indirect role in child protective services (CPS) include enactment 
of the 1935 Social Security Act which included the Aid to Dependent 
Children section that required public agencies to provide child welfare 
services to protect children who were neglected, dependent, homeless or 
in danger of becoming delinquent. Later changes were made to that law 
as it became Aid to Families with Dependent Children (AFDC) and States 
were required to provide for children in foster care. The Social 
Services entitlement was a source of funds to States to address some of 
the support services that might assist families in leaving AFDC, it 
also served as the major source of funds for State CPS systems. In 
1981, this funding became the Social Services Block Grant (SSBG), Title 
XX of the Social Security Act. SSBG still remains the single biggest 
Federal source of funds for CPS. In 1978, Congress recognized some of 
the earlier injustices carried out under Federal law against Native 
Americans and passed the Indian Child Welfare Act (ICWA--P.L. 95-608). 
Two years later P.L. 96-272 created title IV-E foster care and adoption 
assistance. Throughout the last three decades numerous amendments have 
been made to these laws and CAPTA has been reauthorized six times.
                        the challenges before us
    A few months ago the latest national data on child abuse and 
neglect were released by the Department of Health and Human Services 
(HHS). The numbers tell a familiar story: over 900,000 children 
substantiated as abused and neglected, out of the more than 3.3 million 
child abuse reports made. In 2006, children in the age group of birth 
to 1 year had the highest rate of victimization at 24.4 per 1,000 
children of the same age group in the national population; More than 40 
percent (41.1 percent) of the estimated 1,530 child fatalities in 2006 
were attributed to neglect; physical abuse also was a major contributor 
to child fatalities.\3\
---------------------------------------------------------------------------
    \3\ Administration on Children, Youth, and Families (ACYF). (2008). 
Child Maltreatment 2006, Available online. Washington, DC: U.S. 
Department of Health and Human Services (HHS).
---------------------------------------------------------------------------
    Of the child victims almost 9 percent were sexually abused and 16 
percent were physically abused. It is little recognized that nearly 65 
percent of the 900,000 children are victims of neglect. These are 
children whose mistreatment can be just as serious as those victims of 
sexual or physical abuse. It also tells us that we are not doing enough 
to prevent these children from coming into care or being brought to the 
attention of the Child Protective Services (CPS) system.
    A consistent statistic from year to year, including 2006, is that 
of the 900,000 abused and neglected children which identified that 
nearly 40 percent did not receive follow up services.\4\ There are 
several reasons for this including the way in which data is collected, 
how States provide services, and in some instances the reluctance on 
the part of some families to access services. Still with such a high 
and consistent percent going without follow-up help, it is clear that 
services are not being adequately provided at the front end of the 
child welfare system. For some that may mean they will return to the 
child welfare system.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    In 1996, the U.S. Department of Health and Human Services released 
the Third National Incidence Study (NIS) of Child Abuse and Neglect. 
The NIS is a congressionally mandated, periodic research effort to 
assess the incidence of child abuse and neglect in the United States. 
The fourth study is currently underway and is expected to be released 
later this year. The NIS gathers information from multiple sources to 
estimate the number of children who are abused or neglected and to 
provide information about the nature and severity of the maltreatment, 
the characteristics of the children, perpetrators, and families, and 
the extent of changes in the incidence or distribution of child 
maltreatment since the previous NIS.
    In the 1996 study, a significant correlation was found between the 
incidence of maltreatment and family income. It found that 47 percent 
of children with demonstrable harm from abuse or neglect and 95.9 
percent of endangered children came from families whose income was less 
than $15,000 per year.
    Children from families with annual incomes below $15,000 as 
compared to children from families with annual incomes above $30,000, 
were over 22 times more likely to experience some form of maltreatment 
that fit the study's harm standard and over 25 times more likely to 
suffer some form of maltreatment as defined by the endangerment 
standard.\5\
---------------------------------------------------------------------------
    \5\ Sedlack, A.J. & Broadhurst, D.D. (1996). Third National 
Incidence Study of Child Abuse and Neglect: Final report. Washington, 
DC: U.S. Department of Health and Human Services.
---------------------------------------------------------------------------
    The stress created by living in poverty may play a distinct role in 
child abuse and neglect. Parents who experience prolonged frustration 
in trying to meet their family's basic needs may be less able to cope 
with even normal childhood behavior problems. Those parents who lack 
social support in times of financial hardship may be particularly 
vulnerable. Parents who are experiencing problems with employment are 
frequently rated by child protective services staff as being at 
moderate to high risk of child maltreatment.
    These figures also tell us that we can prevent more children from 
coming into the system with the right kind of investments both in 
services and in the CPS system.
         key issues for capta reauthorization and the committee
Funding for CAPTA
    CPS systems in the 50 States are funded by a variety of sources. 
The Social Services Block Grant (SSBG) serves as a major source of 
funding with 41 States spending $257 million in SSBG funds in 2005 for 
child protection.\6\ SSBG is once again threatened with a potential 
reduction of $500 million in the President's proposed fiscal year 2009 
budget as it was in the previous two budgets. At one point, shortly 
after CAPTA was created and before SSBG became a block grant it was the 
primary source of funding for State CPS systems. At $1.7 billion SSBG 
is well below its historic high levels that came close to $3 billion. 
In fact, SSBG supports more than 30 different types of human services 
and populations, well beyond child protective services.
---------------------------------------------------------------------------
    \6\ Administration for Children and Families (ACF). (2007). SSBG 
2005: Annual report on expenditures and recipients, 2005. Available 
online at http://www.acf.hhs.gov/programs/ocs/ssbg/annrpt/2005/
index.html. Washington, DC: U.S. Department of Health and Human 
Services.
---------------------------------------------------------------------------
    The CAPTA State grants that are intended to support State child 
protective services systems stands at little more than $27 million. 
There has been little change in the last decade, actually little change 
in funding levels since 1974. The table below indicates the allocation 
that States represented by Senators on the full committee receive. In 
comparison you will notice the State grants represent a very small part 
of your respective State's budgets and what they need for CPS. Yet it 
is on this less than modest money that we hang numerous mandates and 
policies.
    If Congress is serious about the practices we hope to promote 
through the reauthorization of this act, then the appropriations 
process must work in conjunction with this reauthorization. Perhaps in 
considering improvements in CAPTA the committee should consider some 
form of funding triggers that might cause this program to receive 
greater support. There are a number of requirements in CAPTA including 
those around mandatory reporting of child abuse, data collection and 
services for vulnerable children. These mandates may become more 
enforceable and in fact realistic if Congress can give this law the 
priority it deserves.


------------------------------------------------------------------------
                                                               State
                          State                           Allotment \7\
------------------------------------------------------------------------
Alaska................................................           111,280
Colorado..............................................           433,800
Connecticut...........................................           323,076
Georgia...............................................           809,391
Iowa..................................................           273,535
Illinois..............................................         1,180,108
Kansas................................................           274,538
Massachusetts.........................................           531,011
Maryland..............................................           508,218
North Carolina........................................           745,961
New Hampshire.........................................           150,196
New Mexico............................................           211,725
New York..............................................         1,552,099
Ohio..................................................           963,019
Oklahoma..............................................           332,482
Rhode Island..........................................           130,161
Tennessee.............................................           507,429
Utah..................................................           293,335
Vermont...............................................            94,351
Washington............................................           538,575
Wyoming...............................................            88,445
------------------------------------------------------------------------


The Foundation of Prevention, Protection and Child Welfare: Workforce
    Whatever the challenge in child welfare whether we are discussing 
preventing abuse from taking place, moving children from foster care 
toward reunification with his or her family, placing a child in a 
kinship or adoptive family, finding more foster families, training of 
parents, or investigating abuse effective services are built on a 
strong workforce.\7\
---------------------------------------------------------------------------
    \7\ Administration for Children and Families (ACF). (2007) CAPTA 
State Allotments. Available on line at http://www.acf.dhhs.gov/
programs/cb/programs_fund/index.htm#state. Washington, DC: U.S. 
Department of Health and Human Services.
---------------------------------------------------------------------------
    The investigation and prevention of child abuse including acting 
and making decisions that should always be about the best interest of 
the child, come down to a strong and competent workforce. A competent 
workforce includes being fully staffed, with adequate and competent 
supervision with training that prepares the new worker and assists the 
current worker with on-going skills.
    Although CWLA recommends caseload/workload measures for each area 
of child welfare practice, workloads are best determined through 
careful time studies carried on within the individual agency. They 
should be based on the responsibilities assigned to complete a specific 
set of tasks, or units of work, for which the worker is responsible. 
For those agencies interested in developing their own specific workload 
figures, time required for the conduct of the following tasks should be 
calculated to include:

    <bullet> Direct contact with children and families;
    <bullet> Travel;
    <bullet> Collateral visits, outreach activities, and court 
schedules;
    <bullet> Emergencies that interrupt regular work schedules;
    <bullet> Supervision, case conferences, consultation, and 
collaboration;
    <bullet> Work with community service providers;
    <bullet> Attendance at staff meetings, staff development, 
professional conferences, and administrative functions; and
    <bullet> Telephone contacts, reading of records, dictation, reports 
of conferences and consultations.

 Services for Abused or Neglected Children and Their Families (Includes
                                  CPS)
------------------------------------------------------------------------

------------------------------------------------------------------------
Initial Assessment/Investigation..........  12 active cases per month,
                                             per 1 social worker.
On-going Cases............................  17 active families per 1
                                             social worker, and no more
                                             than 1 new case assigned
                                             for every 6 open cases.
Combined Assessment/Investigation and On-   10 active on-going cases and
 going Cases.                                4 active investigations per
                                             1 social worker.
Supervision...............................  1 supervisor per 5 social
                                             workers.
------------------------------------------------------------------------

    Whatever actions this subcommittee takes in regard to CAPTA 
reauthorization and increased funding, there are actions both the 
committee and Congress can and must take to address the workforce 
issue.
    Perhaps the best place to focus this discussion is in this 
subcommittee and the full committee because this is not just a human 
service issue but also a workforce issue. We need a national strategy 
that will build on the work of experts in the field of child welfare 
but also other human service fields facing some of the same challenges 
that are brought on by our ever changing society. We must also 
strengthen child welfare work with and between the higher education 
communities. There are few CWLA meetings held with our membership on 
the biggest challenges within child welfare that do not include a 
discussion of what many of our member agencies label ``a workforce 
crisis.'' Regardless of whether we are talking to local agencies, local 
governments or State agencies, we hear their on-going concerns about 
where the next set of workers will come from and how to maintain a 
current well-trained staff.
    What we need most of all is leadership at the national level that 
will make this part of our national agenda and national economic 
strategy for the 21st century.
    Fortunately, Congress is beginning to take some first and 
significant steps. In the remaining months we urge members of both 
parties in both houses to follow through on some key initiatives.
    First, the HELP Committee is working diligently with their House 
counterparts to complete a final reauthorization of the Higher 
Education Act. Within these discussions is the possible inclusion of a 
House proposal to provide for loan forgiveness to social workers who 
work and remain at a child welfare agency. Under the proposal a worker 
would receive a loan forgiveness benefit of $2,000 for each of the 
first 5 years the worker continues in the field. We urge Congress to 
include this in a final Higher Education bill. It is an important tool 
and can become a building block to a workforce strategy in this area.
    Second, in recent days the House, working through the Ways and 
Means Committee, has passed a bipartisan child welfare bill, the 
Fostering Connections to Success Act (H.R. 6307). This bill includes an 
important provision that will allow the current title IV-E foster care 
and adoption assistance training funds to be used for private agencies 
as well as public agencies. Similar to child care, child welfare has 
built much of its services on a combination of non-profit and faith-
based agencies as well as public agencies. This extension of training 
funds, long a part of the CWLA agenda, is also found in legislation 
recently introduced by a member of the committee, Senator Hillary 
Rodham Clinton (D-NY), as part of the Child Welfare Workforce 
Improvement Act (S. 2944). We encourage the Senate leadership and 
members of the committee to get behind this proposal. This source of 
funding would assist in both on-going training of current workers as 
well as offer an incentive for these workers to remain in their 
occupations.
    Third, S. 2944, also calls for a national workforce study by the 
National Academy of Sciences. This study would examine contributing 
factors to staff turnover, make recommendations on appropriate 
workloads and caseloads, examine training needs, and examine the use of 
data. The resulting findings and the directives to the Department of 
Health and Human Services could enhance a national strategy in the area 
of child welfare workforce development. This proposal could be adopted 
through the CAPTA reauthorization and we urge members to assure that 
the needed funding is provided so that it is carried out.
Promise in Prevention and Intervention
    CAPTA reauthorization can serve as a way to encourage innovation 
but we also point out that there are other legislative proposals 
currently before Congress and this committee that could enhance CAPTA.
    One example of a program that could help address prevention of 
child abuse and that is currently under consideration as part of 
another bill is home visitation. Home visitation programs refer to 
different model programs that provide in-home visits to targeted, 
vulnerable, and new families. Home visitation programs--either stand-
alone programs or center-based programs--serve at least 400,000 
children annually between the ages of 0 and 5.\8\
---------------------------------------------------------------------------
    \8\ Chapin Hall Center for Children at the University of Chicago. 
(2006). Challenges to Building and Sustaining Effective Home Visitation 
Programs: Lessons Learned From States. Chicago, IL: Author.
---------------------------------------------------------------------------
    The eligible families in these home visitation programs may receive 
services as early as the prenatal stage. Because a child's early years 
are the most critical for optimal development and provide the 
foundation necessary for success in school and life, home visiting can 
make a lifetime of difference. Nurses and other trained members of the 
community conduct home visits on a weekly, bimonthly, or monthly basis. 
Program goals include an increase in positive parenting practices, 
improvement in the health of the entire family, increase in the 
family's ability to be self-sufficient, and enhanced school readiness 
for the children.
    We recognize the value both in human and economic terms, and the 
great benefits to our Nation and to vulnerable families and children by 
enacting policies that prevent the need for ever placing a child in 
foster care. There is no simple model for prevention of child abuse and 
in fact we believe that a commitment to preventing child abuse will 
involve multiple efforts and strategies. Greater investment and support 
for home visitation is one critical part of such a strategy.
    Currently home visitation programs rely on a range of Federal, 
State and local funds. Unfortunately these funding sources can be 
unreliable, even for programs that are demonstrating effectiveness in a 
range of areas. In recent years, States have utilized funding sources 
including the Social Services Block Grant (SSBG), title IV-B part 1, 
Child Welfare Services, title IV-B part 2, Promoting Safe and Stable 
Families (PSSF), the Child Abuse Prevention and Treatment Act (CAPTA) 
State grants and Community-Based Family Resource and support grants. 
All of these funding sources are used to fund a range of other 
services, and all have been subject to reductions or proposed 
reductions in each of the last five budgets. This highlights the need 
for specific funding for home visiting programs to strengthen and 
stabilize the funding.
    All families benefit from information, guidance, and help in 
connecting with resources as they meet the challenges of parenthood and 
family life. For families with limited resources, or those that face 
additional challenges, the need for support and assistance is even 
greater.
    Families are central to child safety and well-being. Children 
develop the ability to lead productive, satisfying and independent 
lives in the context of their families. Family ties especially those 
between parent and child are extremely important in the development of 
a child's identity. Through interaction with parents and other 
significant family members, children learn and come to subscribe to 
their most cherished personal and cultural values and beliefs. They 
learn right from wrong, and gain competence and confidence. Family 
relationships must be nurtured and maintained to meet the needs of 
children for continuity and stability, which support healthy 
development.
    Home visitation services stabilize at-risk families by 
significantly affecting factors directly linked to future abuse and 
neglect. Research shows that families who receive at least 15 home 
visits have less perceived stress and maternal depression, while also 
expressing higher levels of paternal competence.\9\ Research shows that 
participating children have improved rates of early literacy, language 
development, problem-solving, and social awareness. These children also 
demonstrate higher rates of school attendance and scores on achievement 
and standardized tests. Studies show that families who receive home 
visiting are more likely to have health insurance, seek prenatal and 
wellness care, and have their children immunized. Home visitation 
programs may also reduce the disproportionality or overrepresentation 
of children and families of color in the child welfare system, while 
improving outcomes for these families.
---------------------------------------------------------------------------
    \9\ Daro, D., Howard, E., Tobin, J., & Hardin, A. (2005). Welcome 
Home and Early Start: An Assessment of Program Quality and Outcomes. 
Available online. Chicago, IL: Chapin Hall Center for Children at the 
University of Chicago.&
---------------------------------------------------------------------------
    The HELP Committee has before it S. 667, the Education Begins at 
Home Act, sponsored by Senator Clinton and Senator Christopher Bond (R-
MO). Its companion bill, H.R. 2343, passed the House Education and 
Labor Committee last week. We encourage the HELP Committee to build on 
this action.
    Reauthorizing CAPTA provides an opportunity to explore a number of 
issues involving child abuse and neglect. Some States use the 
differential response method to address reports of abuse and neglect. 
Differential response is a form of practice in child protective 
services that allows for more than one method of response to reports of 
child abuse and/or neglect. Also called ``dual track,'' ``multiple 
track,'' or ``alternative response,'' this approach recognizes the 
variation in the nature of reports and the value of responding 
differentially.
    There is great variation in State and county implementation of 
differential response, which generally involves low- and moderate-risk 
cases that receive a non-investigation assessment response without a 
formal determination or substantiation of child abuse and neglect. 
While States are attempting several approaches in this area the basic 
policy difference is in how complaints of abuse and neglect are dealt 
with and screened into or out of the CPS system. In some instances 
responses to reports of child abuse and neglect may result in greater 
family support and services to address the underlying causes.
    Another innovation to be examined under reauthorization is Family 
Group DecisionMaking (FGDM). FGDM offers a new approach to working with 
families involved with the child welfare system. Families are engaged 
and empowered by child welfare agencies to make decisions and develop 
plans that protect and nurture their children from enduring further 
abuse and neglect. The FGDM approach recognizes that families are the 
experts of their own situation, and therefore, are able to make well-
informed decisions about their circumstances.
    We propose that the committee examine ways to assist States in 
developing policies and procedures which encourage the development of 
differential, multiple responses for referral of families and children 
not at risk of imminent harm to a community organization or voluntary 
prevention services; and policies and procedures encouraging the 
involvement of families in decisionmaking pertaining to cases of abuse 
and neglect of children.
    Again, additional funds must be increased if the committee is 
serious about making improvements in child abuse prevention, even if 
such funding is suggested as a pilot or experimental use.
The Disproportional Representation of Children of Color and Ethnic 
        Groups in the System
    CAPTA reauthorization also offers policymakers an opportunity to 
address the issue of disproportionality and disparate outcomes in the 
child welfare population. A recent study issued by the Government 
Accountability Office (GAO) found that while African-American children 
make up only 15 percent of the national child population, they 
represent 34 percent of the foster care population.\10\ Similar 
statistical profiles exist for Native American and Hispanic children in 
certain States or parts of the country when there is a higher 
concentration of Native Americans and Hispanic populations.
---------------------------------------------------------------------------
    \10\ U.S. Government Accountability Office. (2007). African-
American Children in Foster Care: Additional HHS Assistance Needed to 
Help States Reduce the Proportion in Care. [GAO-07-816.] Washington, 
DC: Author
---------------------------------------------------------------------------
    The Congressional Research Service (CRS) \11\ and GAO have found 
that there are several factors contributing to a disproportionate 
number of African-American children entering and remaining in foster 
care, including bias or cultural misunderstandings between child 
welfare decisionmakers and the families they serve. GAO noted in its 
study that in all of the States they visited a lack of adequate support 
services contributed to disproportionality and disparate outcomes. The 
report notes ``GAO was told that poorer families without access to 
supportive services may have a more difficult time weathering problems 
of substance abuse or emotional issues.''
---------------------------------------------------------------------------
    \11\ Congressional Research Service. (2005). Race Ethnicity and 
Child Welfare. Washington, DC: Author.
---------------------------------------------------------------------------
    CAPTA may provide a way to reduce the over representation of 
certain children in the entire child welfare system through the use of 
family group decisionmaking, deferential response, home visitation, and 
other emerging practices. If policymakers only deal with this fact when 
children are already in foster care or being moved toward adoption, 
then we will have missed the key avenue to address this, when children 
enter care.
The White House Conference on Children and Youth
    CWLA indicated in its opening comments that the best ways to ensure 
that children are safe from all forms of maltreatment are 
comprehensive, community-based approaches to protecting children and 
supporting and strengthening families.
    We believe any action you take on this reauthorization as well as 
any action that may be taken to reform the title IV-E programs will not 
be enough. That is not a reflection on Congress or your efforts but it 
is a reality that whatever happens in Washington can only be complete 
if there is engagement and commitment from communities all across 
America.
    To be sure, CWLA believes the Federal Government could be doing 
much more in the area of child welfare, including greater investment of 
Federal dollars in the system. That includes investment for prevention 
and it also means a commitment to children already in care and families 
struggling to come back together. Commitment to the front end of 
services should not be conditioned on a lack of commitment at the other 
end or parts of the system.
    CWLA also recognizes that dollars and Federal action alone cannot 
reduce the level of child abuse or the number of children in foster 
care. This has to be a partnership at the Federal, State and local 
levels. It is for that reason that late last year CWLA called on 
Congress to act to restore the oldest White House Conference, the White 
House Conference on Children and Youth and to focus it on these most 
vulnerable families and children.
    There are now twin bills in Congress. In the House, H.R. 5461 has 
been introduced by Congressman Chaka Fattah (D-PA) and Congressman Jon 
Porter (R-NV) along with its 50 other cosponsors, and on the Senate 
side, S. 2771 has been introduced by Senator Mary Landrieu (D-LA) and 
Senator Chuck Hagel (R-NE) along with more than a dozen other sponsors 
including the Chair of this subcommittee and several other HELP 
Committee members.
    This Conference was once held every 10 years but has not been held 
since President Nixon called it in 1970. Its results have been 
noteworthy. We listed earlier its call for the creation of a Children's 
Bureau in 1909 and the Bureau's mission in regards to child protection. 
It should also be of interest to this subcommittee that one of the 
results of the 1970 convening was a recommendation to create a 
designated Senate committee on children's issues and we are sure the 
members of this subcommittee recognize their own value over the years 
since.
    The White House Conference would be, like its cousin the Conference 
on Aging, a 2-year event. In 2009, there would be several focused State 
and national meetings. In addition to official meetings, the policy 
committee that the legislation establishes would provide an opportunity 
for communities and States to organize their own focused events 
resulting in perhaps hundreds of meetings across the country. Meetings 
and events that would allow systems of health and mental health, 
providers of housing, substance abuse treatment experts, social service 
providers, schools, churches as well as other parts of the child 
welfare community to open a dialogue on how their cities and 
neighborhoods can come together to address these needs of these 
families in crisis. If we can get it right for our most vulnerable 
children and families we can get it right for all. Only after all of 
these voluntary efforts and official gatherings would there then be a 
national gathering or convention at the White House.
    We urge the subcommittee and the full committee to act on this 
legislation this year. It is bipartisan and bicameral and offers 
Congress an opportunity to reach beyond the politics of this year. But 
there is a much more significant reason for this White House 
Conference. It represents a vision of how communities can come together 
all across the country to engage in a discussion of not just needed 
Federal support but local community action; how systems can coordinate 
and communicate to prevent abuse and neglect wherever possible; and 
when not possible how to act in the best interest of the child so that 
he or she has a permanent and loving family.
    The Child Welfare League of America thanks the subcommittee for 
these hearings and its attention and we look forward to working with 
you on these key issues.
  Prepared Statement of Sue Else, President, National Network to End 
                       Domestic Violence (NNEDV)
    Chairman Dodd, Ranking Member Alexander and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
for this hearing on the reauthorization of the Child Abuse Prevention 
and Treatment Act (CAPTA). We are grateful to the subcommittee for your 
leadership and your ongoing work to improve the safety and well-being 
of children and families across the Nation. The National Network to End 
Domestic Violence (NNEDV) is a membership and advocacy organization 
representing the 55 State and U.S. territory domestic violence 
coalitions. NNEDV is the voice of these coalitions, there are more than 
2,000 local domestic violence member programs, and the millions of 
domestic violence survivors who turn to them for services. In their 
work with victims and their families, our members see the impact that 
abuse and violence have on the lives of children who are vulnerable 
both as witnesses to violence and as victims themselves. In order to 
address this violence and keep children and families safe, we support 
the reauthorization of CAPTA as well as the Family Violence Prevention 
and Services Act (FVPSA), legislation that has historically been 
included in CAPTA. We hope to work with the subcommittee to ensure that 
these critical Federal programs are reauthorized and strengthened to 
address the needs of children and families.
    family violence and children: the need to address both in capta
    Domestic violence is a pervasive public health issue that affects 
one in four women in their lifetime.\1\ It is estimated that a 
staggering 15.5 million children are exposed to domestic violence every 
year \2\ and slightly more than half of female victims of intimate 
partner violence live in households with children under the age of 
12.\3\ One-half to two-thirds of the residents of domestic violence 
shelters are children. In 2007, the National Census of Domestic 
Violence Services found that in one 24-hour period, 13,485 children 
were living in a domestic violence shelter or transitional housing 
facility, while another 5,526 received services at non-residential 
programs.\4\
    Too often children who witness abuse are victimized as well. 
Research has found that over 50 percent of batterers physically abuse 
their children versus only 7 percent of non-batterers.\5\ A batterer is 
four to six times more likely than a non-batterer to sexually abuse his 
children.\6\ According to research from the Bureau of Justice 
Statistics, 96 percent of sexual assault survivors under the age of 12 
and 85 percent of those ages 12 to 17 were raped by family members, 
friends or acquaintances.\7\
    Exposure to domestic violence causes other emotional and physical 
problems among children. They are more likely than children who are not 
exposed to domestic violence to attempt suicide, abuse drugs and 
alcohol, run away from home, engage in teenage prostitution,\8\ and 
exhibit behavioral and physical health problems including depression, 
anxiety, and violence towards peers.\9\ The cycle of violence is 
perpetuated as children witness violence and become perpetrators 
themselves. Children who witness spousal assault and who have also been 
the victims of parental assault are six times more likely to assault 
other children outside their family.\10\ One study found that men 
exposed to physical abuse, sexual abuse and adult domestic violence as 
children were almost four times more likely than other men to have 
perpetrated domestic violence as adults.\11\ Nearly half a million 14- 
to 24-year-olds leave the juvenile justice system, Federal or State 
prisons or local jails annually, and a high percentage of them have 
experienced or witnessed violence at home.\12\
    The high rate of co-occurrence of domestic violence and child abuse 
demands that we have an integrated approach to addressing the needs of 
both children and non-abusing parents. Therefore CAPTA must take steps 
to address the needs of victims of domestic violence and FVPSA must be 
improved to better meet the needs of children and families, especially 
in underserved communities.
                 addressing domestic violence in capta
    It is critical that the child welfare system ensure the safety of 
both children and their parents who are victims of domestic violence. 
Too often parents who are victims of domestic violence are re-
victimized by the child welfare system when it does not recognize the 
dynamics of domestic violence and labels the non-abusive partner as a 
child abuser. This in turn can cause further trauma for children and 
families who may be separated rather than being able to focus on 
supporting each other. When making provisions for services to children 
exposed to domestic violence, child welfare programs need to also 
support the care-giving role of victims of domestic violence. This is 
essential to both the safety and well-being of the child as well as the 
non-abusive parent. More data is needed to understand the co-occurrence 
of this violence and to provide context and a deeper understanding of 
the relationship between victims' experiences of violence and mental 
health and substance abuse. In addition, training and education about 
domestic violence must be provided at all levels of child welfare 
agencies in order for these agencies to effectively address the needs 
of the family where there is co-occurrence. CAPTA should also 
standardize consultation with domestic violence experts within the 
child welfare system and other programs dealing with child abuse, as 
well as provide funding for consultations. Finally, it is important 
that changes be made so that victims of domestic violence are not 
entered into child abuse databases simply because they are victims. 
Entering domestic violence victims into these databases is an 
inaccurate practice that may jeopardize a victim's safety and can 
seriously impede their ability to secure future employment.
    There are promising examples of work on these intersections in the 
field. In Connecticut, the Safe Families, Safe Homes curriculum has 
been used to provide cross-training for Head Start Family Services 
Staff on issues of domestic violence, child welfare and mental health 
and substance abuse, enabling them to have a better understanding of 
how these issues affect families coming into contact with the system. 
In addition, the Connecticut Department of Children and Families has 
supported the Devereaux Early Childhood Assessment (DECA) training 
program that focuses on preventing abuse and violence by increasing 
protective factors for children and supporting parents and children who 
may be experiencing abuse.
    NNEDV is a member of the National Child Abuse Coalition and we 
support legislative proposals that have been developed with our 
coalition partners in order to address these issues. We would like to 
work with the subcommittee to ensure that these provisions are included 
in the reauthorization.
               fvpsa: keeping families and children safe
    In order to ensure the safety of children and families, we also 
encourage the subcommittee to include as part of CAPTA legislation a 
reauthorization of FVPSA with improvements to better serve victims' and 
children's needs. Thanks to the leadership of Chairman Dodd and other 
members of the subcommittee, FVPSA was enacted by Congress in 1984 in 
order to address public awareness and prevention of family violence, 
provide services for victims and their dependents, and provide training 
and resources to local agencies and nonprofit organizations working to 
address domestic violence. Thanks to the ongoing leadership of this 
subcommittee, reauthorization of FVPSA has been included in four 
reauthorizations of CAPTA: the Child Abuse Prevention, Adoptions, and 
Family Services Act of 1988; Child Abuse, Domestic Violence, Adoption, 
and Family Services Act of 1992; Child Abuse Prevention and Treatment 
Act Amendments of 1996; and, the Keeping Children and Families Safe Act 
of 2003. FVPSA is administered by the Department of Health and Human 
Services (HHS) Administration on Children and Families, and for over 
two decades it has been the lifeblood of core domestic violence 
programs, including shelters and outreach programs, in communities 
nationwide. FVPSA includes three central programs: Formula Grants for 
Shelter and Services; Community Initiatives to Prevent Abuse, which is 
frequently referred to as Domestic Violence Prevention Enhancement and 
Leadership Through Alliances (DELTA) Grants; and, the National Domestic 
Violence Hotline. Working together, these FVPSA programs have made 
significant progress toward ending domestic violence and keeping 
families and communities safe. However, there are steps that should be 
made to build on the success of FVPSA and improve services for victims 
and their children.
            the need for fvpsa-funded services for families
    Despite the progress and success brought by FVPSA, a strong need 
remains for FVPSA-funded services for victims. Research has shown that 
one in every four women will experience domestic violence during her 
lifetime.\13\ To respond to this pervasive public health issue, there 
are over 2,000 community-based domestic violence programs for victims 
and their children. These programs offer services such as emergency 
shelter, counseling, legal assistance, and preventative education to 
millions of women, men and children annually.\14\ The National Census 
of Domestic Violence Services found that in one 24-hour time period 
domestic violence programs across the Nation served over 53,200 women, 
men and children. Unfortunately, due to a lack of resources, 7,707 
requests for services were unmet during that same day.\15\ It is 
critical that more victims be able to access these services because 
they are effective at reducing violence and saving lives. Research 
shows that shelter programs are among the most effective resources for 
victims with abusive partners \16\ and that staying at a shelter or 
working with a domestic violence advocate significantly reduced the 
likelihood that a victim would be abused again and improved the 
victim's quality of life.\17\ These programs keep children and their 
non-abusive parents safe and allow families to rebuild their lives 
after crisis.
                    key programs authorized in fvpsa
FVPSA State Formula Grants
    Administered through the HHS, the FVPSA Formula Grants provide 
funding to States, Territories and Tribes to support domestic violence 
services in their communities using a population-based formula. FVPSA 
Formula Grants enable communities to respond with lifesaving emergency 
assistance when victims of domestic violence and their families reach 
out for help. Over the past 30 years, shelters and local programs have 
evolved to provide a wide spectrum of residential and nonresidential 
services, which can include shelter or transitional housing, safety 
planning, counseling, legal services, child care and services for 
children, career planning, life skills training, community education 
and public awareness, and other necessities such as clothing, food, and 
transportation.
    In addition, the FVPSA Formula Grants support essential resource 
centers, institutes, and State, territorial and tribal coalitions that 
help local programs and grantees better meet community needs. Despite 
receiving only a small share of FVPSA funds, these programs ensure a 
coordinated response to domestic violence, address emerging issues, 
provide technical assistance to FVPSA grantees, train community 
members, and meet the needs of underserved communities.
DELTA Grants
    In addition to supporting emergency services through local programs 
and shelters, FVPSA includes the Community Initiatives to Prevent 
Abuse, which is also known as Domestic Violence Prevention Enhancement 
and Leadership Through Alliances (DELTA) Grants program to expand 
community-based primary prevention that address the underlying causes 
of domestic violence in order to stop abuse before it starts. DELTA is 
administered by the Centers for Disease Control and Prevention, 
National Center for Injury Prevention and Control, and it is one of the 
few funding sources for primary prevention work. DELTA programs are 
guided by the principles of preventing violence through evidence-based 
programs that are evaluated to inform future program planning. They use 
innovative strategies including peer education programs for men about 
family and relationships, community change initiatives focused on 
engaging men in prevention efforts, school-based education to prevent 
youth bullying that often carries into adulthood, and youth-led 
initiatives to prevent dating violence and promote healthy 
relationships.
National Domestic Violence Hotline
    FVPSA also includes the National Domestic Violence Hotline, a 24-
hour, confidential, toll-free hotline, located in Texas. Using a 
multifaceted telecommunications system, Hotline advocates immediately 
connect the caller to a service provider in his or her area. Highly 
trained Hotline advocates provide support, information, referrals, 
safety planning, and crisis intervention to hundreds of thousands of 
domestic violence victims and perpetrators. Through a national 
database, advocates can link callers to more than 5,000 local shelters 
and other service providers across the country that offer a wide range 
of services to support and respond to victims' needs. Since opening in 
1996, the National Domestic Violence Hotline has received over 1.8 
million calls from individuals in need of support and assistance and it 
now provides services in more than 170 languages. The Hotline averages 
19,700 calls a month, and in 2007 the Hotline experienced a 10 percent 
increase in the number of calls received. More than 60 percent of 
callers report that this is their first call for help. Unfortunately, 
in 2007 over 29,000 of those calls (14 percent of the total) went 
unanswered due to a lack of resources.
    In 2007, the Hotline launched the loveisrespect National Teen 
Dating Abuse Helpline with support from Liz Claiborne Inc. One in five 
high school females reports being physically and/or sexually abused by 
a dating partner.\18\ This toll-free telephone resource was created to 
help teens (ages 13-18) who are experiencing dating abuse and is the 
only teen dating abuse helpline in the country serving the 50 States, 
Puerto Rico, and the Virgin Islands.
   addressing children's and families' needs in fvpsa reauthorization
    FVPSA is scheduled to expire at the end of this year and immediate 
congressional action is needed to reauthorize this critical legislation 
and continue the progress we have made toward ending domestic violence 
and protecting the lives of thousands of victims and their children who 
come forward each day for help. Reauthorizing FVPSA presents an 
exciting opportunity to stop violence before it starts and meet the 
needs of underserved communities while continuing proven, successful 
strategies. Our priorities for reauthorization include:

    1. Maintain successful response to victims of domestic violence. 
FVPSA has been intervening in and preventing domestic violence since it 
was first authorized in 1984. It funds essential services that are at 
the core of our Nation's work to end domestic violence: emergency 
shelters, hotlines, counseling and advocacy, primary and secondary 
prevention--immediate crisis response and the comprehensive support to 
help victims put their lives back together. The reauthorization of 
FVPSA must continue to support this successful approach to meeting the 
needs of victims and their families.
    2. Better addressing the needs of underserved victims. Underserved 
victims, such as those with mental illnesses or disabilities, have 
special needs that are not always met by traditional service providers 
struggling to maintain enough funding to keep their doors open. 
Throughout the statute, language should be more inclusive of children 
and youth as well as victims from underserved populations. Victims from 
marginalized racial, ethnic, and religious populations may not feel 
safe reaching out for help beyond their communities because of pressure 
from family, shame from their religious institutions and fear of 
consequences from violating community values and norms. Furthermore, 
service providers from marginalized communities often struggle to 
access Federal funds. FVPSA reauthorization should dedicate a percent 
of funding from the formula grants for culturally specific programs to 
meet their needs.
    3. Increasing access to funds for community-based programs. 
Community-based (including faith-based) programs should have more 
access to FVPSA funds in order to improve the diversity of available 
services and create more options for victims to find safety. Outside of 
the formula grants, a new pilot project designed to build community 
capacity to provide both services and prevention should be created. In 
addition, a new grant program called REACH should be created to support 
evidence-based pilot projects to deliver critical services to victims 
in underserved communities. REACH is modeled on other programs at the 
Department of Health and Human Services and will bring services to 
victims who might otherwise never seek help.
    4. Enhancing children's services. FVPSA currently includes a set-
aside for children's services if appropriations reach $130 million, but 
it is largely undefined. Battered women's shelters and domestic 
violence programs provide safety and support for children, but struggle 
to meet the demand for children's services. They see the needs of 
children who are recovering from the trauma of witnessing or 
experiencing abuse and they are eager to implement new and expanded 
children's programming. FVPSA reauthorization should enhance children's 
services and distribute funding efficiently to States and communities 
to better meet these needs.
    5. Improving the State planning process. FVPSA uses a State 
planning process that is intended to bring together service providers, 
experts, and other stakeholders to develop a plan for delivering 
services throughout the State. Not all States and FVPSA State 
administrators take advantage of this process to fully evaluate the 
needs and create an effective plan. The State planning process used to 
distribute FVPSA Formula Grants to local programs and the 
administration of those grants should be improved to be more responsive 
and accountable to grantees, advocates, and legislators alike.
    6. Strengthening the provision of technical assistance to help meet 
community needs. FVPSA currently funds several national resource 
centers, culturally specific institutes, State coalitions, and Tribes 
to ensure a coordinated response to domestic violence and respond 
quickly to emerging issues. As FVPSA makes continued progress 
addressing domestic violence, grantees and communities face new 
challenges and need access to training and technical assistance on the 
most up-to-date resources, models and research. To continue this and 
improve the provision of technical assistance, the language authorizing 
the institutes and resource centers should be restructured and combined 
with dedicated funds.
    7. Defining and expanding the focus on prevention in the DELTA 
grants program. DELTA grants have made bold strides to prevent domestic 
violence from ever happening by changing community and personal 
attitudes about relationships and abuse. Community collaborations 
funded by DELTA have produced innovative models that can be adapted and 
replicated to strengthen domestic violence prevention efforts. In order 
to leverage the successes and lessons learned thus far, the DELTA 
grants should be statutorily defined and expanded to include a 
secondary-prevention component.
    8. Maintaining the Hotline and leveraging its strengths to address 
teen dating violence. When a victim of domestic violence has the 
courage to pick up the phone and seek help, it is imperative that 
someone is on the other end of the line and is able to connect her with 
resources and safety for herself and her family. The National Domestic 
Violence Hotline should be maintained in order to respond to the 
growing number of victims who are coming forward for help. In addition, 
the Hotline should have the opportunity to build on its strengths and 
expand its focus to include teen dating violence through the 
loveisrespect National Teen Dating Abuse Helpline.
    9. Re-organize and update the statute. The FVPSA code has been 
significantly amended 6 times over the last 24 years and is now 
difficult to interpret and language in some part of the bill is 
antiquated. This reauthorization provides an opportunity to reorganize 
the statute in a more logical fashion and update the language to 
reflect current and emerging best practices. Doing so will ensure that 
the legislation is more consistent and easier for HHS to implement and 
Congress to oversee.
    10. Increase the authorization levels of FVPSA programs. In order 
to build on the success of FVPSA and continue to meet the needs of 
victims and their families, programs need increased authorizations. 
FVPSA Formula Grants to States should be authorized at $225 million. 
Within this authorization there should be set-asides for grants to 
Tribes, State and Territorial Domestic Violence Coalitions, and 
Technical Assistance and Training Centers, as well as defined set-
asides for children's services and grants to underserved communities 
that begin when funding reaches the level of $130 million. In order to 
provide services to the increasing number of victims reaching out for 
help, the National Domestic Violence Hotline should be authorized at $7 
million annually. The DELTA grants must be authorized at $20 million, 
with specific funding set-aside for community grants when 
appropriations reach $8 million. In addition, $15 million should be 
authorized to support the REACH grant program to create pilot projects 
reaching victims in underserved communities.
                               conclusion
    As a coalition of domestic violence advocates and service 
providers, we recognize the critical need to address domestic violence 
and child abuse in order to keep children and families safe. The cost 
of intimate partner violence exceeds $5.8 billion each year, of which 
$4.1 billion is for direct medical and mental health care services.\19\ 
Without effective intervention, this violence will repeat itself and 
continue to impact successive generations. The reauthorization of CAPTA 
provides an important opportunity to respond to the intersections of 
domestic violence and the child welfare system as well as continue the 
progress FVPSA has made toward meeting the needs of domestic violence 
victims and their children. Together CAPTA and FVPSA can break the 
cycle of violence affecting our children, families and communities. We 
look forward to working with the subcommittee to reauthorize this 
critical legislation and continue progress toward ending domestic 
violence.
                                Endnotes
    1. Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers of Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey,'' 2000. The Centers for Disease 
Control (CDC) (2008). Adverse Health Conditions and Health Risk 
Behaviors Associated with Intimate Partner Violence, United States, 
2005.
    2. McDonald, R., et al. (2006). ``Estimating the Number of American 
Children Living in Partner-Violence Families.'' Journal of Family 
Psychology, 30 (1), 137-142.
    3. Greenfeld, Lawrence, et al. ``Violence by Intimates: Analysis of 
Data on Crimes by Current or Former Spouses, Boyfriends and 
Girlfriends,'' Bureau of Justice Statistics Factbook, Washington, DC: 
U.S. Department of Justice, Bureau of Justice Statistics, March 1998.
    4. Domestic Violence Count 07: A 24-Hour Census of Domestic 
Violence Shelters and Services Across the United States. The National 
Network to End Domestic Violence. (Jan. 2008).
    5. Straus, M. ``Ordinary Violence, Child Abuse, and Wife-Beating: 
What Do They Have in Common? '' In D. Finkelhor, R.J. Gelles, G.T. 
Hotaling, and M.A. Straus (Eds.) The Dark Side of Families: Current 
Family Violence Research Beverly Hills: Sage, 1983.
    6. Bancroft, Lundy R., ``The Connection Between Batterers and Child 
Sexual Abuse Perpetrators,'' Unpublished article, precursor to Chapter 
Four of ``The Batterer as Parent,'' Sage Publications, 1997.
    Herman, Judith, M.D. Father-Daughter Incest Harvard University 
Press, 1981; McCloskey, L.A., Figueredo, A.J., and Koss, M. ``The 
Effect of Systemic Family Violence on Children's Mental Health'' Child 
Development No. 66, pgs. 1239-1261; Paveza, G. ``Risk Factors in 
Father-Daughter Child Sexual Abuse'' Journal of Interpersonal Violence 
3 (3), Sept. 1988, pgs. 290-306; Sirles, E. and Franke, P. ``Factors 
Influencing Mothers' Reactions to Intrafamily Sexual Abuse'' Child 
Abuse and Neglect Vol. 13, pgs. 131-139.
    7. Bureau of Justice Statistics, Child Rape Victims, (1994).
    8. Wolfe, D.A., Wekerle, C., Reitzel, D. and Gough, R., 
``Strategies to Address Violence in the Lives of High Risk Youth.'' In 
Peled, E., Jaffe, P.G. and Edleson, J.L. (eds.), Ending the Cycle of 
Violence: Community Responses to Children of Battered Women. New York: 
Sage Publications. 1995.
    9. Jaffe, P. and Sudermann, M., ``Child Witness of Women Abuse: 
Research and Community Responses,'' in Stith, S. and Straus, M., 
Understanding Partner Violence: Prevalence, Causes, Consequences, and 
Solutions. Families in Focus Services, Vol. II. Minneapolis, MN: 
National Council on Family Relations, 1995.
    10. Widom, C (1989) ``Does Violence Beget Violence? '' 
Psychological Bulletin. 106: 3-28.
    11. Greendfeld, L.A. (1997). Sex Offences and Offenders: An 
Analysis of Date on Rape and Sexual Assault. Washington, DC Bureau of 
Justice Statistics, U.S. Department of Justice.
    12. Rosewater, A., ``Promoting Prevention, TargetingTeens: An 
Emerging Agenda to Prevent Domestic Violence,'' Family Violence 
Prevention Fund (2003), 21.
    13. Tjaden, Patricia & Thoennes, Nancy. National Institute of 
Justice and the Centers for Disease Control and Prevention, ``Extent, 
Nature and Consequences of Intimate Partner Violence: Findings from the 
National Violence Against Women Survey.'' 2000.
    14. National Coalition Against Domestic Violence, Detailed Shelter 
Surveys (2001).
    15. Domestic Violence Counts 07: A 24-Hour Census of Domestic 
Violence Shelters and Services Across the United States. The National 
Network to End Domestic Violence. (Jan. 2008).
    16. See: Bennett, L., Riger, S., Schewe, P., Howard, A., & Wasco, 
S. (2004). Effectiveness of hotline, advocacy, counseling and shelter 
services for victims of domestic violence: A statewide evaluation. 
Journal of Interpersonal Violence, 19(7), 815-829; Bowker, L.H., & 
Maurer, L. (1985). The importance of sheltering in the lives of 
battered women. Response to the Victimization of Women and Children, 8, 
2-8; Gordon, J.S. (1996). ``Community Services for Abused Women: A 
Review of Perceived Usefulness and Efficacy.'' Journal of Family 
Violence 11(4): 315-329; Sedlak, A.J. (1988). Prevention of wife abuse. 
In V.B. Van Hasselt, R.L. Morrison, A.S. Bellack, & M. Hersen (Eds.), 
Handbook of Family Violence (pp. 319-358). NY: Plenum Press; Straus, 
M.A., Gelles, R.J., & Steinmetz, S.K. (1980). Behind Closed Doors: 
Violence in the American Family. NY: Anchor Press; Tutty, L.M., Weaver, 
G., & Rothery, M. (1999). Residents' Views of the Efficacy of Shelter 
Services for Assaulted Women. Violence Against Women, 5(8), 898-925.
    17. See: Berk, R.A., Newton, P.J., & Berk, S.F. (1986). What a 
Difference a Day Makes: An Empirical Study of the Impact of Shelters 
for Battered Women. Journal of Marriage and the Family, 48, 481-490; 
Bybee, D.I., & Sullivan, C.M. (2002). The Process Through Which a 
Strengths-Based Intervention Resulted in Positive Change for Battered 
Women Over Time. American Journal of Community Psychology, 30(1), 103-
132; Constantino, R., Kim, Y., & Crane, P.A. (2005). Effects of a 
Social Support Intervention on Health Outcomes in Residents of a 
Domestic Violence Shelter: A Pilot Study. Issues in Mental Health 
Nursing, 26, 575-590; Goodkind, J., Sullivan, C.M., & Bybee, D.I. 
(2004). A Contextual Analysis of Battered Women's Safety Planning. 
Violence Against Women, 10(5), 514-533; Sullivan, C.M. (2000). A model 
for effectively advocating for women with abusive partners. In J.P. 
Vincent & E.N. Jouriles (Eds.), Domestic Violence: Guidelines for 
Research-Informed Practice (pp. 126-143). London: Jessica Kingsley 
Publishers; Sullivan, C.M., & Bybee, D.I. (1999). Reducing Violence 
Using Community-Based Advocacy for Women With Abusive Partners. Journal 
of Consulting and Clinical Psychology, 67(1), 43-53.
    18. Jay G. Silverman, Ph.D.; Anita Raj, Ph.D.; Lorelei A. Mucci, 
MPH; and Jeanne E. Hathaway, M.D., MPH, ``Dating Violence Against 
Adolescent Girls and Associated Substance Use, Unhealthy Weight 
Control, Sexual Risk Behavior, Pregnancy, and Suicidality,'' Journal of 
the American Medical Association, Vol. 286, (No. 5, 2001).
    19. Costs of Intimate Partner Violence Against Women in the United 
States. (2003). Centers for Disease Control and Prevention, National 
Centers for Injury Prevention and Control, Atlanta, GA.
       Prepared Statement of the Family Violence Prevention Fund
    As an organization represented by the National Child Abuse 
Coalition, we support the recommendations included in the testimony of 
the Coalition. However, we would like to take this opportunity to 
highlight and expand upon the recommendation regarding increased 
recognition of the role domestic violence plays in child abuse and 
neglect and the importance of addressing domestic violence to improve 
the safety and well-being of children and their non-abusing parents.
                 children exposed to domestic violence
    In the United States, we know that about 15.5 million children are 
exposed to domestic violence every year \1\ and that that exposure can 
have severe and long lasting consequences. Children exposed to domestic 
violence are far more likely to exhibit behavior and physical health 
problems including depression, anxiety and violence toward peers.\2\ In 
addition they are more likely to attempt suicide, abuse drugs and 
alcohol, run away from home, engage in teenage prostitution and commit 
sexual assault crimes.\3\ At the same time, children's responses to 
exposure to domestic violence vary depending on age and circumstances; 
many children are resilient.\4\ Importantly, we also know that when 
provided appropriate services, particularly when in partnership with 
their non-abusing parent or caretaker, children exposed to domestic 
violence can go on to live lives full of purpose and free from violence 
and many of the adverse outcomes associated with that violence.
---------------------------------------------------------------------------
    \1\ McDonald, R., et al. (2006) Estimating the Number of American 
Children Living in Partner-Violent Families. Journal of Family 
Psychology, 30(1), 137-142.
    \2\ Jaffe, P. and Sudermann, M., ``Child Witness of Women Abuse: 
Research and Community Responses,'' in Stith, S. and Strauss, M., 
Understanding Partner Violence: Prevalence, Causes, Consequences and 
solutions. Families in Focus Services, Vol. II. Minneapolis, MN: 
National Council on Family Relations, 1995.
    \3\ Wolfe, D.A., Wekerle, C., Reitzel, D. and Gough, R., 
``Strategies to Address Violence in the Lives of High Risk Youth.'' In 
Peled, E., Jaffe, P.G. and Edleson, J.L. (eds.), Ending the Cycle of 
Violence: Community Responses to Children of Battered Women. New York: 
Sage Publications, 1995.
    \4\ Edleson, , J.L. (1999). The Overlap Between Child Maltreatment 
and Woman Battering. Violence Against Women, 5(2), pp. 134 to 154.
---------------------------------------------------------------------------
    Domestic violence affects between 30 and 60 percent of families 
involved in the child welfare system.\5\ However those who work in the 
child welfare system rarely have systemic training on domestic violence 
or even have a full understanding of how widespread it is among their 
client families. In addition, when child protection systems do attempt 
to address domestic violence, they often seek to impose blanket 
policies that apply to all victims of domestic violence and frequently 
blame the non-abusing parent or caretaker for the violence perpetrated 
on her by another. These policies have now been shown to be illegal in 
some States \6\ and impractical and unhelpful in others,\7\ however 
good practice and policy is only now beginning to emerge. Given these 
realities it is critical that the reauthorization of the Child Abuse 
Prevention and Treatment Act significantly increase the knowledge of, 
training around and resources to support innovative child abuse 
prevention strategies that address the overlapping issues of domestic 
violence and child maltreatment.
---------------------------------------------------------------------------
    \5\ Appel, A.E. and Holden, G.W. (1998). The Co-Occurrence of 
Spouse and Physical Child Abuse: A Review and Appraisal. Journal of 
Family Psychology, 12(4), pp. 578 to 599. Edleson, J.L. (1999). The 
Overlap Between Child Maltreatment and Woman Battering. Violence 
Against Women, 5(2), pp. 134 to 154.
    \6\ See especially Nicholson v. Scoppetta 181 F Supp2d (EDNY 2002); 
Nicholson  v. Scoppetta 3 NY3d 357, 366 (2004).
    \7\ Edleson, J., et al. Defining Child Exposure to Domestic 
Violence as Neglect: Minnesota's Difficult Experience. Social Work, 
Volume 51, Number 2, April 2006.
---------------------------------------------------------------------------
    Specifically, we suggest CAPTA be amended to include a focus on:

    <bullet> Increasing the availability of good data on the overlap of 
domestic violence and child maltreatment and successful policies, 
procedures and services that improve safety and well-being for children 
and their non-abusing parents and caretakers;
    <bullet> Providing expertise to child protection systems and 
workers on domestic violence and how to work successfully and safely 
with families where there is domestic violence, including safety and 
risk assessment, case consultation, co-location of domestic violence 
staff and safe approaches to family group conferencing;
    <bullet> Funding for cross-training and collaboration so domestic 
violence and child welfare systems can work better together to improve 
safety and well-being for children and their mothers;
    <bullet> Ensuring that CAPTA funding is available to support 
services for mothers and their children together, when that is most 
appropriate; and
    <bullet> Increasing the awareness of and skills pertinent to 
addressing the roles of fathers in the lives of children involved in 
the child welfare system.
                          good data collection
    The National Child Abuse and Neglect Data System (NCANDS) is the 
basic vehicle that provides information about children and families who 
come to the attention of local child welfare agencies. It is 
increasingly apparent that, among other issues, domestic violence is a 
characteristic of a large percentage of these families. While not 
everything about a family's circumstances is known at the time of the 
report, in many instances the presence of domestic violence in a family 
may come to light during the report and investigation phases or at 
decision points related to service provision or placement. Yet to date, 
NCANDS provides very little if any information about domestic violence 
and the context and impact of domestic violence in its annual reports. 
Specifically, we recommend the collection and dissemination of data on:
The Relationship Between Domestic Violence and Categories of 
        Maltreatment
    <bullet> First, NCANDS breaks maltreatment into various categories. 
Ideally we would want to identify in what percentage of reports, 
substantiations and victimization, for each different category of 
maltreatment, domestic violence is a factor. Community experience 
suggests that often, exposure to domestic violence may automatically be 
considered ``failure to protect'' by the mother and categorized as 
``neglect.'' It would help if NCANDS could differentiate whether 
neglect (or other maltreatment categories, including ``other'' ) are 
being used as a ``proxy'' for a ``failure to protect'' or similar 
allegation (not all States use the same terms).
    <bullet> Another reason it is important to distinguish which types 
of maltreatment cases come to child welfare as a result of, or 
accompanied by, domestic violence is that most reports or petitions are 
filed in the mother's name, automatically ascribing the maltreatment to 
her and making her the sole subject for compliance with case plans. 
However in many instances she may not be an offender against a child 
but may, indeed, be a victim of violence perpetrated by her partner, 
and what she most requires is support, protection and the ability to 
keep her child(ren) with her safely. Without clearer information that 
helps identify these distinctions, it is difficult to develop or target 
responses and services appropriately either to the non-offending 
caretaker or her children.
    <bullet> Over time, NCANDS has improved its ability to display 
factors that contribute to substantiation rates. In addition to 
analyzing domestic violence from the various categories of maltreatment 
reports, NCANDS should tease out whether and how domestic violence 
factors into case substantiation or non-substantiation.
    <bullet> Finally, as an increasing number of States and counties 
institute some type of multiple or differential response system, it 
will be important to know if families with co-occurring domestic 
violence are provided that alternative and also whether they have 
repeat reports of maltreatment after the diversion to alternative 
services.

    With NCANDS we would also seek to find out:

    <bullet> the relationship between domestic violence and child 
fatalities,
    <bullet> who the perpetrator is in cases of domestic violence,
    <bullet> the nature and extent of the services that are provided to 
these families,
    <bullet> for families with co-occurring domestic violence who are 
provided alternative response, the nature of the agenc(ies) to which 
they were referred and whether or not the services were utilized, and
    <bullet> what percentage of cases where domestic violence is a 
factor in removal and whether there are other characteristics 
associated with the domestic violence that leads to the decision to 
place a child outside of his/her home.
 the emergence of best practices to address co-occurrence of domestic 
                  violence and child abuse and neglect
    For about 8 years the U.S. Departments of Health and Human Services 
and Justice have pooled very limited resources to try and implement 
best practices around the intersections of children welfare, domestic 
violence and family courts. Through a demonstration initiative 
nicknamed the ``the Greenbook'' (after the cover of the seminal 
publication outlining recommendations for doing this collaborative 
work), six test sites were funded and an evaluation conducted. From 
this effort, new insights were developed about how best to improve 
outcomes for children in families experiencing domestic violence.\8\ 
While many specific recommendations have been further developed and 
refined based on the experiences of these sites, we would like to focus 
here on two critical practice elements specific to CAPTA: (1) training 
and education on domestic violence is critical to help already 
overburdened CPS systems and case workers make good decisions and (2) 
that the needs of abused mothers and their children cannot be 
separated, despite funding streams and services systems that inherently 
separate their interests.
---------------------------------------------------------------------------
    \8\ Known as the Greenbook Initiative, these recommendations were 
initially developed and published by the National Council of Juvenile 
and Family Court Judges (NCJFCJ) in 1999, in Effective Interventions in 
Domestic Violence and Child Maltreatment Cases: Guidelines for Policy 
and Practice. For the most up-to-date research and analysis from the 
demonstration sites, go to www.thegreenbook.info.
---------------------------------------------------------------------------
The Need for Domestic Violence Expertise
    After several years of attempting to find one model that worked for 
creating the information sharing, training and technical assistance 
needed to better serve these families, we have concluded that there is 
no one single right model for every system. But we have also learned 
that it is absolutely ESSENTIAL that child protection systems have 
access to expertise on helping families who are experiencing domestic 
violence. Two common forms this has taken are the co-location of 
staff--for instance, the placement of a domestic violence advocate in a 
child protection agency (often referred to as a ``domestic violence 
specialist'' ) \9\--and case consultations where supervisors or 
technical experts are brought in to consult on particularly challenging 
cases with domestic violence or where they may provide ongoing training 
and technical assistance to staff that turn over on a regular basis.
---------------------------------------------------------------------------
    \9\ Rosewater, Ann for the National Council of Juvenile and Family 
Court Judges and the Family Violence Prevention Fund (2008), Building 
Capacity in Child Welfare Systems: Domestic Violence Specialists. See 
also, Taggart, Shellie and Litton, Lauren for the National Council of 
Juvenile and Family Court Judges and the Family Violence Prevention 
Fund, Reflections from the Field: Considerations for Domestic Violence 
Specialists (in press).
---------------------------------------------------------------------------
    The need for this additional expertise stems from the fact that 
families experiencing domestic violence face particularly complex 
challenges. While violence may be linked to other risk factors, such as 
substance abuse or mental health issues, it often may present its own 
threats. For instance, a caseworker may know a mother is being abused 
and insist that she not let the child be alone with her abusive 
partner. The courts, however, may have granted him unsupervised 
visitation and she would be in violation of her custody agreement if 
she refused to deliver the child to him unsupervised. By having a 
domestic violence expert on hand, the caseworker may be able to see 
that the woman gets advocacy and legal services to help change the 
visitation order or can safely plan with the woman in a way that 
addresses the concerns of the child welfare caseworker. What this 
consultation may look like will differ by jurisdiction but the 
importance of it is indisputable.
Supporting Mothers and Children Together
    At the heart of CAPTA as with all efforts to prevent child abuse 
and neglect is the simple question: what do children need? And the 
equally simple answer is that they need a loving and capable parent 
whenever possible. Yet once the child welfare system intervenes to 
protect children experiencing domestic violence it often has little to 
offer those children in terms of resources to address their needs,\10\ 
and the system will often pit the needs of the child against that of 
the parent even when everyone agrees that what would be best for that 
child is for her or his mother to be safe and able to care for him or 
her. It is both this orientation to see the needs of children and their 
non-abusing mothers and caretakers as at odds as well as the lack of 
funding and services available to address both of their needs and their 
need to heal together that must be addressed.
---------------------------------------------------------------------------
    \10\ Rosewater, Ann and Goodmark, Leigh for the Family Violence 
Prevention Fund, (2007) Steps Toward Safety: Improving Systemic and 
Community Responses for Families Experiencing Domestic Violence, p. 36.
---------------------------------------------------------------------------
    In the face of violence, children need many things and often 
different things. But their need to remain connected to a capable and 
caring adult remains central. Some children particularly need to 
maintain the regular rhythms of young life, regular opportunities to be 
with their families, stay in the same school, see the same teachers and 
coaches.\11\ For children experiencing the symptoms of trauma, 
additional services are needed, yet few of those services exist and 
where they do exist they need to be modified to meet the needs of 
children exposed to domestic violence.
---------------------------------------------------------------------------
    \11\ Ibid.
---------------------------------------------------------------------------
    Two model programs have been created by Betsy McAllister Groves at 
Boston Medical Center and Alicia Lieberman at San Francisco General 
Hospital to provide these needed therapeutic services. While developed 
to serve the needs of children, both programs work with the mother and 
children together whenever possible, recognizing that it provides 
better outcomes for children \12\ and creates more long-term stable 
environments to which the children can return. Evaluations of these 
programs have demonstrated their success in ameliorating the children's 
trauma and improving their behavior, as well as improvement in the 
mothers' interactions with their children.\13\
---------------------------------------------------------------------------
    \12\ Ibid. p. 37.
    \13\ Lieberman, A.F., Van Horn, P.J. and Ghosh Ippen, C., ``Toward 
Evidence-based Treatment: Child-Parent Psychotherapy and Symptom 
Improvement in Preschoolers Exposed to Domestic Violence,'' Annual 
Meeting of the International Association of Traumatic Stress Studies, 
New Orleans, 2004.
---------------------------------------------------------------------------
                      the role of men and fathers
    Child welfare systems for the most part have been oriented toward 
mothers. It is true that most mothers remain the primary care-givers of 
their children and that most case files are opened in a mother's name 
even if she is not the one doing any harm to the child. But ignoring 
men is a mistake. By largely dismissing the rolls of fathers and men in 
the lives of these children, systems are both missing opportunities to 
constructively engage men and conversely punishing victims and children 
for abusive men's behavior.\14\
---------------------------------------------------------------------------
    \14\ Rosewater, A. and Goodmark, L., p. 38.
---------------------------------------------------------------------------
    Some child welfare systems, however, are taking the lead and 
searching for new ways to reach out to men and hold abusive men 
accountable for their own behavior. Through the Greenbook Initiative, 
several communities have started developing treatment plans for 
fathers, and hiring batterer intervention staff to help shift thinking 
in child welfare offices.\15\ While abusive men do need to be taken 
seriously as potential risks to mothers and their children, it is 
essential that that concern not defeat all efforts to engage with men 
constructively and support efforts to help them change their behavior. 
Rather, CAPTA should use its power to drive new practices to encourage 
local programs to begin working more constructively with men but not 
begin that work until they have the strong presence of domestic 
violence advocates or in-house expertise.
---------------------------------------------------------------------------
    \15\ Ibid. See also, www.thegreenbook.info.
---------------------------------------------------------------------------
    Together we hope these recommendations aid the committee in 
developing new policies within CAPTA to better serve the needs of 
vulnerable families and most importantly prevent child abuse and 
neglect.
 Prepared Statement of First Star and the Children's Advocacy Institute
    First Star and the Children's Advocacy Institute press for 
amendments to the public disclosure requirement contained in the Child 
Abuse Prevention and Treatment Act (CAPTA) that will provide States 
more clarity regarding the proper balance between confidentiality and 
disclosure in cases of child abuse death and near death. The U.S. 
Department of Health and Human Services' Child Welfare Policy Manual 
(the Manual), which directs States as to the proper implementation of 
CAPTA, interprets the public disclosure mandates broadly. However, as 
was revealed in a recent and widely-publicized report, State Secrecy 
and Child Deaths in the U.S., many States currently fail to re-shift 
the balance between confidentiality and public disclosure when a child 
dies or nearly dies from maltreatment.\1\ Access to the facts regarding 
these tragic incidents enables the public to hold child welfare systems 
accountable and to drive systemic reform where warranted. Many States' 
narrow reading of CAPTA frustrates the statute's purpose and ignores 
the guidance provided by the Manual.
---------------------------------------------------------------------------
    \1\ State Secrecy and Child Deaths in the U.S.: An Evaluation of 
Public Disclosure Practices About Child Abuse or Neglect Fatalities or 
Near Fatalities, With State Rankings, a joint report of the Children's 
Advocacy Institute and First Star (April 29, 2008).
---------------------------------------------------------------------------
    In its current form, CAPTA's public disclosure mandate is overly 
vague. The following amendments to CAPTA will help bring State policies 
in line with the Manual and ensure more predictable, consistent, and 
enforceable disclosure of this critical information:

    <bullet> Clarify that States are required to release both cases of 
death and near death;
    <bullet> Clarify that public disclosure of such cases is mandatory;
    <bullet> Further clarify that States cannot grant themselves 
discretion through restrictive conditions and limitations; and
    <bullet> Add language to direct the scope and nature of the 
information authorized for release.
  1. clarify that states are required to release both cases of death 
                             and near death
    CAPTA explicitly requires a State to adopt ``provisions which allow 
for public disclosure of the findings or information about the case of 
child abuse or neglect which has resulted in a child fatality or near 
fatality.'' However, many States, such as, Colorado, Massachusetts, New 
Mexico, Tennessee, Texas, Utah and Vermont, do not provide anywhere in 
their public disclosure policy for the release of information on near 
deaths.
    This is a blatant violation of an express CAPTA condition. Language 
must be added to CAPTA to better guide and inform States that the 
release of findings and information is also required for near deaths.
      2. clarify that public disclosure of such cases is mandatory
    Section 2.1A.1, Question 1 of the Manual addresses CAPTA 
confidentiality requirements generally.\2\ This Section specifically 
distinguishes between situations in which a State ``may'' share 
confidential child abuse and neglect reports and records and those 
situations in which a State ``must'' provide certain otherwise 
confidential child abuse and neglect information. The Manual indicates 
that a State ``must'' release the findings or information about the 
case of child abuse or neglect that results in a child fatality or near 
fatality. Yet, States such as Alabama, Alaska, Arkansas, Kentucky, 
Louisiana, Maine, Maryland, Missouri, Montana, Nebraska, New Jersey, 
Rhode Island, South Carolina, South Dakota, Tennessee, Vermont, 
Virginia, Wisconsin, and Wyoming use permissive language in their 
public disclosure policies.
---------------------------------------------------------------------------
    \2\ U.S. Dept. of Health & Human Services, Administration for 4 
Children & Families, ``Child Welfare Policy Manual,'' section 2.1A.1, 
available at http://www.acf.hhs.gov/j2ee/programs/cb/laws_policies/
laws/cwpm/policy_dsp.jsp?citID=67.
---------------------------------------------------------------------------
    In accordance with the Manual, CAPTA must clarify that a State is 
required to use mandatory language when constructing its public 
disclosure policy.
   3. further clarify that states cannot grant themselves discretion 
             through restrictive conditions and limitations
    Currently, the exceptions, limitations and conditions that States 
may impose on disclosure of information often makes the intended 
information inaccessible and therefore ineffective in carrying out 
CAPTA's legislative intent. Section 2.1A.4, Question #4 of the Manual 
poses the question: ``Does a State have the option of disclosing 
information on these child fatalities and near fatalities, for example, 
when full disclosure may be contrary to the best interests of the 
child, the child's siblings, or other children in the household?'' The 
answer indicates that a ``State does not have discretion in whether to 
allow the public access to the child fatality or near fatality 
information; rather, the public has the discretion as to whether to 
access the information. In other words, the State is not required to 
provide the information to the public unless requested, but may not 
withhold the facts about a case unless doing so would jeopardize a 
criminal investigation.\3\ ''
---------------------------------------------------------------------------
    \3\ U.S. Dept. of Health & Human Services, Administration for 4 
Children & Families, ``Child Welfare Policy Manual,'' section 2.1A.4, 
available at http://www.acf.hhs.gov/j2ee/programs/cb/laws_policies/
laws/cwpm/policy_dsp.jsp?citID=68.
---------------------------------------------------------------------------
    In spite of this, the public disclosure policies of States such as, 
Maine, Maryland, South Dakota, and Wisconsin presently include a 
provision which allows them to withhold information if the release is 
determined to be contrary to the bests interests of the child who is 
the subject of the report, the child's siblings or any other child 
residing in the same dwelling as the child who is the subject of the 
report. As the Child Welfare Policy Manual makes clear, States are 
expressly prohibited from exercising this type of discretion.
    Additionally, some States, such as Minnesota and North Carolina, 
will not release information about a child fatality or near fatality 
unless the perpetrator is criminally charged. Disclosure simply cannot 
be dependent on a district attorney's decision to prosecute. Criminal 
proceedings are not relevant to the importance of disclosure and 
furthermore these restrictions serve no public benefit. Making 
disclosure contingent on criminal prosecution represents a gross 
misinterpretation of CAPTA language.
    To avoid such violations of the legislative intent of CAPTA and to 
align State policies with the guidance provided by the Manual, language 
must to be added to CAPTA that expressly prohibits any discretionary 
withholding of information by a State.\4\
---------------------------------------------------------------------------
    \4\ Unless disclosure is likely to jeopardize a criminal 
investigation.
---------------------------------------------------------------------------
4. add language to indicate exactly what type information is authorized 

                              for release
    Section 2.1A.4, Question 2 of the Manual addresses whether States 
have the option to disclose ``either the findings of the case, or 
information which may be general in nature and address such things as 
practice issues rather than provide case-specific information.'' The 
answer states that ``the intent of this provision was to assure that 
the public is informed about cases of child abuse or neglect which 
result in the death or near death of a child'' and that a ``State must 
provide for the disclosure of the available facts.'' \5\
---------------------------------------------------------------------------
    \5\ U.S. Dept. of Health & Human Services, Administration for 4 
Children & Families, ``Child Welfare Policy Manual,'' section 2.1A.4, 
available at http://www.acf.hhs.gov/j2ee/programs/cb/laws_policies/
laws/cwpm/policy_dsp.jsp?citID=68(emphasis added).
---------------------------------------------------------------------------
    However, many States violate this directive. For example, Delaware 
authorizes only the release of ``systemwide recommendations'' and 
provides that the facts and circumstances of each death or near death 
shall be confidential. Additionally, Georgia limits its disclosure to 
whether there is an ongoing or completed investigation of the child's 
death and whether child abuse was confirmed or unconfirmed. Many States 
argue that they cannot provide facts about the case because it would 
violate their mandate for confidentiality. However, it is not the 
identifying information that is needed for proper public discourse, but 
rather the facts and circumstances of the case.
    In order to avoid such violations of the legislative intent of 
CAPTA, the public disclosure mandate should clarify exactly what type 
of information the public is entitled to receive upon request. CAPTA 
should be amended to read that the public is explicitly entitled to 
receive information ``including, but not limited to, the cause of and 
circumstances regarding the fatality or near fatality; the age and 
gender of the child; information describing any previous reports made 
to and investigations conducted by the child welfare agency regarding 
the child and/or the child's family, and the results of any such 
investigations; and information describing any services provided or 
actions taken by the child welfare agency on behalf of the child and/or 
the child's family, before and after the fatality or near fatality.'' 
\6\
---------------------------------------------------------------------------
    \6\ State Secrecy and Child Deaths in the U.S.: An Evaluation of 
Public Disclosure Practices About Child Abuse or Neglect Fatalities or 
Near Fatalities, With State Rankings, a joint report of the Children's 
Advocacy Institute and First Star (April 29, 2008).
---------------------------------------------------------------------------
    First Star is a 501(c)(3) established in 1999 to strengthen the 
rights and improve the lives of America's abused and neglected children 
through education, public policy, legislative reform, and litigation.
    The Children's Advocacy Institute was founded in 1989 as part of 
the Center for Public Interest Law at the University of San Diego (USD) 
School of Law. CAI's mission is to improve the health, safety, 
development, and well-being of children. CAI advocates in the 
legislature to make the law, in the courts to interpret the law, before 
administrative agencies to implement the law, and before the public to 
promote the status of children in our society. CAI strives to educate 
policymakers about the needs of children--about their needs for 
economic security, adequate nutrition, health care, education, quality 
child care, and protection from abuse, neglect, and injury. CAI's goal 
is to ensure that children's interests are represented effectively 
whenever and wherever government makes policy and budget decisions that 
will impact them.
        Prepared Statement of the National Child Abuse Coalition
    The National Child Abuse Coalition, representing a collaboration of 
national organizations committed to strengthening the Federal response 
to the protection of children and the prevention of child abuse and 
neglect, calls on Congress to reauthorize the Child Abuse Prevention 
and Treatment Act (CAPTA) programs to provide the core Federal policy 
and support for:

    1. strengthening the child protective services (CPS) 
infrastructure;
    2. promoting community-based services in prevention of child 
maltreatment; and
    3. initiating research and development of innovative programs to 
advance the field of prevention and treatment of child abuse and 
neglect.

    Child maltreatment is a serious public health problem. The U.S. 
Department of Health and Human Services (HHS) reports that CPS agencies 
in 2006 received 3.3 million reports of suspected child abuse and 
neglect. Following investigation, an estimated 905,000 of these reports 
were found to be victims of abuse and neglect. Overall, the youngest 
children suffer the highest rate of victimization. Infants aged birth 
to 1 year are the most vulnerable victims of abuse and neglect, with a 
rate of victimization (24.4 per 1,000 children) almost double that of 
children aged 1-3. Almost 45 percent of children who died of abuse or 
neglect had not reached their first birthday, and more than three-
quarters of children who were killed (78.0 percent) were younger than 4 
years of age. Fatalities due to child abuse and neglect claimed the 
lives of an estimated 1,530 children in 2006 (compared to 1,460 
children in 2005)--4 deaths each day.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2006. Washington, DC, 
U.S. Government Printing Office, 2008.
---------------------------------------------------------------------------
    These are the abused and neglected children who come to the 
attention of communities across the country for protection from 
further, even more serious harm. HHS also reports that many more 
children--whether known or unknown to protective services--are abused 
and neglected each year: According to the Third National Incidence 
Study of Child Abuse and Neglect, an estimated 2.8 million children are 
the victims of abuse and neglect in the United States.\2\ These 
numbers--and the lives of these children--can not be taken lightly or 
dismissed.
---------------------------------------------------------------------------
    \2\ Sedlak, A. and Broadhurst, D. The Third National Incidence 
Study of Child Abuse and Neglect. Washington, DC, U.S. Department of 
Health and Human Services, Administration on Children, Youth and 
Families, 1996.
---------------------------------------------------------------------------
    Preventing the abuse and neglect of children from happening in the 
first place will keep children safe and avert the consequences of child 
maltreatment. Research into the results later in life for children who 
have been maltreated show that:

    1. Child abuse prevention can help to prevent crime. Victims of 
child abuse are more likely to become juvenile offenders, teenage 
runaways, and adult criminals later in life.\3\
---------------------------------------------------------------------------
    \3\ Widom, C.S. (1992). The Cycle of Violence. Washington, DC: 
National Institute of Justice.
---------------------------------------------------------------------------
    2. Ensuring that children are ready to learn means ensuring that 
children are safe at home. Abused and neglected children may experience 
poor prospects for success in school, typically suffering language and 
other developmental delays, and a disproportionate amount of 
incompetence and failure.\4\
---------------------------------------------------------------------------
    \4\ Morgan, S.R. (1976). The Battered Child in the Classroom. 
Journal of Pediatric Psychology.
---------------------------------------------------------------------------
    3. Preventing child abuse can help to prevent disabling conditions 
in children. Physical abuse of children can result in brain damage, 
mental retardation, cerebral palsy, and learning disorders.\5\
---------------------------------------------------------------------------
    \5\ Martin, H.P. and Rodeheffer, M.A. (1980). The Psychological 
Impact of Abuse in Children. In: G.J. Williams. Traumatic Abuse and 
Neglect of Children at Home. Baltimore, MD: Johns Hopkins University 
Press.
---------------------------------------------------------------------------
    4. Preventing child abuse helps prevent serious illnesses later in 
life. Research links childhood abuse with adult behaviors which result 
in the development of chronic diseases that cause death and 
disability.\6\
---------------------------------------------------------------------------
    \6\ Felitti, V.J. and Anda, R.F., et al. (1998). Relationship of 
Childhood Abuse and Household Dysfunction to Many of the Leading Causes 
of Death in Adults. The Adverse Childhood Experiences (ACE) Study. 
American Journal of Preventive Medicine.

    We know that prevention works. Communities across the country have 
developed preventive services which show success in support programs 
for new parents, parent education, respite and crisis care, home 
visitor services, parent mutual support, and family support services.
    Evaluations of home visiting services have shown positive effects 
in the areas of parenting and child abuse and neglect, birth outcomes, 
and health care.\7\ Crisis nurseries have been demonstrated to protect 
children against abuse at home. According to a recent evaluation funded 
by the HHS Children's Bureau analyzing the number of substantiated 
reports of child maltreatment in families using crisis nurseries with a 
comparison group of families for whom crisis respite services were 
unavailable, the families receiving crisis respite services were far 
less likely to ever have a substantiated report of maltreatment than 
the families without nursery services.\8\ According to a nationwide 
longitudinal study conducted by the National Council on Crime and 
Delinquency funded by the U.S. Department of Justice, parents who 
participated over time in Parents Anonymous parent mutual support-
shared leadership groups showed improvement in child protective factors 
and reduced child maltreatment and other risk factors.\9\
---------------------------------------------------------------------------
    \7\ Hahn, R.A., Bilukha, O.O., Crosby, A., Fullilove, M.T., 
Liberman, A., and Moscicki, E.K., et al. (2003). First reports 
evaluating the effectiveness of strategies for preventing violence: 
Early childhood home visitation. Center for Disease Control, Morbidity 
and Mortality Weekly Report, 52, 109.
    \8\ Crisis Respite: Evaluating Outcomes for Children and Families 
Receiving Crisis Nursery Services. ARCH National Respite Network, 2007.
    \9\ National Outcome Study of Parents Anonymous, 2007.
---------------------------------------------------------------------------
    The incidence of child abuse and neglect exceeds the capacity of 
our system to respond adequately. HHS reports that the average time 
from start of investigation to provision of service is 43 days. Less 
than half (41.1 percent) of child victims receive no services. Just 
over one-quarter (25.3 percent) of victims had a history of prior 
victimization. According to the HHS report, ``. . . the efforts of the 
CPS system have not been successful in preventing subsequent 
victimization.'' An analysis of the factors influencing the likelihood 
of recurrence includes the following results:

    <bullet> Children who had been prior victims of maltreatment were 
96 percent more likely to experience maltreatment again than those who 
were not prior victims.
    <bullet> Child victims who were reported with a disability were 52 
percent more likely to experience recurrence than children without a 
disability. (Nearly 8 percent of victims--7.7 percent--had a reported 
disability.)
    <bullet> The oldest victims (16-21 years of age) were the least 
likely to experience a recurrence.\10\
---------------------------------------------------------------------------
    \10\ U.S. Department of Health and Human Services, Administration 
on Children, Youth and Families. Child Maltreatment 2006. Washington, 
DC, U.S. Government Printing Office, 2008.

    Federal officials have repeatedly cited States for certain 
deficiencies: significant numbers of children suffering abuse or 
neglect more than once in a 6-month period; caseworkers who are not 
visiting children often enough to assess needs; and failure to provide 
promised medical and mental health services. We, as a nation, can do 
better. A CAPTA-funded 2001 study shows that job stress related to the 
number and composition of a child protective service worker's caseload 
affects decisions on substantiation of maltreatment reports. The same 
study reveals that a perceived lack of service resources in a community 
may be tied to an increased recurrence of reports.\11\
---------------------------------------------------------------------------
    \11\ Fluke, J. and Parry, D., et al. The Dynamics of 
Unsubstantiated Reports: A Multi-State Study. American Humane 
Association, Englewood, CO, 2001.
---------------------------------------------------------------------------
    In the 2003 reauthorization of CAPTA, the basic State grant section 
was amended to require that children under the age of 3 involved in a 
substantiated case of child abuse or neglect must be referred to early 
intervention services funded under Part C of the Individuals with 
Disabilities Education Act.
    Unfortunately, the implementation of this essential provision has 
been sorely lacking. Part C does not have the capacity, without 
appropriate resources, to serve all children involved in substantiated 
cases referred by CPS. Nor do Part C agencies necessarily possess the 
knowledge and expertise to engage families referred by CPS. HHS needs 
to provide guidance to the States on implementing these procedures, and 
additional funding is essential in order to serve these children. Some 
agencies are making this work, but more needs to be done to attend to 
the important potential lying in these provisions in CAPTA.
    Current Federal spending for child protective services and 
preventive services falls far short of the dollars invested in 
supporting the placement of children in foster care and adoptive 
families. For every dollar spent by the Federal Government in subsidies 
for the out-of-home placement of children, just 14 cents is spent on 
prevention and protective services. Federal laws have created a system 
of child welfare support heavily weighted toward protecting children 
who have been so seriously maltreated they are not safe at home and 
must be placed in foster care or adoptive homes. These are children 
whose safety is in danger; they demand our immediate attention. 
Increasing funding for CAPTA's basic State grants and community-based 
prevention grants will help to begin to address the current imbalance. 
It is time to invest additional resources to work in partnership with 
the States to help families and prevent children from being abused and 
neglected.
    Unfortunately, far less attention in Federal funding and policy is 
directed at preventing harm to these children from happening in the 
first place, or providing the appropriate services and treatment needed 
by families and children victimized by abuse or neglect. CAPTA must be 
reauthorized to respond to the current demand for treatment and 
prevention of child abuse and neglect. In 2008, many States are 
reporting their largest budget shortfalls in almost a decade and about 
half the State legislatures are looking to cut a variety of services to 
avoid spending deficits. As housing foreclosures and other economic 
stresses increase pressures on families, we are concerned that over the 
coming months children will suffer as the funds for necessary services 
will go down. CAPTA, with a focus on support to improve the CPS 
infrastructure and our system of community-based prevention services, 
should be the source to help in providing those resources for 
prevention, intervention, and treatment.
                    capta basic state grant program
    CAPTA should be the core source of funding for child protective 
services, yet it is not. CAPTA funding for basic State grants at the 
current level of $27 million is not up to addressing the scope of the 
need for support of CPS. The National Child Abuse Coalition believes 
that an annual authorized funding level of $500 million is a realistic 
approach to developing the CAPTA basic State grant program as a source 
of core funding for child protective services. A commitment at this 
level of funding will begin to help close the gap between what Federal, 
State and local dollars currently allocate to protect children and 
treat child victims, and what those services cost.
    CAPTA basic State grants are used for developing innovative 
approaches in CPS systems. This is potentially an important source of 
support for improving the child protective service system from State to 
State. Through the CAPTA basic State grant program, the Federal 
Government has the opportunity to step up to a leadership role in 
providing support for the CPS system infrastructure and to begin to 
rectify the imbalance in the Federal Government's response to the abuse 
and neglect of children.
    States report having difficulty in recruiting and retaining child 
welfare workers, because of issues like low salaries, high caseloads, 
insufficient training and limited supervision, and the turnover of 
child welfare workers--estimated to be between 30 and 40 percent 
annually nationwide.\12\ The average caseload for child welfare workers 
has typically been nearly double the recommended level, and obviously 
much higher in many jurisdictions.\13\ Because our system is weighted 
toward protecting the most seriously injured children, we wait until it 
gets so bad that we have to step in. Far less attention in policy or 
funding is directed at preventing harm to children from ever happening 
in the first place or providing the appropriate services and treatment 
needed by families and children victimized by abuse or neglect.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office (2003). HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain Staff 
(GAO-03-357).
    \13\ Alliance for Children and Families, American Public Human 
Services Association, Child Welfare League of America (2001). The Child 
Welfare Workforce Challenge: Results from a Preliminary Study. Dallas.
---------------------------------------------------------------------------
    In addition to authorizing meaningful appropriations for the basic 
State grants to help improve the CPS infrastructure, the National Child 
Abuse Coalition proposes to address through those grants a variety of 
activities essential to a responsive, efficient and appropriate 
protective service system, enabling States to improve their CPS systems 
through CAPTA grant support. In addition to the purposes for basic 
State grants in current law which address CPS improvements, the 
Coalition proposes that CAPTA funds be available to address the 
following issues:

    CPS and family violence services collaboration: recognizing that 
domestic violence and child maltreatment co-exist in 30 to 60 percent 
of the families among whom either is present; child welfare and 
domestic violence prevention programs should adopt assessment and 
intervention procedures aimed at enhancing the safety both of children 
and victims of domestic violence, including, where appropriate, 
developing and implementing collaborative procedures between child 
protective services and domestic violence services, in the 
investigation, intervention, and delivery of services and treatment 
provided to children and families.
    Data sharing: to develop systems of technology that support the 
program and track reports of child abuse and neglect from intake 
through final disposition and allow interstate and intrastate 
information exchange.
    Services to families: to promote the implementation of policies and 
procedures which encourage the development of differential, multiple 
responses for referral of family to a community organization or 
voluntary preventive services where the child is not at risk of 
imminent harm; and policies and procedures encouraging the involvement 
of families in decisionmaking pertaining to cases of abuse and neglect 
of children.
    Linkages to animal welfare: to promote collaborations between the 
child protection system and animal welfare agencies in recognizing 
incidences of child abuse and neglect.
    Legal representation: to require the appointment of an attorney to 
represent the legal interests of the child, as well as a guardian ad 
litem to represent the child's best interests.
    Medical neglect: to extend protection to all children from medical 
neglect by removing language from CAPTA with the effect of allowing 
States to permit parents to withhold medical care from sick and injured 
children on religious grounds in the provision stating that there is no 
``Federal requirement that a parent or legal guardian provide a child 
any medical service or treatment against the religious beliefs of the 
parent or legal guardian. . . .'', in accord with the U.S. Supreme 
Court holding that the First Amendment does not allow one's religious 
practices or beliefs to endanger one's children.
    capta community-based child abuse prevention program (title ii)
    CAPTA should be the basic source of funding for community-based 
prevention programs, yet its resources are inadequate. Current funding 
for the community-based prevention program at $37 million is 
insufficient on a significant scale to the task of preventing the abuse 
and neglect of children from happening in the first place. The National 
Child Abuse Coalition believes that annual authorized funding of $500 
million represents a modest commitment to support prevention of child 
abuse and neglect through CAPTA. Putting dollars aside for prevention 
is sound investing, not luxury spending.
    According to the Urban Institute, States reported spending $22 
billion on child welfare in 2002, and they could categorize how $17.4 
billion of the funds were used. Of that amount, $10 billion was spent 
for out-of-home placements, $1.7 billion on administration, $2.6 
billion on adoption, and $3.1 billion (about 18 percent) on all other 
services, including prevention, family preservation and support 
services, and child protective services.\14\ As one of the few 
dedicated Federal funding sources for prevention, a proper investment 
in CAPTA Community-Based Child Abuse Prevention grants would go a long 
way towards correcting the current imbalance between funding services 
for children after abuse and neglect have occurred, and funding 
services to ensure that abuse and neglect do not happen in the first 
place.
---------------------------------------------------------------------------
    \14\ Scarcella, C.A. (2004). The Cost of Protecting Vulnerable 
Children IV: How Child Welfare Funding Fared During the Recession, 
Washington, DC Urban Institute.
---------------------------------------------------------------------------
    The CAPTA Community-Based Child Abuse Prevention grants should 
assist States and communities to develop tested successful approaches 
to preventing child abuse and neglect through such essential community-
based, family-centered, prevention services as support programs for new 
parents, parent education, respite and crisis child care, home visitor 
services, parent mutual support, and other family support services.
    To improve upon the ability of CAPTA to support State and local 
preventive services, the Coalition proposes that CAPTA Title II should 
be amended to:

    <bullet> Focus the Title II, Community-Based Child Abuse Prevention 
grants on support of services aimed at prevention.
    <bullet> Allow for the redistribution of unexpended funds back 
through the program.
    <bullet> Strengthen accountability provisions in the title II 
program.
    <bullet> Strengthen title II language to include meaningful parent 
involvement through all areas of preventive services.
    <bullet> Elevate home visiting and respite services to the same 
level as other identified core services of activities, and add crisis 
nurseries as a core service (removing the phrase ``as practicable''.)
        capta research and demonstration grants for innovations
    CAPTA is the only Federal program for support of research and 
innovations to improve practices in preventing and treating child abuse 
and neglect, yet funding remains insufficient. CAPTA dollars for R&D at 
the current funding of $37 million is inadequate to satisfy the need 
for advancing our knowledge and improving services for protecting 
children. At the current funding level, HHS is able to fund only a 
fraction of the applications for field-initiated research. The 
Coalition proposes raising the authorized appropriations to the level 
of $100 million, which would help to advance the field's knowledge 
through support for research and program innovations, as well as 
funding for the training, technical assistance, data collection and 
information sharing functions also authorized by CAPTA out of this 
money.
    CAPTA funding is an efficient means of enabling States and 
communities to improve their practices in preventing and treating child 
abuse and neglect. The discretionary grant program is able to support a 
broad array of leadership activities which are uniquely suited to the 
Federal Government's national perspective and ability to address 
current issues in order to advance the field of prevention and 
treatment of child abuse and neglect. Public agencies beleaguered by 
the crises of the day often do not have the capacity to undertake such 
activities, but they benefit from tested approaches, like those CAPTA 
supports. These discretionary grants help ensure that the CAPTA State 
grant funds and other child protection investments will actually 
benefit children.
    Over the years, important strategies in child abuse prevention and 
protection of children have developed with seed money from CAPTA. The 
history of CAPTA funding demonstrates the value of this investment.

    <bullet> Early in the development of the Parents Anonymous program, 
CAPTA support helped to enable this parent mutual support-shared 
leadership organization to expand, through technical assistance and 
training, beyond its beginnings in southern California to become today 
an important prevention resource for tens of thousands of families in 
communities nationwide.
    <bullet> An initial grant from CAPTA helped the first children's 
advocacy center developed in Huntsville, AL by then-district attorney 
and now-Rep. Bud Cramer (D) to serve as the model program for centers 
protecting children in States across the country.
    <bullet> In Hawaii, seed money from CAPTA went to develop the 
successful program of home health visitors. The research and knowledge 
gained through this experience contributed to the development of the 
Healthy Families America program now operating in hundreds of 
communities in almost every State to help parents get their children 
off to a healthy start.
Research, Training and Technical Assistance Grants
    The National Child Abuse Coalition proposes amending CAPTA to focus 
discretionary spending on current topics important to improving our 
ability to protect children and prevent abuse and neglect. Among 
appropriate topics which should be addressed by CAPTA funding are the 
following:

    1. training for domestic violence and for child protection 
personnel in issues relating to child abuse and neglect and family 
violence;
    2. collect and disseminate information on effective programs and 
best practices for developing and carrying out collaborations between 
child protective services and domestic violence services; and
    3. development of best practices for research and evaluation to 
build on the base of evidence regarding differential response.
Training
    The connection between workforce quality and family outcomes was 
documented in a March 2003 report by the U.S. General Accounting Office 
which states,

          ``A stable and highly skilled child welfare workforce is 
        necessary to effectively provide child welfare services that 
        meet Federal goals. [However,] large caseloads and worker 
        turnover delay the timeliness of investigation and limit the 
        frequency of worker visits with children, hampering agencies' 
        attainment of some key Federal safety and permanency 
        outcomes.'' \15\
---------------------------------------------------------------------------
    \15\ U.S. General Accounting Office. (March 2003). ``HHS Could Play 
a Greater Role in Helping Child Welfare Agencies Recruit and Retain 
Staff .'' Washington, DC.

    It has been documented that a well-prepared staff is more likely to 
remain in the field of child welfare, thus reducing worker turnover and 
increasing continuity of services with the family. Some social workers 
are able to take advantage of Federal assistance through the Title IV-E 
and Title IV-B programs of the Social Security Act. These funds are 
used to upgrade the skills and qualifications of child welfare workers 
though their participation in training programs specifically focused on 
child welfare practice. While these programs serve a useful purpose and 
must be preserved, we know that these two programs alone cannot support 
the entire field of child welfare workers.
    A recent NASW study, Assuring the Sufficiency of a Frontline 
Workforce: A National Study of Licensed Social Workers,\16\ shines a 
bright light on issues related to workforce retention. The study warns 
of an impending shortage of social workers that threatens future 
services for all Americans, especially the most vulnerable among us, 
children and older adults. Key findings include:
---------------------------------------------------------------------------
    \16\ Whitaker, T. Weismiller, T. and Clark, E. (2006). ``Assuring 
the Sufficiency of a Frontline Workforce: A National Study of Licensed 
Social Workers. Executive Summary.'' Washington, DC: National 
Association of Social Workers.

    <bullet> The supply of licensed social workers is insufficient to 
meet the needs of organizations serving children and families.
    <bullet> Workload expansion plus fewer resources impedes social 
worker retention.
    <bullet> Agencies struggle to fill social work vacancies.

    Congress should provide sufficient funds to allow for research, 
training, and evaluation of services in the child welfare system. Also, 
greater investments are needed to provide social workers with 
professional development preparation and ongoing training 
opportunities, particularly in the area of cultural competence. We 
believe that valuable employment incentives, including pay increases, 
benefits, student loan forgiveness, and promotional opportunities are 
essential for the development of a highly skilled human services 
workforce.
Demonstration Grants
    In response to needs often overlooked in the prevention of child 
maltreatment and the protection of abused and neglected children, the 
National Child Abuse Coalition proposes amending CAPTA to address 
priorities in:

    1. evaluation and replication of models in the medical diagnosis 
and treatment of child abuse and neglect; and
    2. effective collaborations between child protective services and 
domestic violence services, including attention to investigation and 
intervention procedures, with regard for the safety of children and of 
the non-abusing parent, and the necessary services to children exposed 
to domestic violence.

    The technical assistance offerings, evaluation measures, and 
information dissemination functions supported by CAPTA should address 
these priorities as well. The statute should focus on improving the 
evaluations of CAPTA-funded demonstration grants, the replication of 
successful model programs, and the distribution of information on 
programs with potential for broad-scale implementation and replication.
                 definition of child abuse and neglect
    The National Child Abuse Coalition proposes amending the definition 
of ``child abuse and neglect'' in CAPTA to conform with the 
preponderance of State child abuse reporting laws and to recognize the 
value and import of early intervention in the protection of children 
who have been maltreated or are at risk of more serious abuse or 
neglect. We urge Congress to return the statutory definition to the 
language of CAPTA as originally enacted in 1974 by removing the words 
``serious,'' ``recent,'' and ``imminent'' in recognition of the reality 
of practice in child protective services and the increased attention to 
providing preventive services and a differential response to families 
and children in need of support and assistance.
                               conclusion
    CAPTA has an important role in the Federal response to the 
prevention of child maltreatment and the protection of abused and 
neglected children. Unfortunately, the Federal role bears almost no 
relationship to the extent of the problem of child maltreatment in our 
society. While the numbers of children abused and neglected each year 
in the United States remain high, Federal budgetary policy remains 
focused on paying billions of dollars for the removal of children from 
homes where they are no longer safe. Relatively few Federal resources 
are directed at helping States and communities in their response to 
protecting children at the first instance of harm, or preventing that 
harm from happening at all.
    The prevention of child abuse requires intensive effort and the 
commitment of resources such as we rarely see in government, certainly 
more than is allocated to date through CAPTA. We are at a point now 
where we can act to improve upon the Federal support and leadership. We 
urge the adoption of legislation to amend CAPTA in ways that will truly 
assist States and communities in their efforts to keep children from 
harm. We stand ready to assist this subcommittee and your colleagues in 
Congress in developing a responsive Federal role for protecting 
children and preventing child abuse.

    [Whereupon, at 3:58 p.m., the hearing was adjourned.]




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
